<html>
<title> - ALLEVIATING GLOBAL HUNGER: CHALLENGES AND OPPORTUNITIES FOR U.S. LEADERSHIP</title>
<body><pre>[Senate Hearing 111-85]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 111-85
 
                 ALLEVIATING GLOBAL HUNGER: CHALLENGES 
                 AND OPPORTUNITIES FOR U.S. LEADERSHIP

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                     ONE HUNDRED ELEVENTH CONGRESS



                             FIRST SESSION



                               __________

                  INSERT DATE HERE deg.MARCH 24, 2009

                               __________



       Printed for the use of the Committee on Foreign Relations


                   Available via the World Wide Web:
              http://www.gpoaccess.gov/congress/index.html


                  U.S. GOVERNMENT PRINTING OFFICE
51-957                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
?

                COMMITTEE ON FOREIGN RELATIONS          

            JOHN F. KERRY, Massachusetts, Chairman          
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       Republican Leader designee
BARBARA BOXER, California            BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHNNY ISAKSON, Georgia
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   JIM DeMINT, South Carolina
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
JEANNE SHAHEEN, New Hampshire        ROGER F. WICKER, Mississippi
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                 David McKean, Staff Director          
       Kenneth A. Myers, Jr., Republican Staff Director          

                             (ii)          

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Beckmann, David, President, Bread For The World, Washington, DC..    18

      Prepared statement.........................................    19


Bertini, Hon. Catherine A., Former Executive Director, World Food 
  Programme, Syracuse, NY........................................     7

      Prepared statement.........................................    11


Ejeta, Gebisa, Professor of Agronomy, Purdue University, West 
  Lafayette, IN..................................................    49

      Prepared statement.........................................    52


Glickman, Hon. Daniel R., Former Secretary of Agriculture, 
  Washington, DC.................................................     9

      Prepared statement.........................................    11


Kerry, Hon. John F., U.S. Senator From Massachusetts.............     1


Lugar, Hon. Richard G., U.S. Senator From Indiana................     4


Paarlberg, Robert, Professor Of Political Science, Wellesley 
  College, Wellesley, MA.........................................    20

      Prepared statement.........................................    22


Price, Edwin, Associate Vice Chancellor and Director, The Norman 
  Borlaug Institute For International Agriculture, College 
  Station, TX....................................................    42

      Prepared statement.........................................    45




                                 (iii)

  


                       ALLEVIATING GLOBAL HUNGER:
                      CHALLENGES AND OPPORTUNITIES
                          FOR U.S. LEADERSHIP

                              ----------                              


                        TUESDAY, MARCH 24, 2009

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:37 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Casey, Shaheen, Lugar, and Risch.

           OPENING STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order. Thank you all 
for your patience, and thank you for being here with us today.
    We have two really interesting panels today on a topic of 
enormous global importance, certainly one of the great physical 
diplomatic challenges of our time, but also one of the great 
moral challenges that the world faces today, and that is the 
crisis of the persistence of global hunger.
    When you stop and think about it, measured against so many 
fortunate nations, it's really quite astounding that in 2009 
there are over 850 million hungry people in the world. One in 
seven people on Earth goes hungry every day, and when we talk 
about ``going hungry every day,'' we are talking about real 
pain and anguish and suffering that goes with that hunger.
    It has been a goal of our country, and of other countries, 
to try to alleviate this crisis and the suffering that it 
causes. While other threats force themselves into the front 
burner and command our attention, hunger and malnutrition 
remain the No. 1 risk to health worldwide, a risk that will be 
exacerbated by two relatively new driving forces in today's 
world; one, the global financial crisis, and two, global 
climate change.
    We're already having a harder time feeding people, and the 
challenge is only growing more complicated. The reality is that 
we have a long way to go to achieve the very first millennium 
development goal, which is to cut in half by 2015 the 
proportion of people in the developing world who suffer from 
hunger.
    In Africa, things have actually gone backward; one in three 
people are malnourished, and food security today is worse than 
it was in 1970. Conflict, poor governance, and HIV/AIDS have 
all reduced basic access to food. Now drought, aggravated by 
climate change, makes the situation even more desperate.
    This is important. We need to begin to deal with the 
growing impact that climate change will have on our struggle 
against hunger. A recent study in Science warns us that as much 
as half the world's population could face serious food 
shortages by the end of this century, a burden that will 
largely be borne by those who have done the least to bring 
about climate change.
    Last year's food riots were a worrisome sign of how a 
crisis in food security can quickly become a national security 
issue. The global financial crisis also poses and urgent and an 
immediate threat. The World Bank estimates that, as a result of 
this crisis, an additional 65 million people will fall below 
the $2-per-day poverty line this year, and an additional 53 
million will fall below the absolute poverty level of $1.25 per 
day.
    If food prices spike in the next months, we risk a double-
edged calamity in which farmers in poor countries can't afford 
to plant, and buyers can't afford to purchase food. So, we need 
to think about this issue now so that we can prevent the next 
crisis, instead of simply trying to deal with its consequences.
    One of the special challenges of a truly global crisis is 
that, at the very moment when our assistance is most critical 
in the developing world, we're under the greatest strain to 
turn inward and cut our overseas aid budget. To ensure that 
we're doing our part to feed the world, we have to take a long 
view. We have to resist the urge to abdicate our responsibility 
as an economic and moral leader. Our foreign assistance budget 
directly impacts the number of people that we can help to feed. 
Moreover, nothing will do more over the long run to address 
global hunger than fighting poverty. That's why we must 
demonstrate our commitment by fully funding the President's 
international affairs budget and initiating a foreign-aid 
reform process, which I'm already in discussions with Senator 
Lugar and our counterparts in the House and the administration 
about, and also, I've been having discussions with Senator 
Conrad and the budget folks with respect to the urgency of 
holding on to as much of the President's request as possible. I 
intend to look closely at introducing authorization legislation 
to ensure that we have a strong, effective aid program that can 
tackle the key challenges of our day.
    It's a pleasure to be here with my friend and colleague 
Senator Lugar, who has shown a great deal of leadership over 
time on this issue. He recently introduced, along with Senator 
Casey, a food security bill authorizing new resources to fund 
agricultural development and alleviate poverty, and I commend 
Senator Lugar, and I look forward to working with him on this 
important legislation, as well as with my colleague Senator 
Casey.
    Now, while we need to be ambitious, let's be clear, we 
can't tackle hunger alone. We have to engage a multilateral 
approach. We have to work in coordination with international 
institutions, including the World Food Programme, international 
aid organizations, and the World Bank. And we had a very good 
meeting with Bob Zoellick, the World Bank, and the committee, 
just last week.
    Today, we're very fortunate to be able to hear from two 
very knowledgeable panels of experts.
    Catherine Bertini served as executive director of the World 
Food Programme from 1992 to 2002. In 2003, she was awarded the 
World Food Prize for the efforts to combat hunger. She recently 
cochaired a Chicago Council on Global Affairs Report on 
Renewing American Leadership in the Fight Against Global Hunger 
and Poverty, with Dan Glickman, who took part in that also, our 
former Secretary of Agriculture from 1995 to 2001, and the 
congressman from the Kansas Fourth Congressional District for 
18 years before that. Reverend David Beckmann is president of 
Bread for the World, the leading Christian poverty and hunger 
reduction advocacy group. And Dr. Robert Paarlberg is a 
professor at Wellesley College and a world-renowned expert on 
agriculture, particularly in Africa.
    On our second panel, we will hear from two respected 
scientists on the subject of food security, Dr. Edwin Price, 
associate vice chancellor and director of the Norman Borlaug 
Institute for International Agriculture, which studies the 
economics of farming systems and advises officials in America, 
and across the developing world, on agriculture policy; and Dr. 
Gebisa Ejeta is professor of international agriculture at 
Purdue University. A native Ethiopian, Dr. Ejeta recently 
returned from a year in Nairobi assisting the Rockefeller and 
Gates Foundations with the launch of their new joint 
initiative, the Alliance for Green Revolution in Africa.
    So, we really have some outstanding testimony today, and 
I'm confident that the committee is going to benefit enormously 
from both of these panels and from the hearing this morning. 
And I hope, as a country, we will benefit by understanding why 
we need to uphold our end of this bargain and make the 
commitments that we need to make.
    I make an apology up front that at 11 o'clock I have a 
meeting that I need to attend briefly, and I will leave the 
committee in the good hands of our ranking member, which only 
underscores the full bipartisanship of this endeavor. He's 
promised me he's not going to pass anything unruly in the time 
I'm gone. [Laughter.]
    And so, Senator Lugar, I turn the floor to you.

              STATEMENT OF HON. RICHARD G. LUGAR, 
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman. I 
join youin welcoming our distinguished witnesses today. Each 
one of them has made unique contributions to alleviating hunger 
and promoting rural development.
    I appreciate the leadership Dan Glickman and Catherine 
Bertini provided to the recent outstanding Food Security Report 
by The Chicago Council on Global Affairs. As a former Secretary 
of Agriculture and head of the World Food Program, the two have 
great authority on hunger issues. And I am pleased, also, that 
we are joined by David Beckmann, who has gained so much respect 
over many, many years as a consistent and creative advocate on 
hunger issues.
    Finally, the scholarship of Dr. Robert Paarlberg, a born-
and-raised Hoosier, as I pointed out as we greeted him this 
morning, has greatly advanced my own understanding of food 
security issues. His book, ``Starved for Science,'' is a must-
read for anyone attempting to understand the global food 
dilemma and how political factors are creating obstacles to the 
scientific advancements necessary to meet rising demand for 
food. Dr. Paarlberg also was a primary contributor to the 
Chicago Council's report.
    I'm also pleased that we have two distinguished scientists, 
as you pointed out, Mr. Chairman, on the second round of 
hearings. Dr. Edwin Price, director of the Normal Borlaug 
Institute for International Agriculture, has spent a long 
career working in the agricultural development field, and Dr. 
Gebisa Ejeta, a plant geneticist working with sorghum at Purdue 
University, will provide insights on the state of agriculture 
in his country of Ethiopia and, more broadly, in Africa.
    I would like to also point out, Mr. Chairman, that we 
invited the Secretary of State, Hillary Clinton, to be part of 
the hearing today, and she was unable to come because of 
conflicting schedules, but she writes, in her letter of March 
18, 2009, ``Combating hunger is a top priority for this 
administration, and for me personally, and I want to express my 
sincere appreciation for the leadership you've shown on this 
important issue. In his Inaugural Address, President Obama 
stated to the people of poor nations that we would work 
alongside them to make their farms flourish and to nourish 
starved bodies. In addition, during my confirmation testimony, 
I called for a move away from reacting to food crises in an ad 
hoc fashion, toward making food security a priority in our 
development programs. The administration's fiscal year 2010 
budget request recognizes the need to continue and expand our 
efforts on food security. We will also work to ensure that our 
partners follow through on commitments they made on food 
security at the 2008 G8 Summit.''
    I appreciate very much Secretary Clinton's comments, which 
are very appropriate for our hearing today.
    We live in a world, as you pointed out, Mr. Chairman, where 
nearly a billion people suffer from chronic food insecurity, 
with an estimated 25,000 people dying each day from 
malnutrition-related causes. And health experts advise us that 
chronic hunger has major health consequences, including 
decreased child survival, impaired cognitive and physical 
development of children, and weaker immune-system function, 
including resistance to HIV/AIDS. These severe humanitarian 
consequences of hunger are sufficient cause for us to 
strengthen our approach to global food security.
    But, we have an even bigger problem. A dangerous confluence 
of factors threatens to severely limit food production in some 
region as the world's population continues to expand. Between 
1970 and 1990, global aggregate farm yield rose by an average 
of 2 percent per year. But, since 1990, aggregate farm yield 
has risen by an annual average of just 1.1 percent. The USDA 
projects that growth in global farm yields will continue to 
fall. These trends threaten the fundamental welfare of a large 
share of the world's population.
    Here are the basic parameters of the problem:
    First, the world's population is projected to increase to 
about 9.2 billion people by 2050. Growing affluence in China, 
India, and elsewhere is increasing demand for resource-
intensive meat and dairy products. It's estimated the world's 
farmers will have to double their output by 2050.
    Second, food security is closely tied to volatile energy 
costs. Farming is an energy-intensive business. Crops have to 
be transported efficiently to market, and petroleum-based 
fertilizers and pesticides are widely used. Energy price spikes 
in the future are likely to hit with even greater ferocity than 
the spike in 2007 and 2008.
    Third, water scarcity will worsen in response to population 
growth, urbanization, land-use pressures, and the effects of 
climate change. According to a recent report by the Royal 
Institute of International Affairs, a half-billion people 
currently live in countries with chronic water shortages, a 
figure that is expected to rise to 4 billion by 2050.
    Fourth, climate change is challenging farmers on every 
continent to deal with altered weather patterns, novel 
agricultural pests, and new water conditions.
    Now, despite these alarming trends, investments in 
agriculture have tumbled in recent decades. By 2007, rich 
countries devoted a mere 4 percent of their foreign assistance 
to agriculture. In Africa, which has the most severe food 
problems, donor aid to the farm sector plunged from $4.1 
billion in 1989 to just $1.9 billion in 2006. Africa's per-
capita production of corn, its most important staple crop, has 
dropped by 14 percent since 1980.
    Equally troubling are sharp cutbacks in research into new 
technologies, farming techniques, and seed varieties that could 
increase yields, cope with changing climate-change conditions, 
and battle new pests and diseases, and make food more 
nutritious.
    In recent years, development investment dollars have flowed 
to urban areas, because cities were seen as the drivers of 
growth. Likewise, some recipient governments have favored 
infrastructure projects and urban-focused development 
assistance for political reasons. In those nations afflicted by 
corruption, agricultural assistance also may offer less of an 
opportunity for diversion of funds than an expensive 
infrastructure project.
    Trade policy of both developed and developing countries is 
too often focused on protecting domestic farmers rather than 
creating well-functioning global markets. In addition, many 
governments, especially in Europe and Africa, have rejected the 
biotechnology advancements that are necessary to meet future 
demand for food.
    Opposition to safe genetic modification technology 
contributes to hunger in Africa in the short run and virtually 
ensures that much of the continent will lack the tools to adapt 
agriculture to changing climate conditions in the long run.
    Now, without action, we may experience frequent food riots, 
and perhaps warfare, over food resources. We almost certainly 
will have to contend with mass migration and intensifying 
health issues stemming from malnutrition. Our diplomatic 
efforts to maintain peace will be far more difficult wherever 
food shortages contribute to extremism and conflict. Our hopes 
for economic development in poor countries will continue to be 
frustrated if populations are unable to feed themselves. In 
short, overcoming hunger should be one of the starting points 
for United States foreign policy.
    With these factors in mind, Senator Robert Casey and I 
introduced the Global Food Security Act of 2009. This bill is 
not meant to be a comprehensive solution to the problem, which 
is beyond the scope of a single bill, but we are hopeful that 
it will serve as a practical starting point for improving 
United States and global efforts in this area and as a rallying 
point for those who agree that food security should play a much 
larger role in our national security strategy.
    The bill would make long-range agricultural productivity 
and rural development a top development priority. It 
establishes a special coordinator for food security and charges 
the coordinator with developing a whole-of-government food 
security strategy.
    Among other goals, the bill attempts to improve research 
capacity at foreign universities and the dissemination of 
technology through extension services. The bill also improves 
the United States emergency response to food crises by creating 
a separate emergency food assistance fund that can make local 
and regional purchases of food, where appropriate.
    As a farmer who has seen agricultural yields more than 
triple during my lifetime on my family's farm in Marion County, 
Indiana, I have faith that human ingenuity can avert a 
Malthusian disaster, but we have to have time for innovations 
to take root, and we have to apply all the agricultural tools 
at our disposal.
    The current effort on food security risks is falling far 
short of what is needed to guarantee food security. I believe 
the food security challenge is an opportunity for the United 
States. We are the undisputable leader in agricultural 
technology. A more focused effort on our part to join with 
other nations to increase yields, create economic opportunities 
for the rural poor, and broaden agricultural knowledge could 
strengthen relationships around the world and open up a new era 
of United States diplomacy.
    I thank the chairman for holding this hearing. I thank 
Senator Casey for working with me on the bill. And we look 
forward to discussion of the legislation with our witnesses.
    I thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar.
    If we could ask----
    Senator Casey. Mr. Chairman.
    The Chairman. Yes, Senator Casey.
    Senator Casey. Just ask consent that my statement be made 
part of the record.
    The Chairman. Absolutely. And we appreciate, again, as I 
said, your efforts on this.
    [The prepared statement of Senator Casey follows:]

           Prepared Statement of Hon. Robert P. Casey, Jr., 
                     U.S. Senator From Pennsylvania

    I am pleased that the committee is today holding a hearing on 
alleviating global hunger and the challenges and opportunities it 
presents for the United States. I thank the ranking member, Senator 
Lugar, for his efforts to organize this hearing. I have been focused on 
this issue for the past year, ever since a dramatic spike in commodity 
prices led to food shortages, social unrest, and a rise in the number 
of hungry around the world. I worked with other Members of Congress, 
including Senator Durbin, to boost the level of U.S. supplemental funds 
to address the immediate consequences of the crisis, but recognized 
quickly that a ``Band-Aid'' approach to food shortages could only take 
us so far.
    Accordingly, I was honored to join Senator Lugar in introducing the 
Global Food Security Act to overhaul U.S. assistance efforts to better 
address the long-term structural deficiencies that prevent developing 
nations from attaining self-sufficiency on food production. We must be 
prepared to provide the tools, skills, and resources so that farmers in 
developing nations have the capacity to grow their own food and export 
products to national and international markets. Not only is that 
solution more efficient, it is also the only moral choice.
    Let me address an obvious question. With all the problems America 
is facing at home, why does the need to address global hunger still 
matter as an urgent foreign policy priority?

  <bullet> This is a moral issue that strikes at the heart of our 
        conscience. It is about preserving human life and alleviating 
        suffering. A report released by the European Union last year 
        warned that the combination of rising food costs and higher 
        fuel prices jeopardizes the Millennium Development Goals of 
        cutting poverty, hunger, and disease in half by 2015.
  <bullet> The cost of not doing anything, of sitting on the sidelines, 
        is unacceptable and could lead an additional 100 million more 
        people sliding into hunger.
  <bullet> This is also a national security issue, one that will impact 
        the conduct of U.S. foreign policy. We have already seen the 
        devastating effect food shortages have had on developing 
        countries, sparking violence and riots and putting added 
        pressure on already fragile and underresourced governments. We 
        must put in place the tools today to help prevent future food 
        crises down the road.

    Given the new threats we face, the United States can serve its 
national security and humanitarian objectives by fully funding overseas 
emergency food assistance programs. I know that Senator Lugar has 
already summarized the key provisions of the Global Food Security Act, 
but let me offer some additional thoughts. Passage of this legislation 
would achieve three major objectives:

    (1) Enhance coordination within the U.S. Government so that USAID, 
the Agriculture Department, and other involved entities are not working 
at cross-purposes. We do that by establishing a new position in the 
White House, the Special Coordinator for Food Security, who would 
report directly to the President and who would forge a comprehensive 
U.S. food security strategy;
    (2) Expand U.S. investment in the agricultural productivity of 
developing nations, so that nations facing escalating food prices can 
rely less on emergency food assistance and instead take the steps to 
expand their own crop production. A leading agricultural expert 
recently estimated that every dollar invested in agricultural research 
and development generates $9 worth of food in the developing world. I 
am especially grateful to Senator Lugar for his bold proposal, called 
HECTARE, to establish a network of universities around the world to 
cooperate on agriculture research;
    (3) Modernize our system of emergency food assistance, so that it 
is more flexible and can provide aid on short notice. We do that by 
authorizing a new $500 million fund for U.S. emergency food assistance 
and enabling the local or regional purchase of food when appropriate.

    I want to thank our witnesses for their continued commitment to 
alleviating the global food crisis. I also ask the chairman to enter 
into the hearing record today a statement of testimony from the 
Alliance for Global Food Security. The Alliance consists of private 
voluntary organizations and cooperatives operating in approximately 100 
developing nations and would like to share their overall perspective on 
how the United States can best respond to the global hunger crisis.
    The 111th Congress, working with the Obama administration, has the 
opportunity to shape and pass significant legislation to modernize and 
expand our food assistance approach. The Foreign Relations Committee is 
scheduled to mark up the Global Food Security Act next week, and I look 
forward to expedited floor consideration thereafter.

    The Chairman. If we could start, Director Bertini, with 
your testimony, then Mr. Glickman, Mr. Beckmann, Mr. Paarlberg, 
in that order. And I'd ask each of you, just so we can maximize 
the give-and-take here, if you'd summarize your comments, in 
about 5 minutes. Your full testimony will be placed in the 
record as if read in full.
    Ms. Bertini.

   STATEMENT OF HON. CATHERINE A. BERTINI, FORMER EXECUTIVE 
          DIRECTOR, WORLD FOOD PROGRAMME, SYRACUSE, NY

    Ms. Bertini. Thank you very much, Mr. Chairman, Senator 
Lugar, members of the committee. Thank you for inviting us; 
but, more important, thank you for having this hearing and 
taking seriously the issues that the chairman and Senator Lugar 
have just raised, because it has been for too long that the 
U.S. Government has not put agricultural development, and 
especially support for smallholder farmers in developing 
countries, high on the agenda for our foreign policy. And the 
fact that you are having this discussion today, are debating 
this important legislation that Senator Lugar and Senator Casey 
have put forward, and have invited us to participate, means 
that that has changed, and we thank you and commend you for 
that.
    Dan Glickman and I have had the opportunity, as has been 
stated by the Senators, to co-chair The Chicago Council on 
Global Affairs' Global Agricultural Development Project. We 
have met and worked with a group of individuals who have been 
our colleagues in the U.S. Government and in U.N. organizations 
in the past and have put forward suggestions, which are 
summarized in our joint testimony for your consideration here 
today, and for the consideration of the Obama administration.
    We have underlined some of the issues that both Senators 
have discussed this morning and how important it is that we 
address the needs of the almost 1 billion people who are 
desperately hungry, and note that about two-thirds of those 
people live in sub-Saharan Africa and South Asia. We also note 
that the vast majority of those families are headed by women, 
the vast majority of the farmers are women, and since 80 
percent of the farmers in sub-Saharan Africa and 60 percent of 
those in Asia are women, the needs of women should be addressed 
as well.
    Most of these hungry poor live in rural areas, have no 
access to roads or transportation, and live in areas that are 
challenged with not enough water, inadequate rainfall, and 
barely enough, if any, irrigation. These numbers can increase 
dramatically if we do not help people be able to help 
themselves by increasing their agricultural productivity, but 
we think there is an incredible opportunity for the U.S. and 
international organizations to work in this area, and we think 
what's critically important is U.S. leadership--leadership from 
you, from the Senate, from the House, and from the Obama 
administration--leadership where the U.S. can say, ``This is 
important to us,'' but, as both Senators have said, where we 
work together with other countries and other international 
organizations.
    We note that we have led our food foreign policy with food 
aid. And, having run the World Food Program, I know how 
important that is and that we help people stay alive with food. 
We can't diminish that. We can improve it. But what we should 
lead our policy with is, how can we help people become self-
sufficient in agriculture? How can we help women and men 
improve their livelihoods by improving their own agriculture 
production?
    Years ago, we were leaders in this area, in the Green 
Revolution and in many other programs through our land grant 
universities, in research, and in other ways. But, we have 
fallen back very dramatically. We have fallen back on 
scholarships--we used to fund hundreds of scholarships and now 
we fund only about 42. We used to train over 15,000 students in 
agriculture in the developing world, now we train about 1,000 
students. We used to have many specialists in our USAID that 
would help work on these programs, and now we have about 22. 
And we spend about 20 times as much on food aid to sub-Saharan 
Africa as we spend on helping farmers be able to help 
themselves.
    If we are to be leaders in this area, then we can see many 
benefits for the United States. We can see national security 
benefits, because hunger and poverty have empirically been 
political flashpoints. In May 2008, the food crisis caused food 
riots in several countries, and helped unseat at least two 
governments in this world in the last year.
    We see that there are commercial benefits, commercial 
benefits to our own agriculture if we are able to support the 
economic development and well-being of countries in Africa and 
South Asia and elsewhere because, after all, long term, the 
markets for our own farmers are, in the developing world, far 
beyond the markets that are available in developed countries.
    Institutionally, we can improve our own operation of our 
own aid programs, and we can coordinate much better with 
providing leadership to the U.N. organizations in working with 
foundations such as the Gates Foundation and the Rockefeller 
Foundation.
    This is also a wonderful way to restore American standing 
and leadership in the world, because it reintroduces America as 
a force for good on a critical global issue.
    And finally, of course, we see this as a moral 
responsibility for Americans, to help our sisters and brothers 
from around the world who are hungry, and, by providing 
leadership in agricultural development. A survey done by The 
Chicago Council found that 40 percent of Americans believe that 
it is important to address the challenge of poverty, and it 
should be done through support agricultural productivity in the 
developing world.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Ms. Bertini.
    Mr. Glickman.

   STATEMENT OF HON. DANIEL R. GLICKMAN, FORMER SECRETARY OF 
                  AGRICULTURE, WASHINGTON, DC

    Mr. Glickman. Thank you, Mr. Chairman, Senator Lugar. It's 
an honor to appear before both of you today. And, Senator 
Shaheen, who succeeded me at the Institute of Politics and, I 
understand, did a much better job than I did, but I'm delighted 
that she is here.
    The Chairman. Are you planning to run for the Senate, too, 
now? [Laughter.]
    Mr. Glickman. No. Anyway, thank you all. And I want to echo 
the comments of Catherine Bertini.
    We prepared this book, which you all have a copy of. This 
is a strategic plan, actually, on how to change America's 
leadership in the world as it relates to global hunger and 
poverty. I think you all should have this. If you don't, we'll 
get you all copies of this.\1\ We had a distinguished, 
bipartisan group of leaders, from Tom Pickering to Peter 
McPherson to Per Pinstrup-Andersen, Rich Williamson, a whole 
bunch of people who helped us put this together. The idea was 
to put agricultural development at the center of U.S. foreign-
assistance policy, because we believe it's perhaps the most 
important way to alleviate hunger and poverty in the world. 
Catherine talked about a lot of the statistics, here. But, I do 
believe that, by acting decisively and in our own national 
interests, our country can play a central role in saving 
millions, if not tens of millions, of lives in the poorest 
nations of the world, as we did during the Green Revolution.
---------------------------------------------------------------------------
    \1\ The publication referred to by Mr. Glickman, ``Renewing 
American Leadership in the Fight Against Global Hunger and Poverty, The 
Chicago Initiative on Global Agricultural Development,'' The Chicago 
Council on Global Affairs, 2009, will be maintained in the committee's 
permanent records.
---------------------------------------------------------------------------
    I can't resist bringing a movie analogy in for a moment. In 
the movie ``Schindler's List,'' you may recall, at the end, 
Schindler said he didn't do enough to help, to which one of his 
captives said, ``In the words of the Talmud, if you save one 
life, you save the entire world.'' And I think what we're 
talking about here is, by saving more than one life, we can 
save the entire world many times over, because there is a 
prescription to make people self-reliant so that they can 
become productive citizens and get themselves out of poverty, 
and end malnutrition. And that's the important thesis of this 
particular report.
    The most critical requirement for a renewed U.S. effort in 
the fight against global poverty is leadership, and in 
particular, the interest and commitment of the President of the 
United States, the White House, the infrastructure of our 
Federal Government, and especially of the United States 
Congress. Without executive and legislative leadership, these 
issues tend to kind of drift. And I think it's one of the 
reasons Senator Kerry talked about looking back at the foreign 
assistance programs again on a more comprehensive level.
    This is a major effort. It will cost, however, modestly--
our indications are, first-year costs of $340 million, 
increasing to about a billion dollars annually when the 
proposal reaches full funding.
    The key recommendations are: Increasing support for 
agricultural extension and education in sub-Saharan Africa and 
South Asia and increasing support for agricultural research in 
sub-Saharan Africa and South Asia. As Senator Lugar talked 
about, the problems of climate, drought, pest resistance all 
will increase in this changing world, and we desperately need 
the kind of research that was done during the Green Revolution 
that changed the lives of a whole continent. In addition to 
that, we have to look at the way the U.S. development 
assistance and agriculture development policy is implemented, 
including improving interagency coordination for America's 
agricultural development assistance efforts. And to coordinate 
this, we need somebody in the White House, we believe, that's 
kind of in charge of this, overall, to keep pushing, and we 
propose an Interagency Council on Global Agriculture, led by a 
National Security Council deputy charged with the 
responsibility of managing this whole affair. We also believe 
that AID needs a significantly strengthened role in our 
government, needs to have independent budget authority, and 
needs to be tasked with, in fact, taking the lead to getting 
the job done.
    We talk, in our report, about the congressional capacity to 
partner in managing agricultural assistance policy. And I think 
it is fairly self-evident. We cannot, on our own, solve the 
problems of global poverty, but our actions can serve as a 
catalyst for public-private partnerships that will engage the 
relevant stakeholders and ensure that action is effective. So, 
we draw on resources and expertise of the U.S., of 
nongovernmental institutions, universities, private companies, 
and we build with partnerships with folks located in sub-
Saharan Africa and South Asia, as well.
    This is an opportunity to reintroduce America as a leader 
in the world and a force for positive change, and it's 
something that people will relish, I believe, all over the 
world as they try to rebuild their local systems of government 
and their economies. And the recommendations discussed will 
have significant and lasting impact on our international 
partners, as well.
    So, saying that, Mr. Chairman, I'm delighted to have been a 
part of this effort. I'm especially delighted to have worked 
with Catherine as she led the effort to feed millions of people 
over the years. And with the research arms of our government, 
particularly at USDA and other places, as well, we have the 
capability to really have a remarkable and lasting impact on 
the lives of tens, if not hundreds, of millions of people.
    Thank you very much, Mr. Chairman.
    [The joint prepared statement of Ms. Bertini and Mr. 
Glickman follows:]


 Joint Prepared Statement of Cochairs of The Chicago Council on Global 
Affairs' Global Agricultural Development Project--Dan Glickman, Former 
 U.S. Secretary of Agriculture, Washington, DC, and Catherine Bertini, 
   Former Executive Director, U.N. World Food Programme, Syracuse, NY

    Chairman Kerry, Senator Lugar, and members of the committee, thank 
you for giving us the opportunity to appear before you to discuss our 
recent work to identify opportunities for the U.S. to reassert its 
leadership in the fight against global hunger and poverty.
    The Chicago Council on Global Affairs convened the Global 
Agricultural Development Leaders Group in fall 2008 to examine the 
risks posed by rural poverty and food insecurity in sub-Saharan Africa 
and South Asia, the role of women in farm families in bring about 
change, and the opportunities for the United States to better address 
the challenges of global hunger and poverty through agricultural 
development. This Leaders Group, which we cochaired, brought together 
individuals with expertise in food and agriculture, foreign policy, 
development of U.S. public policy and international organizations. The 
work of this group was supported by a committee of experts with strong 
knowledge of agricultural research, infrastructure and agricultural 
development, trade, regional affairs in sub-Saharan Africa and South 
Asia, and international economics. The conclusions and recommendations 
of the Global Agricultural Development Leaders Group are put forth in 
the recent report, ``Renewing American Leadership in the Fight Against 
Global Hunger and Poverty.''
    Our study concludes that the Obama administration and 111th 
Congress have a unique opportunity to restore America's global 
leadership in the fight against global hunger and poverty. Over 700 
million people live in rural areas of sub-Saharan Africa and South 
Asia, and struggle to provide food and income for their families 
through farming. The United States has the agricultural expertise, 
institutions, and experience to provide critically needed support to 
increase the productivity and incomes of smallholder farmers in these 
regions. What is required is the vision and commitment of American 
governmental and private sector leaders, working alongside their 
African and South Asian counterparts, in the years to come.
    The 2008 global food crisis renewed attention to the persistent 
problems of hunger and poverty in the developing world and aroused 
concern about global food security over the long term. Sub-Saharan 
Africa and South Asia are home to the largest numbers of poor, hungry, 
people in the world, most of whom are female, smallholder farmers. 
Rural poverty is projected to worsen in the years ahead due to 
continued population growth, growing pressures on limited land and 
water supplies, and climate change. In Africa, food production has 
fallen behind population growth for most of the past two decades, and 
the number of undernourished people is expected to increase another 30 
percent over the next 10 years to reach 645 million. Under a 
``business-as-usual'' scenario, with climate change taken into account, 
the number of undernourished people in sub-Saharan Africa could triple 
between 1990 and 2080.
    The source of these problems is not solely fluctuating food prices 
on the world market, but low productivity on the farm. The production 
growth needed will have to come from improved farm policies, 
technologies, and techniques, including those that address the effects 
of climate change.
    Rural hunger and poverty decline dramatically when education, 
investment, and new technologies give farmers better ways to be 
productive. This happened in Europe and North America in the middle 
decades of the 20th century, then in Japan, and then on the irrigated 
lands of East and South Asia during the Green Revolution in the final 
decades of the 20th century. The problem for sub-Saharan Africa and 
poorest areas of South Asia is that these original Green Revolution 
improvements had only limited reach.
    The early achievements of the Green Revolution were nonetheless 
dramatic enough to create a false impression that the world's food and 
farming problems had mostly been solved. As a consequence, the 
international donors who had provided strong support for agricultural 
innovation and investment in the 1960s and 1970s began pulling money 
and support away. America's official development assistance to 
agriculture in Africa declined approximately 85 percent from the mid-
1980s to 2006. In FY08, the United States spent 20 times as much on 
food aid in Africa as it spent to help African farmers grow their own 
food.
    America must reassert its leadership in helping stimulate higher 
agricultural productivity in sub-Saharan Africa and South Asia--through 
agricultural education and extension, local agricultural research, and 
rural infrastructure--so the rural poor and hungry can feed themselves 
and help support growing population under increasingly challenging 
climate conditions. Without American leadership, little will happen.
    While the United States can and must take the lead, its leadership 
must base its actions on new approaches suited to new realities on 
engaging partners across the spectrum of government and institutions 
that can and should be playing a much stronger role. A strong American 
initiative will encourage America's partners to bring their own 
resources to the table. Governments in sub-Saharan Africa and South 
Asia will also be asked to fulfill their pledges to restore the 
priority of rural poverty reduction. Finally, the United States must 
listen and respond to the needs of women in these poor rural areas, who 
make up the vast majority of farmers in sub-Saharan Africa and South 
Asia.
    A number of statistics demonstrate what the result of investments 
in agricultural development can be. Economists project with some 
confidence that every 1-percent increase in per capita agricultural 
output tends to lead to a 1.6-percent increase in the incomes of the 
poorest 20 percent of the population. According to a recent study by 
the International Food Policy Research Institute in Washington, DC, if 
total investments in agricultural research and development in sub-
Saharan Africa were increased to $2.9 billion annually by the year 
2013, the number of poor people living on less than $1 per day in the 
region would decline by an additional 144 million by 2020. If annual 
agricultural research and investments in South Asia were increased by 
$3.1 billion by 2013, a total of 125 million more citizens in this 
region would escape poverty by 2020, and the poverty ratio in the 
region would decrease from 35 percent to 26 percent.
    The United States has a vital interest in playing a leadership role 
in the fight against global hunger and poverty. America's diplomatic, 
economic, cultural, and security interests will be increasingly 
compromised if our government does not immediately begin to change its 
policy posture toward the rural agricultural crisis currently building 
in sub-Saharan Africa and South Asia. Through renewed leadership on 
these issues, America can strengthen its moral standing, renew ties and 
relationships in regions of heightened strategic concern, increase its 
political influence and improve its competitive position, hedge against 
the serious future danger of failed states, open the door to increased 
trade and cultural exchange, and strengthen American institutions.
    First, strong American involvement in the fight against global 
poverty is consistent with our Nation's highest values and aspirations. 
Americans are deeply uncomfortable with hunger, whether they see it 
face to face in their own neighborhoods or broadcast from Asia and 
Africa on a television screen. A public opinion survey commissioned by 
the Chicago Council found that 42 percent of the America people believe 
that it is not just ``important'' but ``very important'' that the 
United States make combating world hunger a priority in the conduct of 
foreign policy.
    Diplomatically, both Africa and South Asia are already regions of 
heightened concern for the United States. Finding a constructive new 
way to engage governments in these two regions can help restore 
America's policy influence. An initiative that mobilizes the talent and 
influence of America's best institutions--especially its universities--
to address rural poverty and hunger in these regions is a wise and 
efficient deployment of America's ``soft power.''
    In Africa, more than 800 state-owned Chinese enterprises are 
currently active, many working in infrastructure projects greatly 
appreciated by the Africans, even though they are linked heavily to 
petroleum and mineral extraction. The United States has recently 
invested a great deal in Africa's health needs and in the provision of 
humanitarian relief. But the United States would have far more 
political influence in Africa if it also provided a stronger support 
for the fundamental investments needed to stimulate economic growth.
    In South Asia, an agricultural development initiative would help 
the United States strengthen its relations with the governments of this 
region beyond geostrategic or security issues. In Pakistan, for 
example, the United States urgently needs to find a way to stabilize 
and gain influence in a nation beset by economic distress, social 
fragmentation, political instability, and now insurgency. Out of the 
$1.9 billion in overt U.S. aid to Pakistan in fiscal year 2008, only 
$30 million was development assistance. A new initiative to support 
agricultural research and education in Pakistan would be one way to 
implement the valuable 2008 Biden-Lugar vision for increasing 
nonmilitary aid to Pakistan. Agriculture accounts for 25 percent of the 
gross domestic product in Pakistan and employs more than half of the 
total population. Currently, only half of Pakistan's population enjoys 
adequate nutrition.
    National leaders in Africa and South Asia are fully aware of the 
peril they now face from growing rural hunger and poverty, and they 
have repeatedly stated they would welcome a bold new American 
initiative in support of increased local food production. Since the 
2003 meeting of African Union governments, where the heads of nations 
pledged to increase investments in agricultural productivity, the New 
Partnership for Africa's Development (NEPAD) established the 
Comprehensive Africa Agriculture Development Program (CAADP) to provide 
an operation framework to coordinate donor investments in agricultural 
development. If the United States were to become a leader in support of 
these efforts, stronger political ties would be established with dozens 
of African states.
    An initiative to address rural hunger and poverty will also bring 
long-term economic and cultural benefits to the United States in a time 
when our Nation is steadily developing deeper ties with Africa and 
South Asia. Americans and Africans are becoming far more closely 
connected every year in areas such as trade, investment, health, and 
the arts. In 2007, U.S. total exports to sub-Saharan Africa totaled 
$14.4 billion, more than double the amount in 2001.
    Faster economic growth in Africa and South Asia will create new 
trade and investment opportunities for American business. Already in 
South Asia, where GDP growth averaged above 8 percent between 2005 and 
2008, American investors and exporters are making important gains. A 
renewed American focus on alleviating poverty reduction in rural areas 
will pay significant economic dividends in the long run.
    National security interests are also impacted. Hunger and poverty 
are humanitarian flash points. We saw during the 2007-08 interlude of 
extremely high world food prices that human distress in this area can 
lead to violent political confrontation. When international rice and 
wheat prices spiked in April 2008, violent protests broke out in a 
dozen countries, resulting in nearly 200 deaths and helping unseat 
governments in Haiti and Mauritania. In Cameroon in February 2008, 
riots left 24 dead. In India, at least six died in a mob attack on West 
Bengali rice sellers in rationing protests. In Bangladesh in April 
2008, 20,000 textile workers rioted over wages and food prices.
    Supporting rural development and poverty alleviation provide a 
valuable hedge against future political confrontations and the serious 
future danger of more failed states--more Somalias, Zimbabwes, Sudans, 
and Afghanistans.
    Finally, a renewed U.S. effort to support global poverty 
alleviation provide opportunities and benefits to key institutions in 
the United States including American NGOs working in agriculture and 
development, land-grant universities, and America's private 
philanthropic foundation. University leaders in the U.S. will 
especially welcome revitalized support for educational exchanges and 
research ties to sub-Saharan Africa and South Asia. The U.S. land-grant 
university system is world renowned and deepening these universities' 
partnerships with counterparts in the developing world will improve 
American understanding of contemporary social realities in both South 
Asia and sub-Saharan Africa.
    Although there are urgent priorities confronting the new U.S. 
administration and Congress, the time is still ripe for a new 
initiative to combat global hunger and poverty. Renewed American 
engagement would signal a dramatic shift in America's relations with 
the developing world. It would be a first, yet transformative step, 
with the promise of lasting impact. Moreover, global food shortages 
triggered by much higher prices have focused greater political 
attention on food and hunger issues. This creates a unique opportunity 
for action. Finally, the rural poverty and hunger crisis will only grow 
larger with every year of inaction. Postponing action on this 
Initiative beyond 2009 could mean, in the reality of American politics, 
a delay until 2013 or even 2017, allowing an already desperate 
situation to deteriorate even more.
    The Global Agricultural Development Leaders Group developed five 
recommendations for how the United States Government can better address 
the challenge of global hunger and poverty, and achieve the benefits 
discussed. These recommendations, and supporting action points, make up 
the Chicago Initiative on Global Agricultural Development. The 
suggested actions focus on sub-Saharan Africa and South Asia, the two 
regions where hunger and poverty are the furthest from being solved and 
where they will continue to worsen in the years and decades ahead under 
a ``business-as-usual'' scenario. They are targeted at smallholder 
agriculture, as the majority of the rural poor rely on agriculture for 
their livelihoods, and the history of economic development tells us 
that broad-based agricultural change is an essential and early step 
that must be taken across societies. They also acknowledge that women 
play a particularly critical role in the agricultural sector, and must 
be central to any new U.S. approach. The actions suggested recognize 
that strong U.S. leadership is needed, but it should listen to the 
needs and aspiration of those in Africa and South Asia, and respect and 
nurture local initiatives and leadership. Finally, these 
recommendations represent only an initial, small, but potentially 
transformative step toward reducing hunger and poverty in sub-Saharan 
Africa and South Asia.

Recommendation 1--Increase support for agricultural education and 
        extension at all levels in sub-Saharan Africa and South Asia
    Education and training are essential to successful agricultural 
development. In the United States, farming did not become highly 
productive until average rates of public high school completion in 
rural America began approaching the urban level. These better educated 
American farmers prospered by leading the world in the uptake of 
improved farming technologies, many of which were developed by 
agricultural researchers at America's publicly funded land-grant 
universities. Between 1959 and 2000 the percentage of farm-dwelling 
Americans living below the official poverty line dropped from more than 
50 percent to 10 percent, a lower poverty rate than nonfarming 
Americans. Public investments in agricultural research, education, and 
extension have also increased farm productivity and reduced rural 
poverty in other countries and regions. Yet in the impoverished 
communities of South Asia and sub-Saharan Africa, this important tool 
has hardly been put to use.
    Building on its own institutional experience in this area, the 
United States should now play a central role in helping sub-Saharan 
Africa and South Asia improve agricultural education and extension to 
benefit the rural poor. First, USAID can increase its support for 
students, teachers, researchers, and policymakers in sub-Saharan Africa 
and South Asia seeking to study agriculture at U.S. universities. In 
the past, the U.S. has been generous in its support for international 
agricultural students, with a successful result. In support of the 
original Green Revolution in the 1960s and 1970s, roughly 800 Indian 
agricultural scientists were supported in the United States for 
advanced training in agriculture and natural resource protection. 
However, U.S. support for such programs has waned in recent years. In 
1990, USAID was funding 310 agricultural-focused students annually from 
developing countries; today only 82 are supported. USAID-sponsored 
scholarships to Africans for overseas post-graduate training in 
agriculture fell from 250 in 1985 to just 42 by 2008. We can trace much 
of the strong performance of Indian, Brazilian, and East Asian 
agriculture directly to the trained cadres of national agricultural 
educators and scientists who spent time at universities in the United 
States; increasing the number of students trained at U.S. universities 
is critical to supporting overall development of Africa and South 
Asia's agricultural sectors.
    The United States must also increase the number and extent of 
American agricultural university partnerships with universities in sub-
Saharan Africa and South Asia, so these regions can take over 
agricultural leadership training in the long run. In Africa currently, 
enrollment rates for higher education are by far the lowest in the 
world. The gross enrollment ration in the region for 18- to 23-year-
olds stands at only 5 percent, compared to the 19 percent for East 
Asia. Institutions are typically short of trained faculty, with often 
only 30 to 70 percent of required faculty postings unfilled. The 
enrollment in South Asia is only slightly better at 10 percent. 
Economists have recently calculated that higher education is a good 
investment. A 1-year increase in tertiary education stock can boost per 
capita income by a potential 3 percent after 5 years, and eventually by 
12 percent. To better support universities in sub-Saharan Africa and 
South Asia, the United States should provide funding to create and 
deepen partnerships between U.S. land-grant universities and 
counterparts in developing countries.
    In addition to supporting universities and their students, the U.S. 
should provide direct support for agricultural education, research and 
extension for young women and men through rural organizations, 
universities, and training facilities. Small-holder farmers yearn for 
education and training, both inside and outside a university setting, 
but many institutions have difficulty providing this training due to 
minimal operating resources. USAID should do more to help provide such 
resources and support training institutions, farmer-to-farmer volunteer 
programs, and training tools similar to 4-H, and Future Farmers of 
America.
    The U.S. Government can also support education and training through 
building a special Peace Corps cadre of agriculture training and 
extension volunteers to work with African and South Asian institutions 
to provide on-the-ground, practical training, especially with and for 
women farmers; and supporting primary education for rural girls and 
boys through school feeding programs based on local or regional food 
purchase.

Recommendation 2--Increase support for agricultural research in sub-
        Saharan Africa and South Asia
    Basic and adaptive agricultural research must be at the foundation 
of any serious effort to increase agricultural productivity. Studies 
that calculate annual rates of return on alternative investments for 
increasing growth and reducing poverty in poor countries find that 
investments in agricultural research have either the highest or second 
highest rates of return. The International Food Policy Research 
Institute estimates that if public investments in agricultural research 
are doubled during the next 5 years, and those levels are then 
sustained, and if the increased investments are allocated to meet needs 
in sub-Saharan Africa and South Asia, the resulting improvements in 
agricultural output would lift 282 million people out of poverty by 
2020.
    In spite of its proven success, U.S. investments in agricultural 
research have dramatically declined in recent years. U.S. funding of 
national agricultural research institutions has declined by 75 percent 
since the 1980s. Its support for the Consultative Group on 
International Agricultural Research, the leading network of 
international research centers responsible for developing innovations 
in agricultural science useful to poor farmers in the developing world, 
has been cut by 47 percent. And its funding for collaborative research 
projects between American and developing country scientists dropped 55 
percent.
    New research for many of Africa and South Asia's local crops such 
as millet, cassava, and cowpea, will be needed to enhance productivity 
depending on the region's climate and acroecology. The need for 
research will only increase as the effects of climate change begin to 
impact these regions.
    The Chicago Initiative on Global Agricultural Development suggests 
the United States better support agricultural research through 
increasing funding for National Agricultural Research Systems in sub-
Saharan Africa and South Asia, the Consultative Group on International 
Agricultural Research, and collaborative research between scientists in 
the U.S. and developing countries.

Recommendation 3--Increase support for rural and agricultural 
        infrastructure, especially in sub-Saharan Africa
    Improved infrastructure must be an essential component of any 
serious effort to increase the productivity and income of poor farmers. 
The rural poor in Africa and South Asia need improved access to low-
cost irrigation, transportation, electrical power, storage, and 
marketing systems for their crops. Rural infrastructure in Africa is 
seriously underdeveloped. Roughly 70 percent of all rural dwellers live 
more than a 30-minute walk from the nearest all-weather road. Only 10 
percent of the land is irrigated. Without roads, safe water, electrical 
power, and communications, poor farmers will be held back because they 
lack affordable access to innovative new technologies, essential 
inputs, and market for their output. Unfortunately, profit-making 
private companies have little incentive to invest in infrastructure.
    However, public investments in rural infrastructure are a proven 
key to poverty reduction. In India, according to calculations done by 
the International Food Policy Research Institute, investments in rural 
roads were even more powerful than investments in agricultural research 
and development for the purpose of lifting people out of poverty. 
Similar impacts have been measured in Uganda and Ethiopia. The World 
Health Organization has calculated that if all Africans were simply 
provided with improved water and sanitation services, along with 
household water treatment at point of use, the annual health, 
financial, and productivity benefits would exceed the annual costs by a 
ration of about 14 to 1.
    Africa's total rural infrastructure needs are substantial, far more 
than the United States can or should attempt to finance on its own. 
Instead, the U.S. should also use its considerable funding commitments 
in the area of infrastructure, recently made through the Millennium 
Challenge Corporation, to leverage larger and better focused rural 
infrastructure efforts by others.
    First, the U.S. should encourage a revival of World Bank lending 
for agricultural infrastructure in sub-Saharan Africa and South Asia, 
including lending for transport corridors, rural energy, clean water, 
irrigation, and farm-to-market roads. In recent years the World Bank 
has taken a revived interest in infrastructure, including in Africa. It 
committed $2 billion to such projects alone in FY08. Working in 
consultation with African institutions, and partner donors from the 
European Union and Japan, the United States should now insist upon a 
sustained increase in World Bank lending for rural and agricultural 
infrastructure. The effective delivery of this message will require 
close and sustained cooperation between the administrator of USAID 
(including MCC) and the Treasury Department, traditionally the agency 
responsible for representing U.S. interests with the World Bank. 
Bipartisan congressional support for this priority will also be 
essential since World Bank leadership is sensitive to congressional 
approval.
    The U.S. should also accelerate the disbursal of the Millennium 
Challenge Corporation funds already obligated for rural roads and other 
agricultural infrastructure projects in sub-Saharan Africa and South 
Asia. As of 2008, the MCC had awarded 18 grants, 11 of which are toward 
African countries. Although the total dollar commitment of these grants 
is significant--$4.5 billion--and the grants' heavy focus on 
infrastructure correct, the slow pace of progress on the implementation 
of these commitments has hindered their impact. For example, the MCC 
signed its compact with Benin in February 2006, but nearly 3 years 
later only 8 percent of the funds have been disbursed. Moreover, the 
MCC compact with Ghana was signed in August 2006, and more than 2 years 
later only 6 percent of the funds have been disbursed. Congress must 
assist in finding a means to shorten the timeframe between country 
selection, compact signing, and fund disbursement.

Recommendation 4--Improve the national and international institutions 
        that deliver agricultural development assistance
    Successful assistance policies cannot emerge from inadequate 
institutions or from institutions that do not coordinate with each 
other and lack strong political leadership. A strong institutional 
framework is required to turn good ideas into operational policies and 
ensure that any added budget resources appropriated by Congress will be 
put to proper and effective use.
    The Chicago Initiative recommends several institutional 
improvements. First, clear lines of authority and command must be 
established inside the executive branch, emanating first from the White 
House, then through a single lead agency for international rural and 
agricultural development and hunger reduction. We believe a revitalized 
and strengthened USAID should be that lead agency. Its administrator 
should chair both the MCC and PEPFAR, and the agency should have an 
independent relationship with the Office of Management and Budget. 
Second, in order to play this enlarged role in the area of agricultural 
development, USAID must be given enhanced professional staff resources 
in addition to an increased budget. The number of agricultural 
specialists on USAIDs staff has dropped from 181 in 1990 to just 22 in 
2008. We recommend increasing the number of agricultural specialists on 
USAIDs staff to at least 135; this could include allocating 15 percent 
of the 2,000 new personnel envisioned in Senator Durbin's 2008 
legislation be hired in the agricultural sector.
    Third, an adequate interagency coordination mechanism must exist to 
enhance the opportunities for agricultural development and food 
security, and avoid duplication or conflict with other agencies. We 
suggest creating a new Interagency Council on Global Agriculture within 
the Executive Office of the President to provide active leadership and 
maintain consistent and effective priorities and actions among the many 
U.S. Government agencies engaged in this area. Additionally, the 
position of White House National Security Council deputy for global 
agriculture should be created, to assure active interagency 
coordination on agricultural development policy. The new Interagency 
Council should be cochaired by this NSC Deputy, and the Administrator 
of USAID.
    Fourth, institutions must be developed to ensure and maintain a 
strong congressional focus on agricultural development assistance 
policy. To accomplish this, we recommend all relevant committees in 
both the House of Representative and Senate establish clear staff 
liaison responsibilities in the area of agricultural and rural 
development.
    Finally, America must exert stronger leadership in multilateral 
institutions working on food and agriculture to improve their 
performance. This means paying strict attention to the setting of 
strategy and policies, decisions that affect technical capacity, 
management oversight, and program evaluation.

Recommendation 5--Improve U.S. policies currently seen as harmful to 
        agricultural development abroad
    A new U.S. approach to reduce global hunger and poverty will not be 
seen as credible without addressing some of our country's own policies 
in the area of food and agriculture. Making some of these changes will 
provide an international signal that the United States is serious about 
reducing global food insecurity, and will help build support for 
reducing poverty abroad.
    The U.S. should improve the way it delivers food aid. America is 
the world's largest donor of food aid to hungry people, a matter of 
justifiable national pride. Hundreds of thousands of lives have been 
saved through this assistance, and hundreds of millions of lives 
improved. However, our food aid programs do not go far enough in 
dealing with long-term, systemic problems, and America does not get 
enough payoff from its very large food aid budget because of several 
longstanding practices in the way it is delivered. To improve this 
system, America should increase funding for local purchase of food aid 
and scale down the practice of monetizing American food aid into 
commercial markets in recipient countries. These actions would grow and 
better support local markets and farmers in the developing world.
    The United States should also repeal current restrictions on 
agricultural development assistance that might lead to more 
agricultural production for export in poor countries in possible 
competition with U.S. exports. Most notably is a piece of legislation 
passed in 1986, most commonly known as the Bumpers amendment, that 
prevents USAID from supporting agricultural development or research in 
foreign countries of crops that are produced in the United States. The 
law was passed at a time when U.S. agricultural exports and crop prices 
were in deep collapse--it is now time to repeal this outdated measure.
    Moreover, the U.S. should review it's objection to any use of 
targeted subsidies (such as vouchers) to reduce the cost to poor 
farmers of key inputs such as improved seeds and fertilizers. We are 
not saying that such policies should be implemented, but that the 
provision of targeted vouchers to support technology use by small 
farmers should be restored as one possible option in the design of 
USAID agricultural programs in Africa and South Asia, particularly in 
circumstances where rural credit markets and transport infrastructure 
remain inadequate.
    Fourth, the U.S. should revive international negotiations aimed at 
reducing trade-distorting policies, including trade-distorting 
agricultural subsidies. And finally, the U.S. should adopt biofuels 
policies that place greater emphasis on market forces and on the use of 
nonfood feedstocks. Research suggests that the recent promotion of corn 
use for ethanol production were a major factor in the international 
food price spikes in 2008. The Energy Independence and Security Act of 
2007's mandate that 36 billion gallons of renewable fuel be used in the 
United States by 2022, with up to 15 billion gallons of that to come 
from corn, is insensitive to market forces and may threaten global food 
supply. Consideration should now be given to either waiving or reducing 
these mandates, and increasing the use of nonfood feedstocks in the 
production of biofuels.
    The estimated total cost to the U.S. budget of the recommend 
actions in the Chicago Initiative is $340 million in the first year, 
increasing to $1.03 billion by year five and continuing at that level 
through year ten. Projected first-year costs are only 1.5 percent of 
the current annual U.S. official development assistance budget of $21.8 
billion. By year five, costs would still only be a 4.75-percent of 
current U.S. official development assistance.
    These five recommendations are an opportunity for the United States 
to reestablish its leadership in the fight against global hunger--
providing a small but critical step toward lifting millions out of 
hunger and putting them on the path to self-reliance. While many of 
these actions are not entirely new, they have been proven effective in 
the past--through the remarkable earlier achievements of the Green 
Revolution--when adequately funded. What is new is the effort to 
improve, modify, refresh, and append these measures for a new age and a 
new challenge. When taken together, these recommendations will align 
America with the forces of positive change, to meet the most basic of 
human needs and lofty of human aspirations.

    The Chairman. Thank you very much. Thank you very much, Mr. 
Glickman.
    Reverend Beckmann.

            STATEMENT OF DAVID BECKMANN, PRESIDENT, 
              BREAD FOR THE WORLD, WASHINGTON, DC

    Mr. Beckmann. Mr. Chairman, Senator Lugar, members of the 
committee, thank you for this hearing and for inviting me.
    I want to start out by telling you about a trip I took to 
Mozambique and Malawi in December. In Mozambique, we got to go 
to a really remote area; we were about 100 miles from the 
nearest road, and our first stop was this little settlement of 
40 households, called Mtimbe, on the lakeshore. It's just 40 
mud houses, each one with its little cassava field. The 
importance of agriculture to the poorest people in the world 
was just obvious in this little place, because if that cassava 
field flourishes, the family does fine; if that cassava field 
doesn't do well, they go hungry for a long time.
    I was heartened that, even in Mtimbe, I could see the 
impact of U.S. foreign assistance. So, almost all the kids are 
in school in Mtimbe; that's from debt relief. And people in 
Mtimbe are living with HIV and AIDS, so they're taking care of 
their kids, they're farming, because they have antiretrovirals.
    Also in these two countries, I could see that our foreign 
assistance could be more effective. In both countries, we're 
not doing enough in agriculture. Our aid programs are heavily 
earmarked, so we're not very responsive to local needs, more 
generally. And in Mozambique, AID, the MCA, and PEPFAR are all 
operating independently, and it was pretty clear to me that 
staff don't necessarily know what each other's doing.
    I'm really thrilled that President Obama and Secretary 
Clinton are putting the emphasis on global poverty--and 
specifically, hunger--that they are, and I'm really grateful to 
Senator Lugar and Senator Casey for introducing the Global Food 
Security Act. It would revivify U.S. support for agriculture, 
it would make our food aid more efficient and more effective, 
and it's right to call for a global food security strategy.
    There are two recent reports that are suggestive of what 
could be an official food security strategy. The Chicago 
Council report, which I heartily endorse. There's also a report 
called the ``Roadmap to U.S. Leadership in Ending Hunger,'' 
which was put together by 30 NGOs, including many of the groups 
that administer U.S. food aid. I think the two most important 
conclusions are that U.S. funding for agriculture ought to grow 
to be equivalent to our funding for food aid, and that, over 
time, half of our food aid ought to be locally procured rather 
than shipped from this country.
    Bread for the World's main campaign this year is a push for 
broad reform of foreign assistance. What we'd like is that you 
pull several agencies together into one strong, accountable 
agency, focus it on development and poverty reduction, and make 
it more responsive to local needs. One result of that is that 
we'd be doing more funding for agriculture, and another result 
is that there would be better coordination across the 
government on hunger and other issues, on an ongoing basis.
    I really was--I was delighted, this morning, Mr. Chairman, 
that you talked about what you're doing to initiate work on 
foreign aid reform, and you mentioned the possibility of 
authorizing legislation. I do think it's important that you 
make it clear to the administration and the House that this 
committee is ready to work with them on broad reform of foreign 
assistance.
    There's a really broad array of organizations who are 
working together to encourage broad reform of foreign 
assistance now. It includes a number of organizations that have 
national constituencies, so--Bread for the World, Oxfam, the 
ONE campaign, InterAction. But, right now if somebody outside 
the Beltway wants to weigh in on this issue, they don't really 
have a very effective way to get their Senator to show support 
for the committee's work on foreign assistance reform. So, 
maybe the authorizing legislation that you're talking about--
that could be something that any Senator could cosponsor so 
that--so that people around the country can build support for 
this work.
    World hunger--we've made progress over the last several 
decades, against poverty, hunger, disease--remarkable progress. 
But, we've suffered a tremendous setback here over the last 
couple of years because of high grain prices and now the 
recession. We need to provide additional assistance, as the 
chairman has said, and at a time like this, we also need to 
make sure that our foreign aid is just as effective as 
possible, and that more of the aid is going to people who 
really need help.
    So, I hope you'll pass the Global Food Security Act and 
that you will also move forward on broad reform of foreign 
assistance.
    [The prepared statement of Mr. Beckmann follows:]

           Prepared Statement of David Beckmann, President, 
                  Bread for the World, Washington, DC

    Mr. Chairman and members of the committee, thank you for this 
opportunity. I am David Beckmann, president of Bread for the World, a 
collective Christian voice that urges our Nation's decisionmakers to 
end hunger at home and abroad.

                         MOZAMBIQUE AND MALAWI

    I was in Mozambique and Malawi in December. I got to visit a remote 
area of Mozambique, a hundred miles from the nearest road. My first 
stop was a settlement of about 40 households called Mtimbe. There were 
no shops or government buildings, just mud homes, each with its cassava 
field.
    The tremendous importance of agriculture to the world's poorest 
people was obvious in Mtimbe. If a family's cassava field flourishes, 
they are fine. It if fails, they go hungry for a long time.
    The farmers I visited in Malawi benefit from extension services, 
improved varieties, and rural roads. The farmers across the lake in 
Mozambique have none of that, and they are much poorer.
    I was heartened to see U.S. assistance at work even in far-off 
Mtimbe. The great majority of the kids are in school, partly because of 
debt relief. I met people who had been at death's door but are now 
farming and taking care of their children--because of AIDS medication 
that our Government funds.
    But I also noted that the United States does less than we should to 
support agriculture in Malawi and Mozambique. More generally, we aren't 
very responsive to local needs and priorities, because our aid programs 
are heavily earmarked here in Washington. In Mozambique USAID, PEPFAR, 
and the MCA is each doing its own thing.

                      THE GLOBAL FOOD SECURITY ACT

    I am grateful to Senator Lugar and Senator Casey for the Global 
Food Security Act. It would reinvigorate U.S. assistance to agriculture 
and make our emergency food assistance more efficient and effective. It 
calls for an integrated global food security strategy.
    The Chicago Council report and another recent report, the ``Roadmap 
to U.S. Leadership to Ending Hunger,'' both suggest what might be 
included in an official global food security strategy. Other panelists 
will discuss the Chicago initiative, so I'll focus on the roadmap. It 
is endorsed by more than 30 NGOs, including many of the organizations 
that administer food aid. It says that we should be investing as much 
in agricultural development as in food aid; that over time half our 
food aid should be purchased locally; and that nutrition programs 
should be focused on the most vulnerable groups (small children, their 
mothers, and people with HIV and AIDS). It also flags the impact of our 
trade policies on global food security.

                           FOREIGN AID REFORM

    Bread for the World's main campaign this year is calling for broad 
reform of foreign assistance. We hope Congress will pull several aid 
agencies together into one accountable agency, focus it clearly on 
development and poverty reduction, and allow it to be responsive to 
local needs and priorities.
    That would lead to substantially more funding for agricultural 
development and better ongoing coordination across the government on 
hunger and other development issues.
    The committee is well aware of the need for foreign assistance 
reform. You have taken steps toward reform in the past. Mr. Chairman, I 
recommend that you make it clear that the committee is willing to work 
for foreign assistance reform if key policymakers in the administration 
and House are willing to work with you. The Obama administration, 
especially Secretary Clinton, is actively considering what is needed to 
make our aid programs better coordinated and more effective. Your 
counterparts in the House under the leadership of Chairman Berman have 
made foreign assistance reform a priority for this year.
    A remarkably diverse array of organizations and experts are calling 
for foreign assistance reform. Many of them are connected with the 
Modernizing Foreign Assistance Network, which I cochair with Steve 
Radelet. Our coalition includes many groups with nationwide reach. But 
right now, people outside the beltway don't have a very effective way 
to urge their senators to show their support for the committee's work 
for foreign assistance reform. We need a bill or resolution they can 
ask their Senators to cosponsor.
    Because of high grain prices and the recession, almost a billion of 
the world's people are now hungry. Some of the poorest people in the 
world have been hardest hit by the turmoil in the global economy. We 
should provide additional assistance. But given our own economic 
problems, we need to make our foreign assistance just as effective as 
possible and focus more of the aid on reducing hunger and poverty.
    I hope you will pass the Global Food Security Act and move forward 
on broad reform of foreign assistance.

    The Chairman. Thank you, Reverend.
    Mr. Paarlberg.

STATEMENT OF ROBERT PAARLBERG, PROFESSOR OF POLITICAL SCIENCE, 
                WELLESLEY COLLEGE, WELLESLEY, MA

    Mr. Paarlberg. Thank you, Mr. Chairman, and thank you, 
Senator Lugar, and thank you, to the other members of the 
committee. As someone who currently lives in Massachusetts and 
grew up in Indiana, I feel like I'm in good hands here on this 
committee. [Laughter.]
    The issue before the committee is America's leadership in 
alleviating global hunger. And in my written testimony, I 
explain that America's performance here has been inconsistent. 
In responding to short-term crises, we generally do very well. 
For example, in response to the 2008 international food price 
spike, the United States committed an additional $1.4 billion 
worth of food aid. And, unlike other countries, the United 
States never placed any restrictions on its own food exports, 
so the United States played a generous and a stabilizing role 
in response to that crisis. I'd grade it at least a B-plus.
    But, the larger and the longer term challenge is to address 
persistent malnutrition that afflicts nearly 1 billion people 
in the developing world. These people are weakened by hunger, 
even when international prices are low. And here, the United 
States has not done well at all. The United States response in 
this area earns something closer to an F in recent years.
    It's sometimes not well understood that the hungriest 
people in the world actually work as farmers. More than 200 
million in Africa, roughly 400 million in South Asia. And these 
farmers are poor--and hence, hungry--because they don't have 
access to any of the things that farmers elsewhere have used to 
become more productive and to escape poverty.
    Consider farmers in Africa. They have little formal 
education, most are women, and two out of three cannot read or 
write in any language. They don't have access to modern seeds 
or to fertilizers, so their crop yields per hectare are only 
one-fifth as high as in the United States. Only 4 percent have 
access to irrigation, so if the rains fail, their crops fail. 
They don't have access to any electricity or any powered 
machinery of any kind, or any veterinary medicine for their 
weak and sick and stunted animals. And finally, 70 percent of 
these farmers live more than a 30-minute walk from the nearest 
paved road, so they're effectively cut off from commercial 
markets.
    And because of these deficits, agricultural production in 
Africa has lagged behind population growth for most of the last 
three decades. As Senator Lugar mentioned, per-capita 
production of maize has actually dropped by 14 percent since 
1980. Average income of these farmers is less than $1 a day, 
and one-third are chronically malnourished.
    But, to make things worse, over the last 25 years the U.S. 
Government has essentially walked away from this problem. Since 
the 1980s, the United States Government has cut its official 
development assistance to agriculture in Africa by roughly 85 
percent. The staff at USAID that handle agriculture has been 
cut by nearly 90 percent. So, as things have been getting 
steadily worse in Africa, the United States Government has, 
curiously, been doing steadily less.
    These cuts in U.S. effort resulted from an unfortunate 
combination of three factors:
    First, too much complacent optimism after the success of 
the original Green Revolution on the irrigated lands of Asia.
    Second, too much faith that private-sector investments 
could solve the problem under the Washington consensus doctrine 
that took over the World Bank and USAID in the 1980s. This 
doctrine failed badly in rural Africa, because there the 
fundamental public goods that are needed to support markets and 
attract investments (things like rural roads, agricultural 
research, schools, rural power); these things had not yet been 
provided by government, so the private sector stayed away.
    And third--third factor that has cut U.S. support for 
agriculture development is, frankly, too much hostility to the 
use of fertilizer and improved seeds by some activist groups 
who claim to work on behalf of social justice and environmental 
protection. Surprising number of activist groups today think it 
would be a mistake to introduce the use of nitrogen fertilizers 
or improved seeds into agriculture in Africa. They've come to 
believe it would be better for Africans to reduce their 
nitrogen fertilizer use to zero and to form--and to farm 
organically. Now, the fact is, most small farmers in Africa 
today are already de facto organic; they don't use any nitrogen 
fertilizers, they don't use any synthetic pesticides, they 
don't use any genetically modified seeds. And this has not made 
them productive and prosperous.
    So, it's time to get beyond these rigid ideologies and find 
a more pragmatic way forward. And, fortunately, agricultural 
specialists have reached a consensus on what's needed in 
regions such as Africa, the consensus that's contained both in 
the 2009 Global Food Security Act and in the report from the 
Chicago Council on Global Affairs.
    I think the danger isn't that Congress will debate this 
strategy and then reject it as too costly, because it isn't too 
costly relative to the anticipated humanitarian, economic, and 
diplomatic gains. The danger, instead, is that a serious debate 
will never take place amid the many distractions of the day, 
and action will simply be deferred. And this would be a costly 
error, because if action is deferred under a business-as-usual 
scenario, the numbers of chronically malnourished people in 
Africa, in particular, will increase by another 30 percent over 
the next 10 years, making the problem that much more difficult 
to resolve if and when we eventually decide to confront it.
    Thank you very much.
    [The prepared statement of Mr. Paarlberg follows:]

         Prepared Statement of Robert Paarlberg, Professor of 
          Political Science, Wellesley College, Wellesley, MA

    Providing international leadership to alleviate global hunger 
requires our Government to have strong policies in two separate areas:

  <bullet> Responding to short-term food emergencies, such as the 
        international food price spike we saw in 2008, which 
        temporarily put up to 100 million more people at risk.
  <bullet> Attacking the persistent poverty that keeps more than 850 
        million people hungry even when international food prices are 
        low.

    In the first of these areas, the United States Government has done 
a good job, at least a B+. But in the second area the U.S. has done a 
poor job over the past 25 years, something close to an F. In 2009 
America has a chance to correct this second failing grade by directing 
more development assistance support to help small farmers in sub-
Saharan Africa and South Asia. Until the productivity of these small 
farmers goes up, poverty and hunger will not go down.
America's Laudable Response to the 2008 World Food Crisis
    When the price of food on the world market suddenly surged upward 
during the first 6 months of 2008, it was clear that some developing 
countries heavily dependent on imported food needed help. In April 2008 
the World Bank produced an estimate that an additional 100 million 
people in the developing world were being pushed into effective poverty 
because of the much higher food import prices.\1\ The New York Times 
called these high prices a ``World Food Crisis.'' The Economist called 
it a ``Silent Tsunami.''
---------------------------------------------------------------------------
    \1\ Maros Ivanic and Will Martin, ``Implications of Higher Global 
Food Prices on Poverty in Low-Income Countries,'' Policy Research 
Working Paper 4594, World Bank, April 2008. In my view this estimate 
was too high. The Bank's calculation was based on what it called a 
``guesstimate'' that 66 percent of all price changes on the world 
market would be transmitted into the domestic markets of developing 
countries. The events of 2008 suggest there was far less price 
transmission than this. Much of the sharp rise in international prices 
resulted from an intentional blockage of price transmissions into 
domestic markets. It was an artificial stabilization of so many 
domestic market prices that worsened the destabilization of 
international markets.
---------------------------------------------------------------------------
    This was a serious crisis for poor countries heavily dependent on 
food imports, particularly in West Africa and the Caribbean, but not 
all developing countries fell into that category. Many governments in 
the developing world have long made it a point not to depend on imports 
of basic grains (in the name of national food ``self-sufficiency''). 
For example in South Asia only about 6 percent of total grain 
consumption is imported, and in India specifically only 1 percent of 
rice consumption is imported. So when the price of rice for export 
tripled in 2008 it was a shock in Cameroon and Haiti, but it had little 
effect on most poor people in India.
    International food prices spiked as high as they did precisely 
because so many developing country governments decided not to let 
higher international prices cross into their own domestic economy. When 
export prices starting increasing in 2007, one country after another 
insulated its domestic market from the increase by placing new 
restrictions on food exports. China imposed export taxes on grains and 
grain products. Argentina raised export taxes on wheat, corn and 
soybeans. Russia raised export taxes on wheat. Malaysia and Indonesia 
imposed export taxes on palm oil. Egypt, Cambodia, Vietnam, and 
Indonesia eventually banned exports of rice. India, the world's third 
largest rice exporter, banned exports of rice other than basmati. When 
so many export restrictions were suddenly set in place, the quantity of 
food available for export dropped sharply, triggering the large price 
spike seen in international markets.
    The response of the United States Government to this price spike 
was timely and commendable. America provided essential global 
leadership, in two important ways.
    First, the United States never placed any restrictions on its own 
exports of agricultural commodities. While others were imposing export 
taxes or export bans, the United States continued to leave its domestic 
food supply open to foreign customers. This was not an easy discipline 
to maintain. America's decision to place no restriction on its own rice 
exports meant prices inside the U.S. economy spiked upward along with 
the international price, which led to an interlude of panic buying. In 
April 2008, Costco Wholesale Corporation and Wal-Mart's Sam's Club had 
to limit sales of rice to four bags per customer per visit. For wheat, 
the U.S. decision not to restrict exports implied much higher operating 
costs for America's baking industry, prompting the American Bakers 
Association early in 2008 to send delegations to Washington to voice 
loud complaint. Despite these domestic pressures, our Government never 
restricted export sales.\2\
---------------------------------------------------------------------------
    \2\ During a much earlier food price spike in 1973, the United 
States was not as disciplined. Japan and other importers were shocked 
when the United States placed a brief embargo on soybean exports in 
1973.
---------------------------------------------------------------------------
    Second, when international prices spiked in 2008 the United States 
dramatically increased its budget for international food aid. In April 
2008, President Bush announced the release of $200 million worth of 
commodities from an emergency food aid reserve for Title II, Public Law 
480, and then in May 2008 the President requested from Congress an 
additional $770 million as a crisis response, with roughly 80 percent 
of this intended to help poor importing governments or support short-
term feeding of vulnerable populations. According to one unofficial 
calculation, the United States responded to the 2008 crisis by 
designating an additional $1.4 billion in food aid above already 
planned funding levels. Total enacted and estimated international food 
assistance spending from the United States in FY 2009 will be roughly 
$2 billion.
    Our policy response to the 2008 food price spike was far from 
perfect, in part because our food aid programs are unnecessarily 
expensive. This is because the United States does not allow any 
significant sourcing of food from outside of the United States and 
because shipment on more costly U.S.-flag vessels is required for 75 
percent of all gross food aid tonnage. As a result an excessive 65 
percent of America's food aid spending goes to administrative and 
transport costs. Some economists calculate that it costs roughly twice 
as much to deliver a ton of food to a recipient through this U.S. food 
aid system as it would cost buying the food from a local market.\3\ The 
United States is heavily criticized abroad for operating its food aid 
programs this way. On the other hand, if America went to a more 
efficient system based on foreign sourcing, political support for the 
program here in Congress would suffer, the size of our food aid budget 
would fall, and food deliveries to some needy recipients abroad might 
then fall as well.
---------------------------------------------------------------------------
    \3\ Christopher B. Barrett and Daniel G. Maxwell, ``Food Aid After 
Fifty Years,'' New York: Routeledge, 2005, p. 167.
---------------------------------------------------------------------------
    America was also heavily criticized in 2008 for the alleged impact 
of its biofuels policies on world food prices. Federal tax credits, 
import tariffs, and renewable fuel mandates promoted the diversion of 
American corn into fuel production, driving up international prices for 
corn used as food or feed. In 2007-08, ethanol production increased to 
roughly 23 percent of America's total corn use. On the other hand, much 
of this diversion would have taken place in 2008 even without any U.S. 
Government tax credits, tariffs, or mandates, simply due to the 
unusually high oil prices that prevailed at the time. When bad things 
happen it is not always the government's fault. It was mostly high oil 
prices, not government policy, that drove up corn use for ethanol in 
2008.
America's Less Helpful Response to Persistent Hunger
    America has shown far less leadership in its policy response to the 
long-term problem of chronic malnutrition in developing countries. This 
hunger problem, linked especially to rural poverty, is roughly eight 
times larger than the temporary problem linked to the 2007-08 price 
spike.
    Even before international food prices began to increase in 2007, 
the United Nations Food and Agriculture Organization (FAO) estimated 
that there were 850 million chronically malnourished people in the 
world. Even when food was cheap on the world market in 2005, in sub-
Saharan Africa 23 out of 37 countries in that region were consuming 
less than their nutritional requirements and nearly one-third of all 
citizens there were malnourished. The problem of hunger in these 
countries derives primarily from persistent poverty, not from price 
fluctuations on the world market. In Africa more than 60 percent of all 
citizens work in the countryside growing crops and herding animals, and 
it is because the productivity of their labor is so low (incomes 
average only about $1 a day) that so many are chronically malnourished.
    To understand the source of these low incomes, pay a visit to a 
typical farming community in rural Africa. The farmers you will meet, 
mostly women, do not have any of the things that farmers everywhere 
else have required to become more productive and escape poverty:

  <bullet> Few have had access to formal education. Two out of three 
        adults are not able to read or write in any language.
  <bullet> Two-thirds do not have access to seeds improved by 
        scientific plant breeding.
  <bullet> Most use no nitrogen fertilizer at all, so they fail to 
        replace soil nutrients and their crop yields per hectare are 
        only one-fifth to one-tenth as high as in the United States or 
        in Europe.
  <bullet> Only 4 percent have irrigation, so when the rains fail their 
        crops also fail, and they must sell off their animals and 
        household possessions to survive until the next season.
  <bullet> Almost none have access to electricity, and powered 
        machinery is completely absent. These farmers still work the 
        fields with hand hoes or wooden plows pulled by animals.
  <bullet> Few have access to veterinary medicine, so their animals are 
        sick, stunted, and weak.
  <bullet> Most of these farmers are significantly cut off from markets 
        due to remoteness and high transport costs. Roughly 70 percent 
        of African farmers live more than a half-hour walk from the 
        nearest all-weather road, so most household transport is still 
        by foot.

    Given such deficits, it is not surprising that agricultural 
production in Africa has lagged behind population growth for most of 
the past three decades. Per capita production of maize, Africa's most 
important food staple, has actually declined 14 percent since 1980. 
Over the same time period population has doubled, so the numbers of 
people living in deep poverty (less than $1 a day) has doubled as well, 
up to 300 million. The number of Africans classified as ``food 
insecure'' by the U.S. Department of Agriculture increased to 450 
million in 2006, and under a business-as-usual scenario this number 
will grow by another 30 percent over the next 10 years, to reach 645 
million.\4\
---------------------------------------------------------------------------
    \4\ United States Department of Agriculture, Economic Research 
Service, ``Food Security Assessment 2007,'' p. 10. http://
www.ers.usda.gov/Publications/GFA19/.
---------------------------------------------------------------------------
    One reason the current business-as-usual scenario is so bleak has 
been weak leadership from the United States. Instead of taking action 
to help address these persistent farm productivity deficits in Africa 
over the past several decades, the United States Government essentially 
walked away from the problem:

  <bullet> America's official development assistance to agriculture in 
        Africa, in real 2008 dollars, declined from more than $400 
        million annually in the 1980s to just $60 million by 2006, a 
        drop of approximately 85 percent.
  <bullet> Between 1985 and 2008 the number of Africans supported by 
        USAID for post-graduate agricultural study at American 
        universities declined 83 percent, down to a total of just 42 
        individuals today.
  <bullet> From the mid-1980s to 2004, USAID funding to support 
        national agricultural research systems (NARS) in the developing 
        countries as a whole fell by 75 percent, and in sub-Saharan 
        Africa by 77 percent.
  <bullet> From the mid-1980s to 2008, United States contributions to 
        the core research budget of the Consultative Group on 
        International Agricultural Research (CGIAR), in real 2008 
        dollars, fell from more than $90 million annually to just $18.5 
        million.
  <bullet> USAID spending for collaborative agricultural research 
        through American universities was nearly $45 million in 
        constant 2008 dollars 25 years ago. As of 2007, this funding 
        was down to just $25 million.
  <bullet> These cuts were accompanied by severe agricultural 
        destaffing at USAID. As late as 1990 USAID still employed 181 
        agricultural specialists. Currently it employs only 22.

    So, while Africa's rural poverty and hunger crisis was steadily 
growing worse, the United States Government was steadily doing less.
Why Did the United States Stop Investing in Agricultural Development?
    Beginning in the 1980s, three factors combined to push the United 
States away from providing adequate assistance for agricultural 
development:
    First, the enormous success of the original Green Revolution on the 
irrigated lands of Asia in the 1960s and 1970s left a false impression 
that all of the world's food production problems had been solved. In 
fact, on the nonirrigated farmlands of Africa, these problems were just 
beginning to intensify.
    Second, it became fashionable among most donors beginning in the 
1980s to rely less on the public sector and more on the private sector, 
under a so-called ``Washington Consensus'' doctrine developed inside 
the IMF and the World Bank. According to this new aid doctrine, the job 
of the state was mostly to stabilize the macroeconomy and then get out 
of the way, so private investors and private markets could create 
wealth. This approach backfired in rural Africa because the basic 
public goods needed to support markets and attract private investors--
roads, power, and an educated workforce--had not yet been provided.
    Third, a new fashion also arose in the 1980s among advocates for 
social justice and environmental protection. These groups began to 
depict the improved seeds and fertilizers of the original Green 
Revolution as a problem, not a solution. They argued that only large 
farmers would profit and that increased chemical use would harm the 
environment. This perspective was not appropriate in Africa, where 
nearly all farmers are smallholders with adequate access to land and 
where fertilizer use is too low rather than too high. In Africa the 
social and environmental danger isn't too much Green Revolution 
farming, but far too little.
    I have documented the importance of these NGO objections to Green 
Revolution farming in a book published last year by Harvard University 
Press.\5\ I show in this book that an influential coalition of social 
justice and environmental advocates from both North America and Europe 
was able to discourage international support for agricultural 
development, including in Africa, beginning in the 1980s. They not only 
opposed the use of modern biotechnology, such as genetic engineering; 
they also campaigned against conventionally developed modern seeds and 
nitrogen fertilizers, even though these were precisely the technologies 
their own farmers had earlier used back home to become more productive 
and escape poverty. To Africans they instead promoted agroecological or 
organic farming methods, not using synthetic pesticides or fertilizers.
---------------------------------------------------------------------------
    \5\ Robert Paarlberg, ``Starved for Science: How Biotechnology is 
Being Kept Out of Africa.'' Cambridge: Harvard University Press, 2008.
---------------------------------------------------------------------------
    The irony is that most farmers in Africa today are already de facto 
organic, because they do not use any GMOs or any nitrogen fertilizers 
or any synthetic pesticides. This has not made them either productive 
or prosperous. Nor has it provided any protection to Africa's rural 
environment, where deforestation, soil erosion, and habitat loss caused 
by the relentless expansion of low-yield farming is a growing crisis.
How to Correct America's Failing Grade in Agricultural Development
    Improving America's dismal policy performance in the area of 
agricultural development does not have to be difficult. We know what to 
do, we know it can be done at an affordable cost, and the current 
political climate even provides new space to act.
    A consensus now exists among specialists, even at the World Bank, 
on what to do. An extensive review conducted by the Bank in preparation 
for its 2008 World Development Report concluded that more public sector 
action was urgently needed: ``the visible hand of the state'' was now 
needed to provide the ``core public goods'' essential to farm 
productivity growth. Three kinds of public goods are needed today in 
the African countryside:

  <bullet> Public investments in rural and agricultural education, 
        including for women and girls.
  <bullet> Public investments in agricultural science and local 
        agricultural research to improve crops, animals, and farming 
        techniques.
  <bullet> Public investments in rural infrastructure (roads, 
        electricity, crop storage) to connect farmers to markets.

    Governments in Africa today endorse this consensus. At an African 
Union summit meeting in Mozambique in 2003, Africa's heads of 
government pledged to increase their own public spending on agriculture 
up to at least 10 percent of total national spending. International 
donors, including the United States, should seize upon this 
constructive pledge, redirecting assistance efforts so as to partner 
aggressively with African governments willing to reinvest in the 
productivity of small farms.
    We know exactly what this redirected assistance effort should look 
like, thanks to the policy roadmap recently provided by two members of 
this committee plus the supportive recommendations of a prominent 
independent study group.
    The widely endorsed Global Food Security Act of 2009 (S. 384), 
known as the Lugar-Casey bill, would authorize significantly larger 
investments in agricultural education, extension, and research, to take 
full international advantage of the superior agricultural resources 
found within, of America's own land grant colleges and universities. 
The increased investments in institutional strengthening and 
collaborative research authorized in this bill could be funded at $750 
million in year one, increasing to an annual cost of $2.5 billion by 
year five. Fully funding this initiative would require roughly a 10-
percent increase in America's annual development assistance budget, a 
small increase alongside President Obama's own 2008 campaign pledge--
which I strongly endorse--to grow that development assistance budget by 
100 percent.
    A second worthy blueprint strongly parallels the Lugar-Casey bill. 
This is a menu of 21 separate recommended actions called the Chicago 
Initiative on Global Agricultural Development, released just 1 month 
ago by an independent bipartisan study group convened by the Chicago 
Council on Global Affairs, with financial support from the Bill & 
Melinda Gates Foundation.\6\ This substantial report, which I played a 
role in preparing, recommends twin thrusts in agricultural education 
and agricultural research, just like Lugar-Casey. It also recommends 
closer coordination with the World Bank to increase investments in 
rural infrastructure, plus a substantial upgrade of agricultural staff 
at USAID. The Chicago Council report estimates that implementing all 21 
of its recommended actions would cost $341 million in the first year 
(an increase over current programs of $255 million), and only $1.03 
billion annually by year five (an increase of $950 million over current 
expenditures). This implies less than a 5-percent increase in our 
current development assistance budget.
---------------------------------------------------------------------------
    \6\ The full report and also an executive summary are available at 
http://www.thechicago
council.org/globalagdevelopment/finalreport.asp
---------------------------------------------------------------------------
Why is 2009 the Best Time to Take These Actions?
    The danger is not that Congress will debate these proposals and 
then reject them as too costly. Both of these proposals are well 
researched and substantively well defended, and the implied costs are 
not at all large alongside the anticipated humanitarian, economic, and 
diplomatic gains. The danger instead is that a serious debate over 
these proposals will never take place, amid the many distractions of 
the day, and a decision will simply be deferred. This would be a costly 
mistake. If new action is deferred, the business-as-usual scenario will 
kick in and numbers of food insecure people in sub-Saharan Africa will 
increase by another 30 percent over the next 10 years, to reach a total 
of 645 million. If the new administration and Congress decide to put 
off action until 2013 or 2017, the hunger problem will only become more 
costly to resolve.
    Fortunately, two important windows of political opportunity are 
open in 2009 to support the embrace of a significant policy initiative 
in this area. First, both the new administration and Congress are eager 
to be seen delivering a ``real change'' in America's policies abroad, 
not just at home. A decision in 2009 to reverse, at last, the 25-year 
decline in U.S. support for agricultural development assistance would 
be a real change, and it would be recognized as such around the world. 
It would transform America overnight from being the laggard in this 
area into being the global leader. With its new agricultural 
development initiative on the table, America could reintroduce itself 
to governments around the world--especially in Africa--with a 
convincing message of hope, not fear. The payoff in farmers' fields 
would not be seen immediately, but the political and diplomatic gain 
would be immediate.
    For those on this committee looking for an affordable way to recast 
America's approach toward governments in Africa (e.g., in response to 
China's growing investment presence and political influence in that 
region), a new agricultural development initiative is actually one of 
the most cost-effective ways to proceed. The annual budget cost is low 
because the best way to support agricultural development is not with a 
massive front-loaded crash program, but instead with small but steady 
annual outlays developed and managed in close partnership with 
recipient governments, maintained for a decade or more.
    The second window of opportunity was provided by the 2008 food 
price crisis itself. Memories of this crisis are still sufficiently 
fresh in 2009 to motivate action on a significant new agricultural 
development assistance initiative, to complement the strong leadership 
we already show in emergency relief and food aid.
    Both these windows of political opportunity are currently open. 
They are not likely to remain open for long.

    The Chairman. Thank you very much, Mr. Paarlberg.
    I want to thank all of you for keeping your testimonies 
tight and to the time. It helps us a lot to be able to get 
engaged in a good dialogue, and we appreciate it.
    Mr. Paarlberg, I want to pick up, a little bit on that, 
but, before I do, I want to come back to some of these farming 
practices and assertions you made.Let me ask you, now, each of 
you perhaps: if you're a farmer out in Kansas, Nebraska, Iowa, 
or Minnesota, for instance, and you're listening to us talk, 
here, about helping the farmers in Africa to be able to 
compete, essentially. And, to some degree, part of the reason 
Doha has been at a gridlock in these last years is European and 
other ``subsidy-ized'' farming entities' resistance to change. 
It's been a long argument by a lot of people for some period of 
time thatyou need to empower less-developed-country farmers to 
be able to sell their goods so they can develop. How do you 
make that argumentas to why this is so important to us, and why 
it is worth this fight?
    Secretary Glickman.
    Mr. Glickman. It's funny, because one of the things that we 
talk about it in the report--is something that's referred to as 
the Bumpers amendment, which--unfortunately, a very good man 
has had his name tied to an amendment which I think is not very 
productive--it says that, ``We cannot provide scientific and 
technical assistance to countries and to programs in other 
countries that might result in crops competitive to the United 
States.'' That was basically done back in the '80s to prevent 
narcotics' policy that would try to transfer people from 
growing cocaine to, let's say, soybeans and other kinds of 
things.
    I would make the following comments.
    First, The Chicago Council did some polling data which 
indicates that people in this country are, in fact, supportive 
of these efforts, both rural and urban people.
    Second, we're all in this together. Problems afflicting 
agriculture, whether you're in the lush farmlands of Indiana or 
Kansas or in the dry lands of the Sahel or South Asia, are 
going to face a lot of the similar problems as it relates to 
drought, to climate change, and so, we're no longer separate 
parties to these things.
    Third, by improving the lifestyle of people around the 
world, they're going to buy more things. They may buy them 
locally, they may buy them from us, but a rising tide lists all 
boats in the world, including agriculture generally.
    And fourth, I think that the time for this kind of 
parochial attitude that we've had for so many years is no 
longer relevant in the world that we live in today. And I think 
people understand that, too.
    The Chairman. Well, is it not more practical to make the 
argument, if these are the people who are malnourished, and 
they're indigenous in their own country, that it might be 
premature to be talking about opening up to the marketplace and 
selling elsewhere? I mean, don't they first have to, you know, 
grow for themselves?
    Mr. Glickman. Well, there is some capability for export 
even in some of the markets we're talking about today, but the 
idea is to create indigenous agriculture production and to help 
people help themselves. And we can do a lot better job of that, 
and, in the process, we can change their lives internally, and 
it will help the United States and the democracies of the world 
deal with the political problems that result from extreme 
poverty and malnutrition that never seem to get better.
    The Chairman. Yes, Dr. Bertini.
    Ms. Bertini. Mr. Chairman, I would add that if we were 
talking to farmers in the Midwest, who are very productive and 
do a lot of exporting themselves, that when they think about 
what markets might be available when their daughters and sons 
are taking over their farms, they have to look to opportunities 
in the developing world to be able to sell their goods in the 
future. They won't be able to sell more in Europe, Japan, or 
other mature markets. But, the places where there are more 
people and more possibilities for economic improvement are in 
the developing world, and that it's, therefore, in their 
commercial interests over----
    The Chairman. Is that only for a crop-specific that can't 
be grown in one of those other countries?
    Ms. Bertini. Not----
    The Chairman. How are you going to compete with our costs 
of energy and production, transit to that other country, versus 
an indigenous production of the same crop?
    Ms. Bertini. Well, depending on the climate, depending on 
the soil--there is a lot of different things that depend on 
what might work in any given region of the world, so it's not 
necessarily competing, on one side or the other, it's really 
about markets. And we're talking about the opportunity for 
more--especially more indigenous growth, which will improve 
economic livelihoods so that people can buy more grain or 
manufactured goods.
    The Chairman. More than they're able to produce, 
themselves.
    Ms. Bertini. Yes, and more than what they can purchase now.
    The Chairman. Anybody else want to add to that?
    Mr. Beckmann. I do. Bread for the World instituted--
commissioned a study by the International Food Policy Research 
Institute on this issue, and if the low-income countries of 
Africa and South Asia could achieve gross comparable to, say, 
the, you know, gross of East Asia, that would be very good for 
United States agriculture, that the--the negative--any negative 
effect of competition is outweighed by the expansion of 
incomes. Because poor people in the world are spending two-
thirds of everything they have on food, so when their income 
goes up, they buy more food, including a little bit more food 
imports. So, in fact, U.S. agriculture has a clear stake in 
global development. Where it gets a little stickier is when--on 
the broader issues of reform of U.S. agriculture and trade 
policies, but--in fact, our--as--you know, our foreign policies 
don't--are not optimal for farm and rural people in America, so 
it is very possible, especially in the context of, say, 
finishing the Doha Round, to have a reform of global 
agriculture that would be better for virtually all U.S. 
farmers, certainly for farm and rural people who are really 
struggling, and also wildly better for farmers in poor 
countries.
    The Chairman. Mr. Paarlberg, let me take you up on this 
issue. Obviously, there's been a very heated debate for a 
number of years about GMO and agricultural practices. I learned 
a lot about this in '04, when I was running around the country. 
I learned a lot about farming I didn't know, even thoughwe have 
a lot of farms in Massachusetts, actually. We have a big 
contingent of farms, still. We used to have a lot more dairy 
than we have today. But, one of the things I learned was the 
degree to which Iowa soil is tiled, and you go down below 
whatever that 6-foot, 5-foot level is, and you run tile. The 
current nitrate runoff into the Des Moines River and the Iowa 
River, and ultimately in Missouri and into the Mississippi and 
down into the Gulf of Mexico, creates an enormous 5,000-square-
mile dead zone every year, not to mention what it does in terms 
of quality of drinking and so forth. This is true all over our 
country. Our non-source-point--point-source runoff is a huge 
problem.
    Increasingly, there is an appetite in America for organic 
food, for non-processed, for good, healthy, basic food. And it 
seems to me that that's not something that we ought to dismiss 
casually. Many, many people are learning a lot more about 
health through good nutrition, through eating more effectively, 
better; and there's a big movement in this country, a lot of 
stores growing up now, a lot of supermarkets, that are making 
it a practice only to sell organic; and more and more people, 
as they learn more and more, are turning towards that.
    You seem to sort of push that aside, and I wonder if that's 
wise for us, in this battle, not to sort of honor and respect 
that movement more effectively and perhaps, you know, fashion 
policies accordingly.
    Mr. Paarlberg. In order to be certified as an organic 
grower, you have to reduce your use of nitrogen fertilizer to 
zero. In Africa today, average applications of nitrogen 
fertilizer are about 9 kilograms per hectare. The African 
agricultural development effort under NEPAD has set, as a 
target for Africa, increasing from 9 kilograms up to about 50 
kilograms per hectare, which I think is a suitable goal. In the 
United States, where we apply more than 100 kilograms per 
hectare, we do get nitrogen runoff and a dead zone in the Gulf 
of Mexico. I think, though, you have to be sophisticated enough 
to set a target at 50 and stay below 100 rather than reacting 
to the dead zone in the Gulf of Mexico by telling farmers in 
Africa they have to go to zero. Too many farmers in Africa are 
at zero today, and their crop yields are only one-fifth or one-
tenth as high as in the United States.
    The Chairman. So, it's really the balance that you're----
    Mr. Paarlberg. Absolutely.
    The Chairman. [continuing]. Talking about----
    Mr. Paarlberg. Absolutely.
    The Chairman. [continuing]. More than anything else, a fair 
balance, in a sense.
    Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    Let me just reiterate some of the points that I think are 
important about food security and our legislative response, on 
which many of you have commented.
    First of all, a White House food coordinator, or somebody 
literally with the authority to speak for the President of the 
United States and to bring together USAID, the Department of 
Agriculture, anybody else involved in food security--we've gone 
this route, in large part, because reorganizing each of these 
departments, reforming each one of these, is really an arduous 
task. And, from your personal experience, you appreciate that. 
But, without having that kind of reorganization, somebody who 
is in charge really is required if we're to make this kind of 
difference. The authority to purchase some food aid locally and 
regionally rather than shipping it from the United States will 
pose challenges, but is necessary to increase our 
responsiveness and flexibility to creses. So, this is quite a 
charge. This coordinator will not have an easy life.
    But, I would say that, without this, we're simply whistling 
in the dark, in a way; we're sort of hoping for good things and 
good vibes to happen to people.
    And following that, as you've mentioned, this idea that the 
food might be purchased in-country is a tremendously important 
thought, quite apart from the transportation dilemma. I think 
it has to occur along with reforms that may come with a Doha 
Round or its successor. Again and again, as we've discussed 
today, the plight of the American farmer is not so much that 
someone in Africa might begin to grow corn more efficiently, 
but it's the fact that we are blocked from exporting the corn 
that we have, by all kinds of trade restrictions, embargoes, 
blockages, tariff. The bollixed-up world trade system with 
regard to agriculture makes a prodigious problem out of this, 
even if we have the food czar and we manage to realize greater 
efficiencies in our policies and programs.
    And finally, I appreciate your response, Dr. Paarlberg, to 
the Chairman's question about genetically modified 
technologies. I think the idea of a balanced, thoughtful, 
scientific approach to this is important. But, I would just say 
that this is virtually impossible, to get to the yields we're 
talking about, without taking seriously seed, fertilizer, the 
type of thing that might come from extension services, from 
education, and what have you. And I've argued this, during this 
past August over in Brussels, with a good number of people. The 
U.N. Ambassador has come to my office now a couple of times to 
indicate that various fertilizers, seeds, might be possible in 
Europe.
    But, I've also found parliamentarians in Europe who are 
rock solid against any change. The Africans can starve, as far 
as they're concerned, the purity of the situation so paramount 
in their focus. And furthermore, they don't plan to export very 
much, and they're feeding their people, as it is, and not that 
worried about it.
    Now, given all of that, first of all, Secretary Glickman, 
how do we get to the food czar? What is likely to be the 
prospects of that occurring?
    Mr. Glickman. Well, you do need an overall leader in the 
White House. It's got to be somebody with close ties to the 
President who has access to the Oval Office. If you don't have 
that, you could have czars spelled a thousand different ways 
and it wouldn't make any difference.
    Senator Lugar. Everybody's very remote right now from the 
White House, I'm afraid, in who's involved in the food 
business.
    Mr. Glickman. Yes. What we recommended is that the National 
Security Council be the place where this person be housed, 
largely because this is a national security issue, and--finding 
one person in there that could take this responsibility--there 
may be other ways to skin this cat, but it's got to be somebody 
close to the President, who has the President's confidence, and 
can take the leadership role in government-wide coordination of 
these issues.
    Second, you have to have an implementing agency that has 
teeth and muscle, and that's AID; and right now it has no teeth 
and no muscle, and not much else, I will have to tell you. It's 
been denuded. I don't say get rid of it, I say strengthen it 
and give it the kind of authority that it needs to carry out 
its tasks to do the kinds of things that we're talking about 
here.
    And this needs to be within the ambit, however, of a White 
House, I believe, that is exerting proper management and 
coordination over the whole thing.
    And if I just can make a point to both and Senator Kerry on 
the organic issue, I was in the USDA when we implemented the 
Organic Standards Act. It's a very positive thing for American 
agriculture. But, it is not inconsistent with good science, to 
increase yields and deal with crop protection and drought 
resistance while using some of these new technologies. And it 
also can be done, not only compatibly, but extremely 
successfully, while protecting the environment at the same 
time. So, I agree with the point, that there is a balance here, 
but it's not inconsistent.
    Senator Lugar. Ms. Bertini, do you have a comment?
    Ms. Bertini. Yes, Senator. To highlight what Dan said about 
USAID, it's critical that we have a strong tool--in this case, 
agency--for carrying out whatever are our policies. And it 
certainly was the agreement of our group that we believe that 
should be AID and we do not believe that it's in that place 
right now. And we think that a lot of attention needs to be 
drawn there.
    But, I want take further your thought, Senator, about the 
coordination. Yes, there has to be coordination led from the 
White House, and direction from the White House, but the 
coordination has to go beyond--and I know you mean it--to go 
beyond what we do in Washington, but into what we do in each 
country where we operate. And Reverend Beckmann mentioned 
something about this before, but think about it from the 
perspective of the farmer or the NGO or the government in 
Africa who has to say, ``Now, do I go to talk to the AID 
administrator or is it the PEPFAR person, or do I go to MCC, or 
maybe I should find the Ag attache?'' I mean, what do they do? 
And we do not have a coordinated effort, which we really must 
have, in each country in which we operate. That's critically 
important.
    On your point about food purchase, we also had a strong 
consensus that there should be significantly more ability for 
the U.S. Government to allow food purchasing in developing 
countries to support local agriculture and also to cut down on 
a lot of the cost, allow food to arrive faster, and have food 
that people are used to in the region,. Local transport costs 
are also dramatically cheaper than in-kind transportation 
costs.
    For a long time, this has been proposed, but never approved 
by Congress. So, we believe that that's very important.
    However, we have to underline the fact that, although most 
countries have gone almost exclusively to food purchase, we 
don't think we should eliminate food aid in kind all together, 
because there's an important role for that, especially in 
emergencies, when there are no other options.
    Senator Lugar. Thank you.
    The Chairman. Thanks, Senator Lugar. Appreciate it.
    Senator Casey.
    Senator Casey. Mr. Chairman, thank you for calling the 
hearing, and I appreciate the leadership you've provided, and 
Senator Lugar's, working with us on this bill.
    I wanted to explore some immediate issues, some of which 
each of you have addressed in your testimony. I guess there's 
some sense now that, as bad as last year was, as bad as the 
crisis has been, that it could be even worse in the immediate 
future. And the numbers are just--I can't even begin to 
comprehend the numbers; I don't think anyone can--looking at 
the data, some 75 million more people could be affected, and we 
may be at a point where it could get a lot worse than that. So, 
the urgency of this is profound, almost indescribable. And when 
people come to a hearing like this, or when they follow this 
issue, they arrive at a conclusion as to what they should do, 
probably based upon a couple of different pathways to get 
there.
    One is, I think, the people at this hearing--our witnesses 
as well as others in the audience--are here for a lot of 
reasons. Most of us here are summoned by our conscience. That's 
one reason we're here. Others, who may not be as troubled by 
the issue, may arrive at a conclusion about this issue just 
based upon national security, because it does have national or 
international security implications. When someone is hungry, 
they're more likely to be influenced by people who say, ``I can 
help you if you join my cause,'' and that cause may be violent 
and destructive, against all of our interests and our safety.
    Obviously, we believe this bill should pass very quickly. 
That's an immediate step. But, I guess I wanted to have each of 
you briefly--and I know we have limited time--to address the 
immediate challenge we have, in terms of the urgency of it? And 
what are the immediate steps we have to take to meet that 
challenge? Because I believe it's that urgent. And there'll be 
some who will say, ``You know, we're in a recession here in the 
United States, why do we need to be doing more around the 
world?'' And I think it's a very compelling case. But, maybe 
just outline for us quickly your thoughts we can just go from 
right to left.
    Mr. Glickman. I think you raise excellent points. Again, 
this booklet is kind of a roadmap----
    Senator Casey. Right.
    Mr. Glickman. [continuing]. Or, a strategic plan to get 
from here to there, so it has a variety of short- and long-term 
steps. And if you look at it, it'll say what to do the first 
year, second year, third year, fourth year. And your bill is 
fully consistent with everything that we're talking about here. 
In fact, it can't be implemented unless we pass legislation 
like the kind that you're talking about.
    There are a multitude of things that have to be done, from 
the national government being committed to doing what it needs 
to do, the amount to spend here in the first year is about $340 
million or so; last year, $1.03 billion a year. I mean, in the 
big scheme of what we're talking about, in terms of internal 
institutions in this country, it is a drop in the bucket, and 
this one might actually save some lives in the process, as 
well.
    So, you know, I can't give you a priority-setting, other 
than to say that it's got to be on the top of our list of 
priorities.
    I would say one other thing, too. You know, when I was a 
USDA, I often found that, in our national government, in the 
scheme of things, agriculture often took a backseat to 
policymakers. I don't know if--Senator Lugar can nod at that. 
There are other sexier issues that often come up. But, you 
know, you go back to the point that a person's nutrition 
capability is at the heart of our very existence. And I think 
what your bill does is to reiterate to the world that food and 
agricultural production, as a part of our global assistance, is 
a priority; it is not a secondary factor. And I think, too 
often in today's world, farmers and agriculture just do not get 
the attention that they deserve, in terms of leading the world.
    Senator Casey. Dan, I want to--just wonder if we can follow 
up briefly--I want to thank you for what you said and also for 
your testimony. And I missed it; I was running back and forth 
between meetings. But, the point that you made about someone in 
the White House who can get in to the Oval Office is essential. 
Anyone who understands anything about government, even at much 
lower levels, knows that that kind of personal, immediate 
access is going to be, I believe, critically important.
    Thank you.
    Ms. Bertini.
    Ms. Bertini. Thank you, Senator.
    Two things. One, in terms of the American public, one of 
the expertise of The Chicago Council on Global Affairs is to 
actually conduct surveys about what Americans think about 
foreign relations and foreign affairs. And in our book we've 
got a lot of the data from the recent survey that you might 
find useful. But, one of the things that I've found 
particularly important was that 42 percent of the American 
people believe it's very important to combat global hunger, and 
believe it should be a foreign policy priority. And that's a 
pretty significant percentage.
    So, I think, even given what we are living through in this 
country, there may be some reasonably strong support for a 
renewed interest in agricultural development. And people 
understand, basically, the concept of helping people be able to 
help themselves----
    Senator Casey. Right.
    Ms. Bertini. [continuing]. In a way that sometimes 
resonates in a stronger manner.
    Second is that, during my tenure as executive director of 
the World Food Program--to your point about, Why now?--I found 
that when the U.S. took a position, especially a new position 
or a different position, or a considerably stronger position 
than they had in the past, about aid-related issues, that there 
was a snowball effect of many other donors then doing something 
similar. Now, in some areas, like this issue about purchasing 
food locally instead of in-kind, the U.S. has been behind the 
other donors, but I absolutely believe that if the U.S. showed 
strong leadership in agricultural development, that there would 
be a new and fast list of countries who would also change their 
priorities. Because it hasn't been just the U.S., it's been 
virtually all the donor countries who have let this fall almost 
off the map. I think the sooner the U.S. starts, the more 
others will join, and the stronger the international effort 
will be.
    Senator Casey. So, it's about leadership. Yeah. Thank you.
    Mr. Beckmann. I think there's a context of hope here over 
the last 15 years. Roughly 400 million people have escaped from 
extreme poverty, and over the last 2 years about 100 million 
have been driven back into extreme poverty. So, first, that 
pattern, that's what makes for a security issue, because you 
have this tremendous--you know, people going--promise, and then 
disappointment. It also is a hopeful situation, because if we 
can help the developing countries recover and get through the 
recession, in fact, they can contribute to our own economic 
dynamism.
    One immediate thing that can be done, even more quickly 
than legislation, as important as that is, is, in the 
National--in the White House right now, it's my sense that, 
even development--broadly, development is not very strongly 
represented within the National Security Council. When the 
President set up the National Security Council, there is no 
voice within the Council--for example, the administrator of 
USAID is not in the National Security Council, so--and within 
the staffing of the National Security Council, development--any 
concern about development or food security is down a couple of 
rungs. So, even before you get to the legislation getting the 
global food security coordinator, which is important, just in 
talking with the White House you might suggest that they raise 
the issue of hunger and poverty within the National Security 
Council right now. I think it's just an oversight. I think 
General Jones is really committed to these things, but somehow 
it--it does seem to be me to be an oversight.
    Senator Casey. Mr. Paarlberg, I know I'm a minute and a 
half over my time. [Laughter.]
    Mr. Paarlberg. OK.
    Senator Casey. Putting a little pressure on you.
    Mr. Paarlberg. You asked a good question, ``Why now?'' And 
I would say, because there are two windows of opportunity open, 
at the moment, that won't be open forever. First, memories of 
the 2008 international price spike are still fresh. And second, 
we have a new administration and a new Congress in Washington 
and at the same time, a President with a personal interest in 
Africa. Either the Lugar-Casey bill or the Chicago initiative 
would give U.S. foreign policymakers opportunity to reintroduce 
themselves to Africans, talking about something other than 
democratization, health, and education. Those are important. 
America's been the leader there. But, the Chinese have 8,400 
companies in Africa right now making investments in 
infrastructure and in development. Africans are interested in 
that, too. This initiative would give the United States a way 
to avoid being finessed by those huge Chinese investments. You 
know, we're losing influence now because we're not doing enough 
on development; this is a response to that.
    Senator Casey. Thanks so much.
    Thanks, to each of you.
    The Chairman. Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    First of all, let me say that I want to thank the chairman 
and ranking member for holding this important hearing. And I 
have a question for the panel.
    Before I do that, though, with all due respect--and I mean 
that sincerely, Mr. Chairman--I--this business of nitrate/
nitrite runoff, phosphate runoff, certainly is a problem in 
some areas, but I grow small grains and hay and beef, and I can 
tell you that, without fertilizer, you're not going to be in 
business very long.
    Having said that, the other side of the coin is just as 
important. If you overfertilize, you're also not going to be in 
business very long, because--over the last 5 years, the price 
of fertilizer has just spiked because of the--number one, 
because of world demand; and second, of course, because of the 
oil prices. So, I think that a person in Africa, or, for that 
matter, America or anywhere else, realizes that the difference 
between a 120-bushel crop versus a 30- or 40-bushel crop is the 
money you spend on fertilizer; and the money you spend on 
fertilizer returns, four to one, or something like that. So, 
it's important.
    The difficulty I have with the use of fertilizer over there 
is the fact that it is so expensive, that the transportation--
the manufacture of it and the transportation of it is a 
challenge, to me, to say the least.
    This is the question I have for the panel. And I'd ask each 
of you to comment on in briefly. One of the things we have not 
spent much time in this hearing talking about is the effect of 
political instability and war and failed states on feeding 
people. We all know that the army eats first--the warriors eat 
first. And that goes back thousands of years. That's always the 
way it's been. And we have a lot of troubled spots in the 
world, and I'd like to get your comments on the state of 
affairs right now with the political instability in the world 
and how it affects feeding people in the world. If each of you 
could give me a brief shot at that, I would sincerely 
appreciate it.
    Ms. Bertini. Yes, Senator.
    When I was with the World Food Program, most of our work, 
in fact, was working with people who were cut off from food, 
and often by war or civil strife, and sometimes by natural 
disasters. And we saw many, many millions of people go through 
this strife, of not only living amidst violence, but not being 
able to have enough food in that process. But, what we did see 
was persistent efforts on the part of the international 
community, not only to bring peace in these areas, but to get 
food through even in the most difficult situations; negotiating 
with warring factions to stop so that food can move through, 
for instance; negotiating with clans to allow food delivery, 
whether it as in Somalia or Afghanistan or the Congo. So, there 
is a strong effort to do it.
    But, yes, we also had to try to strategize to ensure that 
the kind of food we were sending actually would get to the 
people and not get diverted. Sometimes, for instance, we chose 
food that wouldn't be very acceptable to soldiers to eat, like 
bulghur wheat, for instance, instead of rice, because it was 
more likely to actually get in the stomachs of the women 
preparing it and the children eating it.
    What we also found, though, was, over time, so many of 
these countries were able to survive and begin to rebuild --for 
instance, Liberia, Sierra Leone, Mozambique, Angola. These were 
areas where for years, there was a lot of attention, and now 
there's been a fair amount of success. And this is one point 
that shows why food aid is important, because there's not much 
else we could do except to try to get food aid to these people 
during this time, but also be able to help, as soon as the 
country is stable enough, with agricultural development.
    Senator Risch. Thank you.
    Mr. Glickman. Just a couple of things onto what Catherine 
said.
    One is, we recommend significantly augmenting the Peace 
Corps' agriculture assistance personnel. I've forgotten what 
the numbers are, but the whole idea is, you need a holistic 
effort to go in and help the countries rebuild. The Peace Corps 
has been very, very successful. It's also been funded at rather 
lower levels. It used to have a great agriculture component to 
it, and we advocate increasing it.
    And the second thing is, the land grant institutions in 
America, coordinating with similar institutions overseas, can 
have a great influence in both the economic and political 
structures of those countries, particularly if you develop 
longer-term agricultural initiatives on the research and 
scientific basis.
    Mr. Beckmann. The--one point is just that more than 90 
percent of the hungry people in the world are in places that 
are at peace, so there are places like Mtimbe, Mozambique--I 
don't know if you heard what I told about visiting this little 
place. They did have war, for 16 years, and terrible atrocities 
in this little place I visited in December. But, since 1992, 
Mozambique has managed to be at peace. But, still, people are 
really hungry and the kids are dying. So, it's--we have--in 
those--it tends to be the violent places, the humanitarian 
crises that get in the newspaper, but there's much more 
suffering in faraway, distant places that are remote from the 
cameras. And in a lot of those places, it's really relatively 
easy to make interventions that can help people get out of 
hunger.
    If I may just follow up on Secretary Glickman's point about 
the Peace Corps and universities. In my--what I would like to 
see, in terms of this new development agency, would be an 
agency that includes the Peace Corps, includes the 
universities, that's participatory, that has a great Web site, 
that's sort of Obamaesque, if you will, so that it involves all 
Americans in the effort to reduce poverty, and also, in 
developing countries, that it works in a participatory way with 
the governments and communities.
    Mr. Paarlberg. I'd just add, quickly, that if the goal is 
to reduce political instability and unrest, sometimes it's best 
to focus more of your diplomacy on nonmilitary affairs. 
Certainly, giving such heavy assistance to the Pakistani 
military, as we've done over the years, hasn't completely 
stabilized that country.
    In Africa, things are actually improving. There are 47 
countries in sub-Saharan Africa, and Freedom House now ranks 
more than 20 of them as democracies. Ghana just had a very 
successful presidential election, complete with a runoff, peace 
and quiet, and a change of authorities. Tanzania has never had 
a civil war. Uganda has come back from its civil war. The 
problem in Uganda isn't political unrest or instability, it's 
the fact that the government doesn't invest enough in farmers 
and in agriculture. So, certainly you wouldn't want to place 
your bets on a new program in Zimbabwe or in Sudan or in the 
Democratic Republic of the Congo right now, but, as David says, 
there are many places in Africa where the kind of work that is 
proposed, both in the Lugar-Casey bill and in the Chicago 
initiative, can go forward with every chance of success.
    Senator Risch. Thank you.
    Thank you, Mr.----
    Senator Lugar [presiding]. Thank you, Senator Risch.
    Senator Shaheen.
    Senator Shaheen. Thank you, Senator Lugar.
    Secretary Glickman, so if you're going to run for the 
Senate, does that mean I get to go to the Motion Picture 
Association? [Laughter.]
    Mr. Glickman. That is a true revolving door. [Laughter.]
    Senator Shaheen. Well, it's very nice to be able to welcome 
you here today. And thank you for your kind words.
    You talked about, if we were going to have a food czar or 
someone in charge, that that person would need to have access 
to the President and be involved in decisionmaking. But, we 
heard, I think, both from Reverend Beckmann and Dr. Bertini, 
that one of the issues is not just the central coordination, 
but it's also the coordination on the ground in-country. And as 
someone who has dealt with those kinds of challenges in the 
past as Secretary of Agriculture, what could be done to better 
address that in-country coordination? Recognizing that as much 
as we all might like to have one central agency that's doing 
this, that's not going to happen right away. And so, how do we 
address that coordination function?
    Mr. Glickman. Well, it's interesting. You know, the U.S. 
has developed, ironically, the most decentralized research and 
education extension network probably in the history of the 
world. And I'm not saying we necessarily could replicate that 
anywhere else, but part of our great strength in agriculture 
productivity is that it is not top-down, it is bottom-up, in 
how we continue to train a generation of people involved in 
agricultural issues.
    But, I would make a couple of points. One is, is that I 
think you do need somebody close to the President who is 
keeping his or her finger on it and can work the process in an 
aggressive way, because governmental the agencies don't respond 
very well, I can tell you, unless the White House is involved 
and engaged. And the same thing is true with Congress--it has 
to be involved and engaged.
    But, I think the implementing is done, not at the czar 
level, whatever----
    Senator Shaheen. Right.
    Mr. Glickman. [continuing]. You call it. Has to be done 
through a coordinated relationship between what I consider as 
AID and all of the partnerships and nonprofits and universities 
and NGOs and other agencies out there. You have a lot of 
agencies in government, for example, who do a tremendous amount 
of work in research. Much of this is applicable to growing 
crops and raising animals, not only at USDA, but you have the 
whole research establishment at the National Institutes of 
Health, the Department of Veterans Affairs, and the Defense 
Department, among other places. That's where your coordinator 
needs to kind of be pulling the people along to talk to each 
other. And unless somebody is yielding the hammer, they don't 
talk to each other. I've experienced that over and over again.
    Senator Shaheen. Thank you.
    Ms.--yes, Reverend Beckmann, did you want to respond?
    Mr. Beckmann. One thing that could be done in the short 
term is to--if the administration appoints a really strong 
personality as head of USAID, to--with--and signals an intent 
to find a way to pull USAID, MCA, PEPFAR, and maybe the Peace 
Corps together--but, if that person is a well-known political 
figure, that--just the force of that person can help to get 
these agencies to work together until the legislation can get 
accomplished.
    But, in the end, it's got to be legislation. In Mozambique, 
MCA, PEPFAR, USAID are all in the same building. I talk to 
staff of the three agencies. It's clear to me that they don't 
know much about what each other's doing. Well, maybe at the 
top, they do. And then, in Mozambique, there's a Group of 19, 
which is all--almost all the--almost all the governments that 
are assisting Mozambique, and they meet to coordinate in 
support of Mozambique's development objectives. The two 
countries that are not part of the Group of 19 are China and 
the USA. And the USA can't be part of it because our aid 
programs are so earmarked that the local people--our local 
people can't be responsive to what the local priorities are. 
They--when they get there, they know they've got to do so 
much--in which sector they've got to work. So, it does--it's 
going to require legislation to fix it.
    Senator Shaheen. Thank you.
    Ms. Bertini, you pointed out that it's women who, in much 
of the world, particularly the developing world, produce half 
the world's food crops, and between 60 and 80 percent of food 
crops in the developing world. Can you talk a little bit about 
how we can encourage women in those countries to continue to 
become more involved in agricultural productivity and how we 
address--or how we can help address some of the cultural 
barriers to giving women more opportunity in those countries?
    Ms. Bertini. Yes, Senator, I'd be happy to.
    Women do the vast majority of the work in agriculture. And, 
first of all, from our perspective, before I get to theirs--
from our perspective, we have to acknowledge that and build our 
systems around it. We have to listen to them. When we decide 
we're going to do something in a particular country, and we've 
decided, in Washington, and we're going to go off and do it, 
and we haven't really listened to the people that may be the 
beneficiaries, we're never going to be as effective as we could 
if we listened to what their priorities are, what their needs 
are. And since women aren't in any power structure anywhere, 
except maybe here on this committee----
    [Laughter.]
    Ms. Bertini. [continuing]. They----
    Senator Shaheen. I think I have the least seniority here--
--
    [Laughter.]
    Senator Shaheen. [continuing]. On the committee. So.
    Ms. Bertini. [continuing]. Their job isn't to come to the 
meetings, they're not the mayor, they're not the people that 
we're going to get, even if we go and make a kind of pro forma 
discussion with the local community. So, we have to, as 
development experts, find ways to listen to, and reach, those 
women. And we did this at WFP, so I could share with you, 
separately, some of the ways that that could be done. And the 
Gates Foundation is trying to work on this, as well. But, we 
have to do it, as policymakers.
    Then, from the woman's perspective--first of all, we have 
to be sure she's educated. She has to at least go to school. 
Because educated farmers, according to International Food 
Policy Research Institute (IFPRI), are much more productive 
than farmers that are not educated.. And there are more women 
who are uneducated than there are men. But yet, women are 
mostly farmers. So, we have to do better on ensuring that girls 
have education.
    Then, we have to think about the kind of advice they get 
along the way. For instance, there's a lot of work that needs 
to be done to support and improve extension in Africa and South 
Asia, but IFPRI finds that women farmers are most likely to 
listen to other women farmers, but currently most of the 
extension workers are men. Something like 5 percent of the 
extension workers are women, and 80 of the farmers are women. 
What's wrong with this picture? We've got to do more to ensure 
that the methods of communicating with women in the fields is 
actually an effective method of operation.
    Senator Shaheen. Thank you.
    Yes, Dr.----
    Mr. Paarlberg. Some of the things you can do to help women 
are not immediately obviously gender-specific, but if you built 
more wells and roads, women wouldn't have to spend hours every 
day carrying punishing loads over long distances, walking to 
fetch wood and water. That would free them up to be more 
productive in the fields and to take better care of their 
families.
    Senator Shaheen. Thank you all. My time is up.
    Senator Lugar. Thank you very much, Senator Shaheen.
    Let me just conclude, if I may, with a couple of questions 
to the panel, and then we'll proceed with our next panel.
    Right now, a great deal of discussion of our coming plans 
in Afghanistan and Pakistan surround agriculture. Frequently, 
people point out that whether it's from trying to win the 
support of people in the hustings of those countries or, in 
fact, trying to provide some degree of sustainable agriculture 
that there will have to be some substitution for the poppy 
crops. And what, indeed, could be substituted? And who, indeed, 
would bring the expertise, the instruction, the seeds, and what 
have you, to farmers that might, in fact, make a living there? 
In Pakistan, it's a more general situation in which, because of 
the cosponsorship with my former chairman, Senator Biden, and 
now with my current chairman, Senator Kerry, the so-called 
Kerry-Lugar bill, providing for money for food, education, and 
health in Pakistan, receives far more headlines daily in 
Pakistan than anything we are doing with regard to our military 
situation, largely because the people of Pakistan are 
interested in food and development. Many are among the dying 
groups that we're talking about today.
    It's sort of an interesting divide in which vital national 
interests in Pakistan and Afghanistan with its focus on 
counterinsurgency and the stability of fragile governments are 
justaposed with a populations that could be a force for 
stabilization, but that is interested in development and 
economic growth.
    Now, I mention this because we've discussed, today, why 
would anyone pay attention to the food coordinator quite apart 
from the agencies that manage food security programs. Knowing 
that resources have declined at USAID and I'd just simply ask 
for your thoughts, I think Reverend Beckmann has addressed 
this, in a way, in terms of popular support in the country for 
these programs. Your organization, Bread for the World, brings 
a great deal of popular support for feeding people, for the 
humanitarian cause that we've talked about, basically. But, 
you've also talked today a little bit about how Members of 
Congress might be influenced, why Senators and Members of the 
House might pay more attention to this. Could you address this 
a little bit more, just from your organizational outlook, as 
one who tries to change public opinion?
    Mr. Beckmann. Well, I think, in fact, public support for 
agricultural development, for development generally, is really 
strong. Anytime we do focus groups on how Americans think about 
hunger and poverty, somebody in the focus group says, ``You 
know, you can teach a man to''--and they say that, ``teach a 
man to fish'' as if it had never been said before, and 
everybody in the focus group said, ``Yeah, we've got to teach 
the man to fish.'' So, Americans get that it's not--you know, 
that, as important as giving people--hungry people food is, 
that that is--that's not the optimal way to help people get on 
their own feet so they can feed their own families.
    All the polls show that there is increased strong support 
for efforts to reduce hunger and poverty, especially if they 
are effective, if they--you know, people are concerned about 
wasting foreign aid, so we've got to show them that, in fact, 
we're working to make it more effective. It is effective, it 
can be more effective. And also, Americans love programs that 
help people get on their own feet, so education for girls, 
helping farmers be more productive. The public support is 
actually quite strong. And outside the Beltway, the public 
support is strongest for reducing hunger, poverty, and disease, 
compared to, say, the national security motives.
    It's also true that reducing hunger and poverty in the 
world is good for our national security. It's also good for our 
economy, because people around--the developing countries, 
especially poor people in developing countries, there's a lot 
of dynamism there. And with just a little help for them to get 
through this crisis, the recession in particular, they can 
contribute to global economic recovery.
    Senator Lugar. Let me just ask, Secretary Glickman or Ms. 
Bertini, with the Chicago report, which is a remarkable report, 
how are you proceeding to gain more recognition of this report? 
Is anybody in the administration interested in the report, or 
other Members of Congress, outside our committee?
    Mr. Glickman. Well, I would say that we started with you. 
And----
    [Laughter.]
    Mr. Glickman. And because you and others have been leaders 
in the effort--but, we've been making the rounds on Capitol 
Hill, and the White House and executive branch, as well, and 
we're going over to the State Department today, and we're using 
whatever media connections we have.
    Our work is not so much to draw attention to the report--
although we think the report is, as I said, a good roadmap and 
strategic plan over the next 5 years to get things done, but to 
highlight the interest and enhance the popular support for 
these issues so that you all can do what you need to do to get 
the authorization and appropriations' legislative processes 
moving. So, our goal is to be helpful to you all, frankly.
    Senator Lugar. Well, we appreciate that.
    Finally, Dr. Paarlberg, let me just ask about your 
remarkable book, ``Starved for Science,'' that brings to the 
fore this question we've discussed a little bit with 
genetically modified seed and fertilizer today. It seems to me 
that this is such an important issue because of the emotions 
that many people attache to the issue. As I mentioned, these 
folks I visited with in Brussels, for them, it's almost a 
theological view. You know, we can talk about starving people, 
but----
    Mr. Beckmann. Senator, I take offense----
    [Laughter.]
    Senator Lugar. I apologize. But, a certain type of 
theology, perhaps. [Laughter.]
    You were talking about starving people, but this is 
secondary to their thought that somehow or other something is 
being poisoned by these technologies. And I keep running up 
against that, in visiting with European delegations, even 
foreign ministers, who really haven't quite caught the gleam 
yet. This is a huge foreign policy dilemma, in addition to 
being a scientific one. But, how have you gone about your 
research on this subject, the ideas that you've presented so 
well in your book?
    Mr. Paarlberg. Well, I've always been surprised at how few 
critics of this technology are actually aware farmers that 
plant genetically modified varieties of corn or soybeans or 
cotton in the United States, as a consequence, can control 
weeds and insects with fewer chemical sprays. And I'm always 
surprised to learn that the critics of this technology in 
Europe aren't aware that their own scientific academies have 
repeatedly stated, in writing, that there's no evidence of any 
new risk to human health or the environment from any of these 
genetically engineered seeds that are currently on the market.
    But, they want to see evidence of benefits for poor farmers 
in developing countries. And I think you're going to see that 
more clearly when the next generation of genetically engineered 
crops becomes commercially available. In the next several 
years, farmers in the United States and Brazil and Argentina 
and Canada will be able to start planting varieties of corn 
that's better able to tolerate drought. Now, that'll be good, 
but the farmers that really need that drought-tolerance trait 
are the farmers in Africa, who are repeatedly driven back into 
poverty when their crops fail because the rains have failed.
    So, my hope is that the availability of this new generation 
of technologies, with more compelling benefits to offer 
directly to poor farmers in Africa, will break through some of 
the fog that's gotten in the way of political acceptance in 
Europe, so far.
    Senator Lugar. Well, I've been especially moved by your 
book and the things that you've had to say, just from my own 
experience, that I've touched upon briefly. We have 604 acres 
inside the city of limits of Indianapolis. And this is a 
situation, because of that location, in which all the wildlife 
of Decatur Township has congregated on our farm. [Laughter.]
    Now, we've been using genetically modified seed and 
fertilizer from the time that my dad sort of taught me what 
this is all about, and his yields then were 40 bushels to the 
acre; we're now getting, routinely, 160. This is during my 
lifetime. I've seen it, and this is why I feel so strongly 
about it as we talk about the need for productive agriculture. 
And it didn't happen by chance. The Purdue University people, 
who were very, very helpful, in terms of all the extension work 
and that's important, likewise.
    So, if I take on--I hate to use another religious thought--
an evangelistic view of this----
    [Laughter.]
    Senator Lugar. [continuing]. Why, so be it, because I've 
seen it, lived it, and this is why I've invited people from 
other countries to come to our farm, as sometimes they do, to 
celebrate Earth Day or other significant events of that sort.
    But, I thank all four of you for really remarkable 
testimony. You've been tremendously helpful to our own 
understanding and, I hope, for all who have listened to this 
hearing. So, we thank you.
    And we welcome, now, a second panel for our discussion 
today, which will be Mr. Edwin Price, associate vice chancellor 
and director of the Norman Borlaug Institute for International 
Agriculture, at College Station, Texas, and Mr. Gebisa Ejeta, 
professor of agronomy at Purdue University, West Lafayette, 
Indiana.
    [Pause.]
    Senator Lugar. Gentlemen, we welcome you to the hearing and 
appreciate, very much, your participation. I'll ask you to 
testify in the order you were introduced; first of all, Mr. 
Price, and then Dr. Ejeta.
    And I would ask, as Chairman Kerry suggested at the 
beginning, that, if possible, you summarize your remarks in 5 
minutes, more or less, and your full statements will be made a 
part of the record. You need not ask for permission; it will 
occur.
    I call upon you now, Mr. Price, for your testimony.

    STATEMENT OF EDWIN PRICE, ASSOCIATE VICE CHANCELLOR AND 
   DIRECTOR, THE NORMAN BORLAUG INSTITUTE FOR INTERNATIONAL 
                AGRICULTURE, COLLEGE STATION, TX

    Mr. Price. Thank you, Mr. Chairman.
    It's a wonderful opportunity to meet with you to talk about 
revitalizing U.S. effort to improve food and agriculture 
production worldwide. You're a colleague of Dr. Borlaug; 
tomorrow, he turns 95 years old----
    Senator Lugar. Right
    Mr. Price. [continuing]. On March 25. By his standards, I 
am at mid-career now, and I look forward to sharing with you 
what I've learned so far.
    Dr. Borlaug, incidentally, has prepared a statement for 
this hearing, and I hope that that might be used, as well; if 
necessary, appended to mine but----
    Senator Lugar. It will be----
    Mr. Price. [continuing]. In your judgment.
    Senator Lugar. [continuing]. Made a part of the record. And 
let us just say, the committee wishes Dr. Borlaug a very happy 
birthday. We have asked for his testimony many times in the 
past, and he has given us remarkable testimony. And his whole 
life is remarkable. But, thank you so much for mentioning the 
birthday, and for the testimony.
    Mr. Price. Great, thank you.
    In my written testimony, I will cover--I cover the 
chronology and structure of U.S. universities' assistance in 
Iraq, in agriculture, and I will--and I have some observations 
from that. Then I also cover some common lessons from Iraq and 
Afghanistan. And then we talk about, more broadly, agricultural 
development, worldwide, and remark on one of the topics that's 
been raised today, the relationship between conflict and 
development, with some observations from that, as well. I won't 
be able to cover all of that in this time, but I refer that 
testimony to you.
    Since December 2003, university colleagues and I have been 
involved with the U.S. Agency for International Development, 
the U.S. Department of Agriculture, and the U.S. Department of 
Defense to rebuild Iraqi agriculture. There was very early 
advancement, beginning in 2004. We were able to work with over 
250 farms across 11 provinces in Iraq and put out cropping 
pattern trials and new technologies. Unfortunately, by 2005 
insecurity made it no longer possible for us to visit those 
farms, and, in many cases, the scientists with which we--which 
whom we were working at the University of Mosul and the 
University of Baghdad had to leave the country or were not able 
to visit the fields.
    Nevertheless, over that period of time, in 3 years, working 
with USAID, we were able to identify a large number of improved 
practices, including improved wheat varieties, improved potato 
varieties, mixtures of crops, vetch and wheat, vetch and barley 
for feed production, and other aspects of agriculture. But, we 
were limited by the lack of irrigation. There was no energy for 
the pumps, there was no water in the canals, but, even worse, 
there was no capacity to get technology to farmers because of 
the lack of extension services active and well informed and 
trained in Iraq.
    Working with USDA, then, five U.S. universities, working 
with six Iraqi universities, began to train Iraqi extension 
workers outside the country. We trained them in Lebanon, in 
Syria, and in Egypt and Jordan. And those extension workers 
went back into Iraq with funding for developing projects, and 
were quite successful in many areas, especially in Kurdistan. 
But still, the U.S. commanders, military commanders, were not 
seeing progress on the ground; it was still problematic, very 
problematic, in much of Iraq.
    So, in February 2007, a team of seven university people 
joined with the task force--the Department of Defense Task 
Force for Business Stabilization Operations, to assess the--
from the vantage point of the forward operating bases around 
Iraq, what was the situation in agriculture. I happened to 
arrive at Warhorse--FOB Warhorse in Diyala, along with the 
surge of the troops, the first surged troops, in 2007, and, 
unfortunately, departed on the same helicopters that took away 
the first heroes of that action.
    We were able to see, from the ground, though, that there 
were several--our teams spread out to many forward operating 
bases all over Iraq, and the kinds of things that we observed 
were the following:
    We worked closely with the Provincial Reconstruction Teams 
and with the civil affairs units of the military. We found 
that--they themselves stated there were three things that 
limited their effectiveness. One was that they didn't have the 
breadth and depth of science that is required to really find 
the solutions to the problems that they were facing with 
farmers. They could often see what the problem was, they could, 
maybe, half solve it or two-thirds solve it, but always there 
was evidence of not being able to quite get to the result.
    The third--the second problem was that the--they didn't 
have much contact with the farmers. They were very lucky, even 
today in the PRTs, to be able to spend 2 or 3 hours a week in 
contact with farmers, because of--at least until recently, the 
security situation, the ability to have protection as one 
visits the fields.
    Then, the third thing that was a problem was that there 
were no Iraqi plans for agricultural development, from the--
from the Baghdad level to the provincial level to the community 
level. There were simply no plans.
    The generals in Iraq, the military generals, asked for 
agricultural specialists to serve directly under the commands 
so that they could have direct access to information 
technology. So, June 2008, working with the Task Force for 
Business Stabilization Operations, we fielded 14 broad 
agriculturalists working directly under the commands in the 
southern part--or central to southern part of Iraq. We spent 
about 65 percent of our days in the field. We formed 4H Clubs, 
introduced drip irrigation, introduced curriculum at 
universities, and livestock management. This was a very unique 
relationship, and it was a very successful relationship.
    I wish to quickly just indicate some of the things that we 
learned.
    We need to--much more study on the relationship between 
development and conflict. We need to understand, How can 
communities prevent conflict, or how can communities survive 
conflict, and what are the best paths for emerging from 
conflict? We found that technological information was severely 
limiting, that there were poor genetics in animals and plants. 
The--also, because of the years of governmental control, that 
there was very little knowledge on farms of how to manage their 
inputs. Also, our--we found that there were--one of the most 
debilitating aspects was the failure of our own agencies to 
work together to solve problems. Earlier, it was alluded to the 
fact that there was lack of cooperation. Particularly in Iraq 
and Afghanistan, it emerges even to the point of, sometimes, 
hostility and competition between the agencies.
    I wish to mention two key problems, then, that I find 
common between Iraq and Afghanistan, and conclude there. One of 
them is that--I've not heard it mentioned today, but the 
frustration of youth in the rural agricultural sector is one of 
the driving features of terror and conflict in these countries. 
We find it in Africa, in Latin America, in Afghanistan and 
Iraq. We need more. The international development agencies, the 
CJIR, even university extension programs fail to focus on 
youth. We've worked with youth in Iraq and Afghanistan, and we 
know that much, much more can be done there.
    The second major issue that we face is lack of secure 
access to land rights. Farmers in Afghanistan and Iraq are--
farm their land under a succession of laws, rules, and 
regulations under which they don't know, from one year to the 
next, if they have access to land. Under these conditions, it's 
not possible for farmers to invest in irrigation or invest, 
more importantly, in drainage, such that salinity has become a 
very severe problem.
    There's a wide range of other issues I would enjoy talking 
with you about, but we really--strongly urge that, in the 
future effort, that we have programs that look at youth, 
programs that are good in developing technology extension to 
the farms in the region, and that we find ways to work 
effectively together among our agencies.
    Thank you.
    [The prepared statement of Mr. Price follows:]

  Prepared Statement of Edwin C. Price, Associate Vice Chancellor and 
   Director, Norman Borlaug Institute for International Agriculture, 
                          College Station, TX

    Mr. Chairman, it is an honor to appear before your committee. Thank 
you for the opportunity to comment on the need to revitalize the U.S. 
effort to improve agriculture and food production worldwide. Dr. 
Borlaug celebrates his 95th birthday tomorrow, March 25. By his 
standard I am at mid-career, and look forward to sharing what I have 
learned so far. Dr. Borlaug incidentally has submitted a statement to 
this committee and I hope that it can be incorporated into the record 
of this hearing.
    I will first describe the chronology and structure of U.S. 
universities engagement in Iraq, then present some key findings about 
agricultural development in Iraq. Then I will discuss some common 
problems in Afghanistan, then last I turn to a broader discussion of 
development in conflict and post-conflict regimes. I close with a few 
general observations.
    Since December 2003, university colleagues and I have been engaged 
with the U.S. Agency for International Development, the U.S. Department 
of Agriculture, and the U.S. Department of Defense, in helping Iraqis 
to rebuild their agricultural sector. There was early advancement in 
2004 with new crop varieties and management practices demonstrated in 
11 provinces across Iraq, involving over 250 farmers. Then in 2005 
security deteriorated sharply and we lost ground. Mosul and Baghdad 
University scientists with whom we cooperated could not go to their 
farms, and many of our test plots on farmer's fields were abandoned. 
Key Iraqi scientists were threatened and left the country. Nevertheless 
we eked out data from rainfed and irrigated farmers for 3 years.
    In controlled trials in secure areas we were able to show excellent 
results for improved practices with salt tolerant wheat, improved 
potato varieties, tomatoes under plastic, improved wheat varieties, 
barley/vetch mixtures for animal feed, and rice-wheat crop rotations. 
But we had little impact on farmers because of lack of water in the 
irrigation systems, and lack of energy for pumps, and most of all--our 
inability to get improved technology to farmers because of the security 
situation and lack of trained extension agents.
    Working with USDA, six Iraqi universities, five U.S. universities, 
and the Iraqi Ministry of Agriculture we began training Iraqi extension 
workers outside Iraq. We trained them in Lebanon, Syria, Egypt, and 
Jordan, and they have gone back into Iraq with small amounts of project 
funds. These have been particularly successful in Kurdistan. But to our 
U.S. military commanders on the ground, little progress was visible. In 
February 2007, seven colleagues and I accompanied the members of the 
DOD Task Force for Business and Stability Operations (TFBSO) to Iraq to 
see the situation from the vantage point of the forward operating 
bases. I arrived in Forward Operating Base Warhorse in Diyala with the 
first troops of the surge, and I departed on the helicopters with three 
of the early heros of that action. I honor them today.
    That February we visited FOBs and Provincial Reconstruction Teams 
all over Iraq. We were deeply impressed by the effort, dedication, and 
skills of the PRT civilians and the military civil affairs units 
operating at the FOBs. They were having an impact but they also told of 
several problems that limited their effectiveness. (1) There was never 
a sufficient breadth and depth of agricultural science capacity to 
fully respond to the agricultural problems and opportunities in any 
locality. (2) Contact was so limited by development workers with Iraqi 
farmers, leaders and agribusinesses that little could be accomplished 
in the short and rare visits. (3) Finally, there were no Iraqi plans 
for agricultural development, at any level--from Baghdad, to the 
province, to the communities. Assistance projects though valiant, did 
not build on one another, lacked technical precision and were often 
incomplete.
    Generals in the Central, North and Western Iraq regions requested 
agricultural specialists to serve directly under their commands. In 
June 2008 a multidisciplinary team of 14 university agriculturalists 
were deployed by the TFBSO to the command of General Oates in MND-C, 
and in November 2008 teams were deployed to MNF-West and MND-North. Our 
Central team, called Team Borlaug, worked in 8 provinces over 6 months, 
operating out of about a dozen bases. We spent about 65 percent of our 
days in the field, and logged over 7,000 hours of contact time with 
Iraqis. We formed 4-H clubs. We prepared agricultural development plans 
and recommendations at the local and provincial levels that Iraqis 
claim as their own. We put in drip irrigation demonstrations, improved 
curriculum at universities, helped develop the Central Euphrates 
Central Market, and trained hundreds of Iraqis in poultry production, 
livestock management, crop disease management, tillage, machinery and 
other areas.
    This effort of agriculturalists working with soldiers in the field 
on a daily basis has been unique in Iraq and highly rewarding to the 
participants. It is also complementary with the work of the USAID Inma 
project, and the USDA agricultural extension projects. Our same 
universities have staff on all these projects, and we stay in 
communication. However what is more important are our growing Iraqi 
partnerships. The most important product of our work is the empowerment 
that it has given to Iraqis, who, in their own words, were hiding out 
before we came and showed interest in their farms, their animals, and 
their homes and families. The PRTs also gained from the broader 
scientific expertise brought by the teams, helping to validate and 
improve their plans.
    Here are some of our observations from the field:
    (1) We need to study and better understand the role of development 
before, during, and after conflict. Development workers can and should 
be engaged with communities throughout these times, and their efforts 
will be fruitful. But the process of development in these circumstances 
are not well understood and requires the effort of a range of 
agriculturalists, engineers, psychologists, political scientists, 
economists, and others.
    (2) Technological information and infrastructure, especially plant 
and animal genetics, and disease diagnostics are severely lacking. 
Plant and animal genetics are very badly degraded and almost nothing 
yields to its reasonable potential with the resources available.
    (3) Years of government control of on-farm agricultural affairs 
have left farmers with little knowledge of the management alternatives 
that would improve their production.
    (4) For the past 6 years, our efforts have had short-time horizons. 
We could have done much more to help reestablish the animal feed 
industry, producing vegetable oil for human consumption and protein 
meals for animals, if we had adopted longer planning horizons. The 
agricultural value chains are broken and we are not taking the time to 
help repair all the critical links, and therefore isolated efforts 
fail.
    (5) Our soldiers including civil affairs units are the first 
responders to conflict and they are playing highly useful roles in 
moving communities out of conflict. They need better training and 
support for the early roles that they play in assisting communities to 
survive and recover from conflict.
    (6) One of the most debilitating features of U.S. development 
assistance in situations of conflict is the inability of our agencies 
to work cooperatively. In 2006 the then-Minister of Agriculture of Iraq 
stated with great concern that her greatest challenge was that U.S. 
agencies seeking to assist her ministry spoke with many conflicting 
voices.
    Many of these problems that I mention are also common in other 
fragile nations, but I particularly want to draw attention to two 
common problems, or areas of opportunity in the agriculture of both 
Iraq and Afghanistan: Land tenure and youth programs.
    Secure access to land is the underlying problem that hinders all 
progress in agriculture in Iraq and Afghanistan. In Iraq land access is 
governed by an overlay of rights from the Ottoman Empire, the 
subsequent kingdom, the revolutionary government of Karim Kasem, and 
the many interventions by Saddam Hussein. Iraqi farmland is becoming 
saline because farmers will not make long-term investments to combat 
salinity without securing long-term rights to land use. It doesn't pay 
them to build the land, when they cannot be sure of farming it 
themselves later.
    In Afghanistan our university team is working with nomadic Kuchi 
herders, who provide about two-thirds of the lamb and goat meat in 
Afghan markets. Traditionally they grazed their animals under long-term 
agreements with farmers, but over the past 30 years these patterns of 
grazing rights were disrupted by warfare, land abandonment, and 
assertions of land rights by new parties. Using advanced systems of 
monitoring range quality we are able to help the Kuchi herders improve 
production while protecting the range.
    But the underlying problem is weak institutions for land 
administration in Afghanistan and Iraq. Massive effort needs to be 
undertaken to adjudicate, document, and administer land use in these 
nations. Agricultural progress will be continually hampered until this 
problem is solved.
    The second common issue is education, training, and nurturing of 
leadership and enterprise among Iraqi and Afghan youth. Burned 
indelibly in my mind is the image of a few young Afghan men trying to 
get an education at an agricultural high school in Jalabad in December 
2002, with no books, no paper, no desks, no pencils, little food and 
warmth, but with a few bedraggled but smart and dedicated teachers. 
Also the images of village youth in Wasit, Iraq, and the Bedouin Camps 
in Najaf, their looks of desperation while their families struggled for 
food, tells me clearly where terrorists come from. It so happens that 
in both locations we met with their handiwork.
    Youth development thorough programs such as 4-H and FFA receive 
little or no attention by international development programs, national 
plans and programs, even U.S. university extension programs in 
developing countries or by the system of international agricultural 
research centers, the CGIAR. It is urgent that we work constructively 
with youth in developing countries to bring them greater hope for their 
future.
    Our programs to help restore field crop production in Iraq have 
been inconsistent. We started out well with USAID programs in wheat and 
barley, but did not stay with the task of field crop improvement. In 
Afghanistan the situation is worse. Much of the land for field crop 
production has been taken over by opium poppy production. Our approach 
has been to replace opium with high-valued crops, which seems to make 
common sense. However in recent years, northern Burma opium farmers 
switched to corn production when they found high-yielding varieties and 
improved production practices. Opium farmers are often little more than 
labors on their own farms. Their families cannot eat opium and they 
cannot feed it to their animals. They cannot store it and sell it when 
and as they wish to a choice of buyers. Northern Burma farmers have 
switched from opium when they found steady sufficient incomes from 
field crop production. In Afghanistan as well, a more robust program of 
farming alternatives need to be supported including not only high-
valued crops, but also need crops of cereal grains and oilseeds.
    Finally I wish to turn more broadly to the issue of development and 
conflict. In his book ``The Bottom Billion: Why the Poorest Countries 
are Failing and What Can Be done About It,'' Paul Collier observes that 
``73 percent of people in societies of the bottom billion have recently 
been through a civil war or are still in one.'' Poverty, hunger, and 
conflict are so closely interwoven that development effort among the 
food insecure must inevitably be undertaken among the politically 
insecure. Regrettably it is clear that civilian aid workers must 
increasingly face the dangers of conflict in developing countries.
    Development efforts in fragile nations in the Middle East, Asia, 
Latin America, and Africa are challenged by many questions. What is the 
economic cost of insecurity? What science, governance, and economic 
policies are needed to bring about development in the presence of 
insecurity? When does conflict cause poverty; and when does poverty 
cause conflict? How have fragile nations avoided conflict? What systems 
of governance or resources and technologies sustain communities during 
conflict? Can the process of recovery begin before or during 
destruction? Must agricultural workers join soldiers in the 
battlespace? Can development be achieved under conditions of kinetic 
conflict?
    With the support of USAID, colleagues at Texas A&M and Michigan 
State Universities have spent 8 years in the post-conflict environment 
of Rwanda and made enormous progress working with the widows and 
orphans of genocide. Women's cooperatives now market premium coffee 
brands from trees that they had started uprooting to throw away when we 
arrived. The National University of Rwanda at Butare has been our 
partner throughout the process. We trained their faculty, improved 
curriculum, and facilitated their research and extension to African 
coffee farmers. One of the students trained for the Ph.D. in the U.S., 
is now the president of the Rwanda coffee cooperatives. The 
transformation of the coffee-growing communities is astounding, and it 
came through the cooperation of U.S. and Rwandan Universities.
    But also during this period I worked with the West Africa Rice 
Development Association at its three recent homes in Ivory Coast, Mali, 
and Benin. In the Ivory Coast a USAID worker and I had the experience 
of becoming isolated in remote areas during an attempted coup. Then, 
and during the following 2 years I had several opportunities to meet 
the Force Nouvelle leaders and their men. The leaders were charismatic, 
and their men were the youth of West Africa where they had lost hope in 
their future. I feel deeply sympathetic for those forces and their 
communities, and wish that we had in place Ivory Coast, Mali, Benin, 
Senegal, Nigeria, and the other nations of Africa the kinds of 
university program that were possible in Rwanda.
    In closing, I summarize:
    (1) We need to study and better understand the role of development 
before, during, and after conflict. Development workers can and should 
be engaged with communities throughout these times, and their efforts 
will be fruitful.
    (2) Technological information and infrastructure, especially plant 
and animal genetics and diagnostics are severely lacking, but in many 
regions secure access to land is the underlying problem that hinders 
progress in agriculture.
    (3) Finally, in Africa as in poor communities of South and Central 
Asia, Middle East, Latin America, and other world regions, it is the 
youth without a future who are among our most regrettable losses and 
the greatest threat to peace.

    Colleagues and I at the land grant universities of the U.S. are 
ready and eager to engage with the Federal Government in new ways to 
combat hunger, poverty, and conflict throughout the world. Thanks for 
inviting me to speak with your committee today.
    Thank you Mr. Chairman.
                                 ______
                                 

                               ATTACHMENT

    Notes of some Iraq accomplishments, recognized at the end of the 
deployment of Team Borlaug of the DOD/TFBSO in MND-C, are appended 
below.
    All accomplishments by Team Borlaug were built upon the progress 
and good will that has been established by our military men and women 
who have been on the ground in Iraq for the last 5 years. While we were 
here, we could have done nothing without their daily support, guidance, 
and protection.
    Here are some of the things they helped us to accomplish:
    Iraqi voices. We conducted eight provincial agricultural 
assessments reflecting the collective voice of agriculture in the 
provinces--with participation from sheikhs, Bedouin shepherds, 
governors, and subsistence farmers. Many Iraqis considered our views 
and recommendations as their own, and they felt newly empowered to 
assert leadership for their own affairs.
    Strengthened partners. We learned from and contributed to the 
ongoing missions of civil affairs units of the military, PRTs, and the 
Iraqi Government for recovery and development of the agriculture 
sector. Our cooperation helped to strengthen and confirm the missions 
of our valued partners to assisting Iraqi communities.
    Problem solutions. We gave farmers immediate advice on problems 
with animal diseases, insect pests, feed rations, tillage practices, 
crop varieties, irrigation and drainage practices, and many other 
problems and improvements. We also gave ideas to agribusinesses and 
policymakers on current problems and opportunities for innovation in 
the Iraqi agricultural sector.
    Command response. We prepared special analyses for the command on 
poultry production, seed storage, agricultural input subsidies, 
improved wheat planting, rebuilding the oilseed value chain, tourism 
development, and other special reports.
    Project implementation. We helped or led implementation of projects 
on drip irrigation, management of the Central Euphrates Farmers Market, 
improvement of fish brood stock, formation of agricultural youth clubs, 
and improvement of university teaching materials.
    Strategic plans. We provided plans for implementation within the 
MND-C command for use by regional and provincial leaders. Each 
assessment is a communication tool and framework for discussion that 
includes detailed observations, promising strategies, recommendations 
and priorities for Iraq agricultural development among complementary 
U.S. agencies.
    Communication and cooperation. We fostered communication and 
cooperation among Iraqi agencies, including the governors, provincial 
councils, provincial DGs, farmers' associations and local farmers and 
the PRTs and CA teams. This helped improve relationships between Iraqis 
and Americans at provincial, community, family and personal levels.
    Vision, trust, and hope. We helped the Government of Iraq, 
provincial councils, community leaders, PRTs and ePRTs, and U.S. 
agencies articulate their vision for the future of Iraq. We encouraged 
rural Iraqis to place trust and hope in their leaders, in a new 
agricultural economy, and in a new way of life through education, 
training, and entrepreneurship.
    While saying all this, we see how very far rural Iraqi communities 
have yet to go before they can fully realize the benefits of freedom. 
The job has just begun.

    Senator Lugar. Well, thank you very much, Mr. Price, for 
your testimony; likewise, for your own participation in Iraq. 
This is really the most graphic testimony I've heard about 
developments going on in Iraq. And we've touched upon that a 
little bit, earlier today, talking about Afghanistan and 
Pakistan. But, Iraq and that experience is certainly a very 
important part of our thinking.
    Dr. Ejeta, would you please proceed.

   STATEMENT OF GEBISA EJETA, PROFESSOR OF AGRONOMY, PURDUE 
                 UNIVERSITY, WEST LAFAYETTE, IN

    Dr. Ejeta. Senator Lugar, members of the committee, I'm 
very grateful for the opportunity to appear before you today 
and submit this testimony.
    I'm professor of plant genetics and breeding at Purdue 
University; however, my true credentials to speak on the topic 
of global hunger arise from the life I lived as a child in 
Ethiopia and the work that I have done in international 
agricultural development.
    Like most Africans, I was born of illiterate parents with 
little means, and raised in a small village with no schools in 
west-central Ethiopia. Nothing in my childhood would have 
suggested that I would be here today; and yet, by the grace of 
God, I am invited to sit here today before this distinguished 
committee in this hallowed institution of this great nation to 
provide this testimony as a notable scientist with some repute. 
This is a very long journey from that village in central 
Ethiopia that I'm sorry to report also has not changed much 
since my childhood.
    In the written record, I speak about how other visionary 
leaders who once sat in similar seats as members of this 
committee, some 60 years ago, envisioned the building of 
institutions of higher learning in developing countries as a 
key foundation for global development and extended President 
Truman's Marshall Plan to developing countries, and gave poor 
kids, like myself, a fighting chance.
    In Ethiopia, I attended first an agricultural vocational 
school and then a college of agriculture, both of which were 
established by Oklahoma State University under the old Point 
Four Program. And, as luck will have it, I attended graduate 
school at Purdue University, again with support from the U.S. 
Agency for International Development.
    My professional career started 30 years ago exactly, this 
month, when, with a fresh Ph.D. from Purdue University, I 
joined one of the international research centers headquartered 
in India. I was stationed in the Sudan, a country many consider 
one of the more difficult places in the world to live and work. 
My time there was very productive and memorable, however. In my 
5 years there, I developed the first commercial sorghum hybrid 
in Africa; that high-yielding, drought-tolerant sorghum hybrid 
is today grown on 1 million acres in Sudan annually.
    For the last 30 years, 5 years in Sudan and 25 years at 
Purdue University, I have been conducting international 
development work in crop improvement, and, through this 
process, again, with support mainly from the Federal Government 
of the United States, I have trained a large number of graduate 
students, both U.S. citizens and Africans, and I have also 
conducted more crop improvement research that have benefited 
the poor in Africa.
    As a beneficiary of the technical assistance program, in 
turn, I am devoting my life to improving the well-being of poor 
people, especially those that I know best, rural Africans.
    Mr. Chairman, as you gather from the presentation of the 
distinguished panel that just testified and the excellent 
document prepared by the Chicago Council, hunger and poverty 
have been relentless. However, I believe eradicating hunger, as 
you had indicated, yourself, is within our reach.
    In my opinion, to improve the lot of the rural poor, it is 
essential that the following three nuggets are addressed:
    One, it's very essential that science is given a chance, 
science-based improvement in technology is affirmed.
    Second, for appropriate science-based changes to be 
generated and delivered, institutional and human capacities 
must be strengthened. I'm concerned that, of all the problems 
that I see, the decline in resource commitment to capacity-
building may derail all the gains that we have had in the past. 
Investment in public institutions that build scientific 
capacity in research, education, and technology transfer 
require greater reinforcement today, more than ever. Private 
entrepreneurship and institutions that create incentives for 
commercialization, support markets, finances, risk management, 
and infrastructure that facilitate commerce need to be greatly 
encouraged.
    Third, supportive public policies are a must. Empowerment 
of local institutions and local cadres is an indispensable 
ingredient to making sustainable change. Without the needed 
incentive, national policies as a catalyst, and the sustained 
resource commitment that should follow, the likelihood of 
permanent positive change is very small. I'm convinced that a 
more effective partnership can be designed between the U.S. 
Government, on one hand, and our institutions of higher 
learning and research, on the other, in dispensing these 
interventions.
    Let me hasten to add, Mr. Chairman, that I'm encouraged by 
the confluence of ideas and vision in several of the 
initiatives that are currently under discussion at the national 
level.
    First, the excellent document prepared by the Chicago 
Council for Global Affairs articulates the overall need so 
clearly and identifies key institutions worthy of support.
    Second, the back-to-the-basics approach articulated by the 
Global Food Security Act that you and Senator Casey have 
sponsored is very refreshing to me, and is complemented well by 
the Chicago document.
    Third, the Partnership to Cut Hunger and Poverty continues 
to promote research-based advocacy for agricultural development 
as described in a recent Roadmap draft document prepared by an 
alliance of NGOs.
    Fourth, the CGIAR Science Council's new Mobilizing Science 
and Linkage Initiative that I'm helping lead is an effort to 
better link scientists, international agricultural research 
centers with scientists in the developed and developing 
countries to create better synergy and complementation.
    I am further encouraged by the emergence of new 
organizations. I recently spent a year in Nairobi, Kenya, 
assisting the Rockefeller and Gates Foundation design a new 
joint initiative called the Alliance for Green Revolution in 
Africa. It is my perception, and that of many Africans, that 
the Bill & Melinda Gates Foundation is viewed as the game-
changer or the difference-maker, primarily because their 
involvement is coming at a time when external investments from 
public governments of the developed world in agricultural 
education, research, and development have fallen. Even with the 
great generosity of the Rockefeller, Gates, and Buffett 
families, however, the need around the world is so large that 
it will only be solved by marshaling internal and external 
public resources, as well.
    This is also an opportune time, from the point of view of 
developing countries. For the first time in my life and my 
career, I'm beginning to see a more focused sense of purpose 
and commitment among African leaders, particularly with respect 
to visionary investments in higher education, agriculture, 
development institutions and infrastructure. However, the 
current propitious momentum will be lost without effective 
global leadership for international development. That's why, 
Senator Lugar, that I applaud the vision and leadership of the 
Senate Committee on Foreign Relations considering your act in 
today's discussion around the Chicago Initiative on the Global 
Agricultural Development. Your work is crucially important to 
reinvigorating the position of the U.S. Government in support 
of science-based development in developing countries.
    Let me conclude my comments with these light words about 
the need and power of policy intervention. I liken agricultural 
development programs with diet and weight-loss programs. Some 
weight-loss programs are gimmicks, some are real. Most have 
something in them that works. Some produce results right away, 
while others need time to be effective. Regardless of which 
weight-loss program is chosen, however, the only way 
sustainable life-transforming change can be achieved is if the 
person commits to them and uses the newly learned discipline to 
stay the course and continue to eat right, exercise, and clear 
the mind.
    The same principle is true of introducing new agricultural 
technologies to developing countries. We can produce some 
positive results with most R&D programs, where infusion of 
money and effort demonstrate the value of our interventions. 
But, only if local people, local institutions, and local 
governments are encouraged, engaged, and empowered, and remain 
vigilant until the change is ingrained can that to which we all 
aspire be achieved.
    Thank you for the opportunity to share these thoughts.
    [The prepared statement of Mr. Ejeta follows:]

      Prepared Statement of Gebisa Ejeta, Distinguished Professor 
           of Agronomy, Purdue University, West Lafayette, IN

    Mr. Chairman and members of the committee, I would like to extend 
my appreciation for the opportunity to appear before you today to 
submit this testimony on this U.S. Senate hearing of ``Alleviating 
Global Hunger: Challenges and Opportunities for U.S. Leadership.''
    With your permission, Mr. Chairman, let me begin with a personal 
introduction of myself. I am Professor of Plant Genetics and Breeding 
at Purdue University, but my true credentials to speak on the topic of 
global hunger arise from the life I lived as a child and the work I 
have done in the world of international development.
    I was born of illiterate parents with little means and raised in a 
small village with no schools in west-central Ethiopia. An only child, 
I was nurtured with lots of love, but on a diet less than adequate even 
for body maintenance, let alone for growth and intellectual 
development. All nutritional and developmental indicators might have 
suggested that I was destined not for my current physical stature or 
the modest professional success I've attained, but for failure and 
perhaps for disaster. And yet by the Grace of God, in what feels like a 
destiny nothing less than providential, I am invited to sit here today 
before this distinguished committee, in this hallowed institution of 
this great Nation, to provide this testimony as a notable scientist 
with some distinction and repute. This is a very long journey from that 
village in west-central Ethiopia that I am sorry to report has not 
changed much since the days of my childhood.
    I was rescued by a godsend from the United States of America--the 
work of other visionary leaders who once sat in similar seats, as 
members of this committee and envisioned the building of institutions 
of higher learning in developing countries as a key foundation for 
global development. Upon completing my elementary education in a 
township 20 kilometers away from my village, I was selected to attend 
Jimma Agricultural & Technical School which was established by Oklahoma 
State University under the old Point Four Program. I then entered 
Alemaya College of Agriculture, another Oklahoma State University and 
Point Four establishment in Ethiopia. I graduated in 1973 with a degree 
in Plant Science, with Great Distinction and at the top of my class. 
After graduation, I was retained by Alemaya College to serve as a 
junior faculty member and was recommended to seek graduate education 
overseas. A chance meeting in Ethiopia with my mentor, the late Prof. 
John Axtell, led to my recruitment to Purdue University in 1974, where 
I joined yet another U.S. Government funded project on nutritional 
quality improvement of sorghum, and completed a Ph.D. program in 1978.
    My professional career began exactly 30 years ago this month, when 
with a newly minted Ph.D. from Purdue University, I joined the 
International Crop Research Institute for the Semi Arid Tropics 
(ICRISAT) in India. I was stationed in the Sudan, a country many 
consider one of the more difficult places in the world to live and 
work. It was an enjoyable and meaningful experience for me, however. In 
my 5 years there, I developed the first commercial sorghum hybrid in 
Africa and catalyzed the establishment of a private seed industry to 
support this breakthrough. Drought tolerant and high yielding, the 
sorghum, hybrid Hageen-Dura 1, is now cultivated in Sudan on over 1 
million acres annually. In 1986, Secretary of State George Schultz, in 
addressing a special meeting of the United Nations in 1986, identified 
this work as a significant development and cited it as a good 
illustration of the promise of science-based development in Africa.
    For the last 30 years, including 25 years since I joined the 
faculty of Purdue University, I have conducted an international 
graduate education and research program in crop improvement at Purdue 
University funded primarily by the U.S. Agency for International 
Development. I am, therefore, a product of the international 
development and technical assistance program. That experience has given 
me great motivation and inspiration for devoting my life to serving 
international agriculture. As an educator and scientist, I am now in 
turn advancing the well-being of poor people through science, 
especially those I know best, rural Africans.

             THE RELENTLESS PROBLEMS OF THE POOR IN AFRICA

    Mr. Chairman, hunger continues to prevail across Africa and in many 
developing nations. Hundreds of millions of people are struggling to 
survive and build a better future for their families--a challenge that 
seems to get steeper and more difficult each decade. As you gathered 
from the presentations of the distinguished panel that just testified 
and the excellent documents prepared by the Chicago Council on Global 
Affairs, hunger and poverty have been relentless. Rural dwellers, who 
are the food producers, have been hurt more, but those who fled the 
rural hardships and became the urban poor have not fared any better.
    Several constraints limit agricultural productivity and the use of 
better management of natural resources in much of the tropics. Growing 
pressure from increasing population and associated energy and water 
demands continue to worsen problems of resource limitations. As more 
recent food-price crises have shown, these problems have global 
ramifications. The inherent biophysical limitations brought about by 
degraded natural resources are further aggravated by changing weather 
patterns. The variety of pests and diseases prevalent in the tropics 
are likely to be even more severe and troublesome with advanding 
climatic change.

       THE STATE OF AGRICULTURAL EDUCATION AND RESEARCH IN AFRICA

    Contrary to a widely held view, advances have been made in 
agricultural education and research in Africa.\1\ There have been a 
number of small success stories, though not well publicized. The United 
States Government led early efforts in the development of many of the 
newly emerging poor nations in the 1950s where it extended a version of 
the European Marshall Plan program to the new independent nations. At 
the time of the flurry of independence of the African nations in the 
early 1960s, not many Africans had graduate degrees in agriculture and 
little functional agricultural education and research infrastructure 
existed. The United States Government led early efforts in human 
capacity-building with its Point Four program that set out a vision to 
lay the institutional foundation for agricultural development efforts 
in these nations. Our land-grant colleges and universities educated a 
large number of agricultural scientists from these developing 
countries. A cadre of U.S. citizens with interest in international 
engagement were also trained and dispatched for service through a 
variety of organizational arrangements. U.S. universities were 
mobilized in long-term institutional strengthening programs of the 
newly emerging developing-country centers of learning in many of these 
emerging nations. These efforts generated benefits for both the U.S. 
and the developing nations including those in Africa. The United States 
saw a growing number of scientists and professionals with knowledge and 
experience in international agricultural development. The agricultural 
research ``culture at many national research institutions improved as a 
result of the efforts of these U.S. scientists and their institutions. 
Continued assistance from the U.S. and other developed nations helped 
strengthen the research infrastructure in Africa through the 1980s 
until support for such long-term human and institutional capacity-
building declined significantly in the last 20 years.
---------------------------------------------------------------------------
    \1\ Holmes, H. 2005. ``Spurts in Production--Africa's Limping Green 
Revolution.'' In Djurfeldt, G., Holmen, H., Jirstrom, M., and Larson, 
R. (eds). The African Food Crisis. Lessons from the Asian Green 
Revolution. CA BI, UK and USA.
---------------------------------------------------------------------------
    Within Africa, increased communication and networking among African 
agricultural research services led to more collaboration and exchange 
of knowledge and germplasm--key ingredients in technology development 
and deployment.
    Further funding from the U.S. and European governments, other 
international organizations, and private foundations led to the 
establishment of the Consultative Group for International Agricultural 
Research (CGIAR). Increased linkages were developed between these 
centers and the National Agricultural Research Services (NARS) in 
Africa, as well as U.S. and European universities. Perhaps most 
importantly, there emerged a growing recognition of agricultural 
research as a vehicle of change for national development as a result of 
these engagements and the resultant interactions among these 
organizations.
    Unfortunately, the level of support for these long-term 
multigenerational changes has declined over the last two decades, 
stalling the progress of our early efforts.\2\ A drop in external 
funding and political neglect of agriculture by national policymakers 
in developing countries have resulted in an increasing decline in the 
human capital base. Reduced funding for agriculture and agricultural 
research has eroded the capability of U.S. institutions to educate and 
conduct research in vital areas, particularly in the applied sciences 
including plant and animal breeding, genetics, crop physiology, and 
plant pathology.
---------------------------------------------------------------------------
    \2\ Masters, W.A. 2008. ``Beyond the Food Crisis: Trade, Aid and 
Innovation in African Agriculture.'' African Technology Development 
Forum 5(1): 3-15.
---------------------------------------------------------------------------
    In my view, this general decline in the human capital base and the 
shrinking opportunities to replenish it through higher education is the 
most serious threat to the gains we have made in developing countries. 
Equally concerning is the erosion of U.S. talent in international 
development, particularly among the university faculty that are well-
versed in the sciences, and the lack of opportunities to attract the 
new generation to careers in science-based development work 
internationally.
    Other challenges to continued growth in agricultural education and 
research in Africa include:

  <bullet> Inadequate internal (local) funding for agricultural 
        research and education. In this ``Catch 22'' situation, 
        research does not receive enough support to produce impact; and 
        because it has not produced impact, national leaders are not 
        persuaded to commit greater support.
  <bullet> Because of lack of extensive research knowledge and 
        experience, research at some institutions is not carefully 
        targeted to technology development. It is often not easy for 
        professionals who have not been able to benefit from mentoring 
        with experienced researchers to develop a ``big-picture'' 
        perspective that is essential to catalyze efforts that may 
        sustain change.
  <bullet> Often, education, research, and extension efforts reside in 
        different administrative agencies. Government and nongovernment 
        organizations do not readily cooperate with each other--and in 
        fact appear to be in competition with each other. In several 
        situations, the desired synergy between internationally funded 
        agricultural research centers and locally funded national 
        research centers has not developed as hoped for, often 
        resulting in unnecessary and undue competition.
  <bullet> The lack of a firm national strategic framework and agenda. 
        The over-reliance on external funding tends to create research 
        goals and program missions that are reactionary rather than 
        strategic.
  <bullet> Increased funding for support of rural social services, such 
        as emergency food aid, has also diverted attention from long-
        term institutional development efforts. Rural social services 
        save lives and are important, but they do not increase crop 
        yields, lead to productivity gains, or raise earning capacity 
        to reduce poverty. In 2003, for example, U.S. food aid to 
        Ethiopia totaled $475M, while $354M was spent in total 
        agriculture development worldwide.\3\
---------------------------------------------------------------------------
    \3\ Eicher, C. 2003. ``Flashback: Fifty Years of Donor Aid to 
African Agriculture.'' Paper presented at the InWEnt, IFPRI, NEPAD, CTA 
Conference ``Success in African Agriculture.'' 3 December 2003. 
Pretoria, SA.
---------------------------------------------------------------------------
             africa's dismal record in technology transfer
    While Africa has made some progress in agricultural education and 
research, its record in technology transfer has been dismal. African 
higher education and research infrastructures and institutions have 
begun to generate a fair degree of progress and momentum, but the 
technology transfer programs have not fared as well. As a result, 
products of research, including some that could generate significant 
impact; fail to reach the farmer and do not produce badly needed change 
in farm practices and family livelihoods. Reasons for this failure 
include:

  <bullet> Institutional immaturity. African institutions today are 
        generally not as strong as Asian institutions were at the 
        advent of the Asian Green Revolution in the 1960s. While 
        progress has been made in some countries, we have a long way to 
        go in the vast number of countries in Africa. Approaches to 
        technology delivery processes have changed too rapidly over the 
        years, although they have varied with funding agencies. Because 
        of these frequent shifts in approach over the last several 
        decades, many interventions have not generated noticeable 
        impact. For example, the U.S. Land Grant approach to 
        agricultural extension, has been an effective approach to 
        public-supported technology transfer when given a chance. 
        Extension was part of the early institutional development 
        programs in many countries. At the time, efforts to build 
        closer linkages between agricultural research and extension was 
        not as effective due to the weak human capacity and 
        institutional, development programs of African nations in those 
        early days. The land grant approach of technology transfer via 
        public extension services was replaced by others including the 
        World Bank's Train & Visit, the Food and Agricultural 
        Organization's (FAO) Farmer Field Schools; as well as a mix of 
        approaches by nongovernmental organizations (NGOs), with the 
        latest approaches advocating private-sector-based 
        agrodealerships or other approaches that may have a public-
        private partnership slant to them. None has been sustained long 
        enough to produce a culture of change in rural farm practices.
  <bullet> Ill-equipped agents of change. There are not many African 
        national programs that have been able to build a well-trained 
        cadre of sufficient critical mass with the knowledge of the 
        sciences and understanding of the agriculture of its 
        communities. When well-trained experts from abroad are 
        received, they often do not stay long enough to develop an 
        understanding of both the local agricultural practices as well 
        as the biophysical environments to be effective.
  <bullet> Infrastructure limitations. Almost everywhere in Africa, the 
        infrastructure, facilities, and programs of technology transfer 
        institutions are usually underfunded and underdeveloped 
        compared to the institutions of higher education or research in 
        the same countries. There is no reason to believe that this 
        happens by design, but it is true almost everywhere.
  <bullet> Unique biophysical problems. That Africa is a large and 
        diverse continent is often not well understood or acknowledged. 
        With nearly 800 million people, more than 1,000 ethnic groups, 
        seven colonial histories, six geographic regions, and a mix of 
        governance styles, a variety of research results and 
        educational formats are needed to reach out to a variety of 
        communities. In poor nations where resources are limited, this 
        presents a formidable challenge.
  <bullet> Lack of proper incentives for change. Farmers everywhere 
        respond better to economic incentives and benefits, often 
        immediate to their needs. In Africa, where private 
        entrepreneurial plans are not well developed, productivity 
        gains are limited to meeting household needs; they are unable 
        to broadly translate to profitability and to generate a needed 
        demand for new technologies from research.
  <bullet> The rate of new technology adoption in a country is often 
        directly related to local knowledge, experience, and social 
        realities in the community. We can learn a great lesson from 
        the experience of early adoption of hybrid crops in the United 
        States. Despite the better education and awareness that existed 
        in this country, compared to many of the developing nations of 
        the world, it took over 25 years to move the acceptance of 
        hybrid maize from 0 percent to 95 percent. But once the farm 
        communities got used to the new technology, and the experience 
        of hybrid maize was shared and the network of dealerships and 
        private seed sector were well developed, it took only 5 years 
        to reach a similar level of adoption of hybrid sorghum when 
        that technology first appeared in 1956.\4\
---------------------------------------------------------------------------
    \4\ Maunder, A.B. 1998.`` Why Hybrids?'' In: Axtell et. al. (eds) 
Proc. West African Hybrid Sorghum and Pearl Millet Workshop. 28 
September-2 October, 1998. Niamey, Niger.
---------------------------------------------------------------------------
   major paradigm shifts in african agricultural r&d and their impact
    African agricultural research and community development programs 
have suffered frequent and disrupting changes in approaches and 
emphasis. There are several reasons for shifts in paradigms to take 
place in a development practice. Paradigms shift to make what are 
perceived to be needed adjustments in program approach, or they may be 
shifted to better position a program for continued research support. 
Regardless of the reason, paradigm shifts often bring with them loss of 
momentum, some disillusionment, and result in the never-ending blame 
game and one-upmanship that is so prevalent in the international 
development world. These shifts can also result in a perceived lack of 
local commitment to a project or program. There have been a number of 
such changes both in the agricultural research arena and in the 
community development efforts in the developing countries, particularly 
in Africa.\5\
---------------------------------------------------------------------------
    \5\ Ejeta, G. 2009. ``African Green Revolution Needn't be a 
Mirage.'' Seminar presented at the Bill & Melinda Gates Foundation. 10 
March 2009, Seattle, WA.
---------------------------------------------------------------------------
    Paradigm shifts in research and development have not been the only 
disruptions in African development. Added to this are changes brought 
about by structural adjustments that force contraction of government 
agencies (external influence), and the wave of socialist influence of 
nationtalizing plantations and regional research centers, and replacing 
research and development enterprises with state farms and communal 
systems. In many of these cases, generally shifts in research 
approaches tend to be more jolting than those in community development 
programs because of the long-term nature of agricultural research and 
the time needed to generate research results. The shifts over the years 
in paradigms and emphasis have contributed to growth in the ``industry 
of science providers''--a long list of providers with a variety of 
skills and approaches. There is often no proper division of labor among 
groups and organizations, which results in unnecessary duplication of 
effort and competition. All of this, of course, has added to the 
growing cost of doing business.
    the emergence and promise of the bill & melinda gates foundation
    The Bill & Melinda Gates Foundation has recently emerged as a 
leader in helping fight hunger and poverty in sub-Saharan Africa and 
Southeast Asia. The foundation is rapidly building its alliances to 
work with a variety of other institutions including national programs, 
international centers, and universities. Together with the Rockefeller 
Foundation, it is a major force behind the creation of the Alliance for 
a Green Revolution in Africa (AGRA)--a growing partnership working 
across the African Continent to help millions of small-scale farmers 
and their families lift themselves out of poverty and hunger. BMGF has 
infused badly needed resources to some sectors, particularly to the 
International Agricultural Research Centers (IARCs).
    It is my percetion and that of many Africans that the Bill & 
Melinda Gates Foundation is viewed as the ``Game Changer'' or the 
``Difference Maker'' primarily because their involvement comes at a 
time when total external investments in agricultural education, 
research, and development from governments of the developed world have 
fallen. Support of programs such as these has given an elevated sense 
of hope and vision of leadership to these efforts. However, it is 
already made clear that even with the great generosity of the 
Rockefeller, Gates, and Buffet families, more internal public resources 
need to be mobilized to generate the needed impact, for the need around 
the world is so large and the loss of momentum from early efforts needs 
greater investment to jump start and reenergize.
    The new agricultural development programs of BMGF are designed to 
promote capacity-building, generate scientific results that offer 
solutions, disseminate research results aggressively, and catalyze the 
development and adoption of new agricultural technologies for greater 
impact in an integrated value-chain approach. Both the vision and the 
resources from the array of comprehensible BMGF programs have been 
received with great anticipation and promise.
    essentials for science-based agricultural development in africa
    There is a need to regroup, take lessons from past efforts, and 
focus on those programs and approaches that generate the needed impact 
to offer immediate relief and build new momentum in catalyzing science-
based development in an accelerated and renewed sense of purpose and 
energy. Based on my 30 years of development experience and my knowledge 
of rural life in Africa, I have come to believe that there are three 
key essentials needed to bring about sustainable change that could 
generate needed results for generating sustained impact in the 
agricultural development of developing nations. These three sets of 
essentials that must be well orchestrated and addressed in concert are 
(1) Technology; (2) Institutional and human capacity; and (3) Public 
policy.
    1. Science and Technology: It is essential that science be affirmed 
as the primary vehicle of change for economic development. The 
successes of U.S. agriculture, the Asian Green Revolution, and the few 
nuggets of change in Africa are evidence that science-based development 
offers not only a way out of hunger and poverty, but also leads to 
prosperity. Life altering changes will continue to require scientific 
innovations that raise productivity and income. Recent advances made in 
the biological sciences offer exciting opportunities for addressing 
some of the most intractable agricultural problems prevalent in the 
tropics.
    2. Institutional and Human Capacity-Building: For appropriate, 
science-based changes to be generated and delivered, institutional and 
human capacities must be strengthened. I am seriously concerned that 
the decline in global resource commitments for capacity-building 
threatens to derail all the gains made to date. The acute need for 
strengthening institutions and building human capacity in developing 
countries cannot be overemphasized. Investments in public institutions 
that build scientific capacity in research, education, and technology 
transfer need greater reinforcement today more than ever. I may add 
that the weakest institutions in most developing countries are in the 
private sector. We must encourage private entrepreneurship and 
institutions that create incentives for commercialization, support 
markets, finances, risk management, and infrastructure that facilitates 
commerce. In building both public and private institutional capacity in 
developing countries, we must support and advance openness in sharing 
of experiences with the outside world so that newly trained individuals 
and their institutions receive the necessary mentoring and seasoning as 
well as develop a ``can-do'' spirit.
    3. Policy Interventions: Supportive policies are critical. 
Empowerment of local institutions and local groups is an indispensable 
ingredient to making sustainable change. Needed are bold local policies 
that encourage generation and adoption of new agricultural technologies 
and support new public and private incentives. Without the needed 
policy catalyst and sustained resource commitment that should follow, 
the likelihood of permanent positive change is very small.
    The dream of attaining an African Green Revolution can be 
achieved.\6\ The use of new and improved crop cultivars, new management 
practices, the education of farm communities to adopt new technologies 
that generate impact through increased productivity and profitability 
of incomes is within reach for developing nations. However, these 
things do not happen without great dedication and incentives, and 
enabling policy environments that are badly needed.
---------------------------------------------------------------------------
    \6\ Hesser, 2006. ``The Man Who Fed the World.'' Nobel Prize 
Laureate Norman Borlaug and his battle to end world hunger. Durban 
House Publishing Company, Texas.
---------------------------------------------------------------------------
    Dr. Norman Borlaug, universally acknowledged as the ``father of 
Green Revolution'' is a hero to me and very many others. I personally 
admire his single-minded devotion to science and agricultural 
development and his unending empathy and service for the poor. He has 
been a great example for scientific leadership and a life so well 
lived. As I reflect on his accomplishments and leadership, however, in 
my view the genius of Norm Borlaug was not in his creation of high 
yield potential and input responsive dwarf wheat varieties, not even in 
his early grasp of the catalytic effect of technology, but to a great 
extent in his relentless push to mobilize policy support to encourage 
the development of the agro-industry complex, to sustain the 
synergistic effects of technology, education, and markets.
   science-based development can be achieved and sustained in africa
    I have described above the three factors that I consider crucial 
for sustainable agricultural development in Africa. Science and 
technology need to be given a chance in Africa. We need to develop a 
culture of change where, based on learned experience, African farmers 
form a mind-set of looking to agricultural innovation centers as 
sources of solutions to their agricultural problems. As farmers and 
farm communities and key stakeholders begin to assert themselves and 
earn some economic power, they may lean on government agencies to 
develop and pursue supportive national policies and policy incentives. 
With strengthened stakeholders; the rapidly changing paradigm shifts 
may be slowed and proactive strategies and development agendas may 
emerge generating badly needed momentum in science-based development.
    An effective partnership can be designed between the U.S. 
Government and our institutions of higher learning and research to 
achieve these interventions. The U.S. Land-Grant Colleges of 
Agriculture and their partners have a proud legacy of building human 
capacity and strengthening institutions of education, research, and 
technology transfer. A good foundation was developed in several 
developing nations by the early vision and resource commitments of the 
U.S. Government beginning in the 1950s to make it happen. It is an 
experience that is worth reassessing and replicating at this time.
    The U.S. Government has supported the International Agricultural 
Research Centers of the Consultative Group on International 
Agricultural Research (CGIAR) and the Title XII Collaborative Research 
Support Programs (CRSPs), both of which work closely with developing 
country institutions in agricultural research and development, helping 
build human and institutional capacity.
    U.S. investments in building human capacity and strengthening 
institutions in developing countries have been some of the best 
investments that our government has made toward alleviating hunger, 
reducing poverty, and safeguarding our natural resources.
    It is my assessment that the dividends would be even greater if 
these educational, research, and development investments were 
orchestrated with parallel governmental efforts to encourage proper 
public policies in collaborating nations. Policies that encourage 
internal investments in agricultural development and further 
strengthening of local institutions and in local people to raise the 
level and depth of their national aspirations are badly needed. 
However, this is the realm of influence for governments and donor 
agencies; we in the academic and science community are ill-equipped to 
have much influence beyond ideas to have lasting impact in the field of 
policy.

                              THE OUTLOOK

    Let me state, Mr. Chairman, that I am encouraged by several 
initiatives that are currently under discussion at the national level:

  <bullet> The excellent document prepared by the Chicago Council for 
        Global Affairs \7\ articulates the overall need clearly and 
        identifies key institutions worthy of support.
---------------------------------------------------------------------------
    \7\ ``Renewing American Leadership in the Fight Against Global 
Hunger and Poverty.'' The Chicago Initiative on Global Agricultural 
Development. Report issued by an independent leader group (Catherine 
Bertini and Dan Glickman, cochairs).
---------------------------------------------------------------------------
  <bullet> The back to the basics approach articulated by the Global 
        Food Security Act of 2009 \8\ introduced by Senator Casey and 
        Senator Lugar is refreshing and is complemented well by the 
        Chicago Council document.
---------------------------------------------------------------------------
    \8\ Introduced to the U.S. Senate as the Global Food Security Act 
of 2009 by Robert Casey (Pennsylvania) and Senator Richard Lugar 
(Indiana), this bill seeks to assign greater priority to alleviating 
hunger and poverty.
---------------------------------------------------------------------------
  <bullet> The Partnership to Cut Hunger and Poverty continues to 
        promote research-based advocacy for African Agricultural 
        Development as described in its recent ``Roadmap'' draft 
        document.
  <bullet> The CGIAR Science Council's new Mobilizing Science and 
        Linkages initiative, of which I am privileged to be among the 
        leaders, is an effort to better link scientists in 
        international agricultural research centers with scientists in 
        the developed world to create better synergy and 
        complementarities.

    I am further encouraged by new organizations that have come into 
international agricultural development with great interest and resource 
commitment. I recently spent a year in Nairobi, Kenya, assisting the 
Rockefeller and Gates Foundations to design a new joint initiative 
called the Alliance for Green Revolution in Africa (AGRA).
    This is also an opportune time from the point of view of developing 
countries. For the first time in my life and my career, I am beginning 
to see a more focused sense of purpose and commitment among African 
leaders, particularly in more deliberate, visionary investments in 
higher education, agriculture, development institutions, and 
infrastructure.
    However, the current propitious momentum will be lost without 
effective global leadership for international development.
    I, therefore, appland the vision and leadership of the Senate 
Committee on Foreign Relations in considering the Global Food Security 
Act of 2009 and today's discussion around the Chicago Initiative on the 
Global Agricultural Development. Your work is essential to 
reinvigorating the position of the U.S. Government in support of 
science-based development in developing countries.
    With your permission, Mr. Chairman, let me end my comments with 
these light words about the need and power of policy intervention:
    I liken agricultural development programs with diet and weight loss 
programs. Some weight loss programs are gimmicks, some are real. Most 
have something in them that works. Some produce results right away 
while others need time to be effective.
    Regardless of which weight loss program is chosen, however, the 
only way sustainable, life-transforming change can be achieved is if 
the person commits to them and uses the newly learned discipline to 
stay the course and continue to eat right, exercise, and clear the 
mind.
    The same principle is true of introducing new agricultural 
technologies to developing countries. We can produce some positive 
results with most R&D programs, where infusions of money and effort 
demonstrate the value of our interventions. But only if we encourage, 
engage, and empower local people, local institutions, and local 
governments--and remain vigilant until the change is ingrained--can we 
bring about that truly transformative change that we all aspire to 
achieve.
    Thank you for the opportunity to share these thoughts with you.

    Senator Lugar. Well, thank you for that testimony, Doctor.
    Let me just comment, with the overall testimony of the two 
of you. You have demonstrated why it would be important for a 
coordinator on agriculture and food to be either a part of the 
National Security Council or a voice in the White House as our 
President considers the points of national security, someone 
around the table who can speak to Iraq, as you have, from your 
own life, Dr. Ejeta, about Sudan. These are areas in which we 
have considerable foreign policy and security interests, 
presently. And yet, on the ground, I would guess that many 
persons who may be taking part in those White House discussions 
are clearly not aware of the testimony you've presented today, 
of facts on the ground of what's occurred.
    For instance, Dr. Ejeta, explain how, from the sorghum 
hybrid proposition that you were responsible for bringing 
about, you could go from where you started to a million acres 
of cultivation in Sudan. That is a lot of territory. How many 
farmers, roughly, would be involved in farming a million acres, 
in Sudan, of this sorghum hybrid?
    Dr. Ejeta. Thank you, Senator.
    Senator Lugar, I know that you'd clearly understand this as 
a farmer. One of the things that we have not done very well in 
Africa is giving farmers an opportunity to look to science as 
solving their problems. And that culture of looking to research 
institutions and technology centers for problem solution is 
what we haven't been able to get done in Africa at large. To 
effectively address this problem in Sudan, very early in our 
program we began to word with farmers and farm communities and 
engaging them every step of the way in the technology 
development process as scientific interventions were coming 
along. Among other things, this provided an opportunity for 
farmers to recognize that we were working on hybrids, not open 
pollinated cultivars, and that because of that they need to 
recognize that new seeds need to be purchased annually. And so, 
we instilled from the beginning the need to catalyze the 
creation of a private sector establishment to mobilize the seed 
production and delivery activities. To answer your question, 
more specifically, in Sudan, where we thought originally that 
we might reach larger farmers, our hybrids actually received 
greater adoption to small farmers that normally would cultivate 
maybe, 5 acres, at the most, of sorghum. So, with that 
calculation, you're talking about thousands of farmers and farm 
families.
    Senator Lugar. Yes, hundreds of thousands.
    Dr. Ejeta. Yes, Senator.
    Senator Lugar. And this is a remarkable phenomenon on the 
ground in Sudan now, as we take a look at Sudan, either from 
the security standpoint, a humanitarian standpoint, as 
testimony comes before our committee, frequently talking about 
hundreds of thousands of people huddled in refugee camps. This 
is why the juxtaposition of this farming going on, the 5-acre 
farms, with something that came literally from your help, is 
truly astonishing.
    You know, likewise, in Iraq, as you pointed out, Dr. Price, 
why, you've tried to work within the bounds of security that 
either was there or wasn't there, sort of returned with the 
surge group and so forth, saw at least some effects on the 
ground, tried to help push some more along. You know, very 
frequently, discussions occur in Iraq about development. All 
sorts of contractor teams have gone out, hopefully to help with 
the water problem or with the power and light problem and so 
forth, which are instrumental in agricultural, likewise. But, 
I've heard very little testimony with regard to feeding the 
people of Iraq, or people in Iraq producing food, as opposed to 
humanitarian shipments. And it's interesting--and this is a 
problem our committee deals with, as well as the 
administration--frequently, these affairs have followed our 
military, because they were able, literally, to organize the 
agricultural situation. Hypothetically, we could have had the 
State Department working on this, other civilian authorities 
and USDA. But, the problem of coordination at the top has--this 
is a good illustration--been achieved by the Secretary of 
Defense, frequently, who has called together the people who 
were required, whether they were teachers or lawyers or people 
involved in the water problem, or yourself. But, it just gets 
back to the need for coordination at the White House level in 
what is now an Iraq and national security endeavor, as well as 
a humanitarian one, because we're thinking about plans for 
withdrawal, about life after the American troops in Iraq. And 
the importance of agricultural development now is really 
critical.
    Now, let me just say one further thing before I ask for 
your comment. Mention has been made of the Bill and Melinda 
Gates Foundation, and we've had visits with Bill and Melinda 
Gates, and I'm excited about their vision with regard to this. 
They understand productive agriculture, the need for farmers 
markets. A part of their beneficence has been to create, as I 
understand, in some areas, 3 years of markets that were 
guaranteed to farmers, that started from scratch, wanted to 
make sure that, at the end of the trail, there was someplace 
that there could be income for their families if they increased 
their yields beyond something needed just to feed the family. 
And they've obviously worked on the science-based areas. And, 
as you both pointed out, they cannot do it all by themselves, 
but this has been a very large contribution in the areas in 
which they have worked.
    Let me just ask, is the work of the Gates Foundation, or, 
for that matter, the work you've done in Iraq or the work 
you've done in Sudan and elsewhere, Doctor, widely recognized? 
How have you been able to make known the kinds of facts that 
you've given us today, which are extremely important for people 
who are arguing either national security, coordination of 
affairs at the White House, including civilian as well as 
military people, as well as the humanitarian situation? Do you 
have any overall thoughts about that, Dr. Price?
    Mr. Price. One of the questions or statements often made to 
me is, Why haven't we heard about this work?
    Senator Lugar. Yes.
    Mr. Price. Every time I give a presentation----
    Senator Lugar. That's the one I'm asking.
    Mr. Price. [continuing]. That's exactly the response. And 
I've puzzled over that, myself.
    But, let me say, in the first place, that in Iraq and 
Afghanistan, there was anxiety, in the beginning, to protect 
the people were in the field.
    Senator Lugar. I see.
    Mr. Price. And--so that we were actually constrained from 
saying very much. I remember one day, one Friday night, a 
reporter called and said, ``Couldn't you tell me a little bit 
about what's going on in Iraq?'' And so, I gave him a 
statement. It came out in the local newspaper the next morning, 
on Saturday morning. Within 2 hours, I had a phone call, 
saying, you know, ``You really shouldn't be talking to the 
press about what's going on. It could result in danger for our 
people in the field.'' Of course, they were--it was my--they 
were my people----
    Senator Lugar. Yes.
    Mr. Price. [continuing]. In the field. So, that was one of 
the--that's one of the reasons.
    But, yeah, the word is beginning to get out, but I can 
almost count on one hand the stories that have been released 
about the work of the agriculturalists in Iraq and Afghanistan.
    I can't give a good answer to that. I think that part of it 
came out of the security constraints. And then, after that, I'm 
not sure that people wanted to hear what's really going on, 
that it was really the stories of the dangers, the stories of 
the distress. The drama of the distress actually was what the 
public was more interested in hearing, perhaps, and it was 
harder to tell the story of agriculture. It's beginning to be 
told, and I think that, through your effort and many others', 
we should make an enormous effort, because most people do not 
even realize that Iraqis are farmers. Two-thirds of the 
country----
    Senator Lugar. Yes.
    Mr. Price. [continuing]. Are agriculturalists, and they've 
been farming for centuries. So, it's a very important 
agricultural country. They say, in fact, that it's an 
agricultural country that happens to have oil.
    Senator Lugar. Without underlining the obvious, with two-
thirds of the population, in agriculture, Americans who are 
involved in agriculture in Iraq are appreciated by the people 
that are involved in agriculture. You know, that's sort of a 
strange fact, which isn't obvious, but frequently we are--cited 
polls that indicate, ``Do you want the Americans to stay?'' or, 
``Do you like Americans around?'' or something of this variety, 
and very large percentages say, ``No, we don't. They're 
intrusive and they have caused trouble for us,'' and all the 
rest of this. And we were very resentful; after all, we feel we 
displaced the dictator, we are trying to bring about democracy, 
trying to do a number of good things; and to be so resented by 
the population seems to us to be totally wrong.
    On the other hand, what you're pointing out is, there is 
clearly an avenue, not just simply to win the hearts and minds 
of the Iraqis, but, as a matter of fact, to work on fundamental 
situations against poverty, for food that might be helpful in 
elevating the standard of living. In other words, people might 
say, ``It was really a nice thing to have some of the Americans 
around,'' that, ``We've got better crops, better life because 
they were here in that fashion.''
    And I mention that because frequently we have tried, in a 
foreign policy way, to say that, after all, Iraq might be, if 
not a shining star, in the firmament, that area, someplace that 
conspicuously was better. And this has always become a dubious 
point of debate. But, not so with the two-thirds you're talking 
about, and this is why I'm hopeful the story might have greater 
currency. As you say, security reasons may have impelled that 
you not tell the story, but now you can. And we are doing so 
today, for anybody's who's listening, and it's an important 
story.
    Likewise, Dr. Ejeta, in the work that you have been doing 
throughout your life, as somebody who came from a country that 
had great needs, and, as you pointed out, still has great 
needs, may not have moved that far along the metrics of 
development, the fact is that, from that experience, and 
informed by your own childhood and then what you found in the 
rest of the world, you've accomplished great things.
    But, get to Sudan again, now, the sight of a million acres 
being farmed, maybe 5 acres at a time by, if you do the math, 
200,000 farmers--this is a lot of people in Sudan. Now, Sudan's 
a big place with issues in Darfur, development challenges, and 
conflicting tribes and all. But, even in the midst of this, 
there's something going on, here, that offers, it seems to me, 
a platform for, not only aid and assistance, but for real 
progress, for people to understand how their lives could be 
informed and changed.
    In addition to that, what other countries do you believe 
are there real possibilities, given your research, to bring 
about change and further agricultural knowledge?
    Dr. Ejeta. Thank you, Senator.
    As you clearly indicated, in the bill that you sponsored 
and also--as you have articulated very clearly many times in 
the past, the power of public institutions in supporting 
agricultural development is immense. That's the kind of lasting 
testimonial that is going on around the world in many 
developing countries today. As a result of the earlier 
investments of the U.S. Government in building vital 
institutions of learning and the training and educating of 
young people, even in places where that support has eroded over 
the years, the vestiges of what was left behind, in terms of 
institution-building, capacity-building, are paying dividends 
even today.
    As you indicated about the work in Sudan, this sorghum 
hybrid was developed over 20 years ago, and yet even with all 
the isolation that the country of Sudan has received from the 
rest of the world, the people of Sudan continued to benefit 
from that intervention of our early work that was generated 
then.
    So, when you advance the cause of agriculture through 
science, change minds of farmers to adopt new technologies, as 
you train and educate young people and build capacity, as you 
leave behind institutions of research and extension in these 
countries, those are the kinds of sustained changes that we all 
want to see. And in my opinion, that is the refreshing part of 
the bill that you and Senator Casey are sponsoring. I hope this 
bill gets to see the light of the day, because it has the 
making of one that would generate significant ramifications in 
solving the problems of developing countries down the road.
    Senator Lugar. Let me just ask both of you, because you 
were constrained by our guideline to try to have a 5-minute 
opening summary, more or less, and you've mentioned, of course, 
the more complete testimony that's in the written testimony 
you've submitted, but if you had a few more minutes, Dr. Price, 
what would you like to add that you were not able to articulate 
to this broader audience?
    Mr. Price. Thank you.
    First of all, let me just say that, in response to your 
previous comment about our presence seemingly being resented 
sometimes, I didn't find that in Iraq. In fact, our 
relationships at the community level were extremely warm. There 
were tears in the eyes of the leaders when we came. They said, 
``You're the first people who have shown interest in our farms, 
our families and how we live.''
    Senator Lugar. That's an important statement, all by 
itself. Yes, indeed.
    Mr. Price. Thank you very much.
    The areas that I would like to talk about, in addition to--
when we talk about food security, it's very important that we 
also think of nonfood agricultural production, as well as 
ecosystem services. In order to have food available to 
consumers, it's in a marketplace, and that food competes for 
land with other crops. And now we're very concerned about how 
the--the possibility that biofuel production has competed with 
food production.
    I believe science has an answer to that. We know, from many 
different types of technologies, that it's possible for 
technology to produce both oils--vegetable oil for human 
consumption and animal feed. Technology can solve some of these 
conflicts that we see immediately of some of this competition.
    I believe it's important, while going for improving food 
production, that we also look at the technologies for the 
nonfood production to make sure--and also the ecosystem 
services--to make sure that we are doing all of those together 
and not simply competitively.
    Another area that I would talk about would have been--more 
extensively--about our work in Africa. Working, again, with 
other U.S. universities, we responded, in the post-conflict 
situation Rwanda, to develop women's cooperatives that have 
raised the Rwandan coffee production from a minus-15-percent C-
grade all the way up to a premium coffee in Rwanda. It's 
transforming communities all over the country.
    Senator Lugar. Impressive.
    Mr. Price. And this kind of model, we feel, is one that's 
going to be fruitful elsewhere. But, at the same time, while we 
were doing that, a colleague and I from USAID got caught in the 
wrong place at the wrong time in the Ivory Coast, and we saw 
the eyes of the rebels, and, for the next 2 years, I went back 
again and again to negotiate with the rebels, to make a place 
that we could begin again to do agricultural research.
    And here again, I return to the problem of youth. When we 
work with these leaders on the Force Nouvelle of West Africa, 
it was the young people who had no future who would join these 
forces and were being led to rebel in their countries. So, 
again, I come back to the notion that we really need to look at 
the problem of youth, and despairing youth in the many 
populations where we work, not only in Central Asia and in the 
Middle East, but also Africa and Latin America.
    Thank you.
    Senator Lugar. Thank you, sir.
    Dr. Ejeta.
    Dr. Ejeta. I'd like to go back to what I had said earlier, 
and maybe--and clearly articulate that. And that is, the back-
to-basics approach that I sense in your bill, that education is 
important, research is important, technology transfer is 
important. The power of changing minds in farm communities, I--
in my paper, I indicate clearly, even in this country, with all 
the resourcefulness or all--with all the desire to advance, 
when hybrid corn, which, in my opinion, was really the true 
first grain revolution in the world--when that came about, it 
took nearly 25 years to go from zero to 95 percent of the 
acreage of this country, because farmers are very deliberate; 
they need to see whether or not there is return to their 
investment.
    Once farmers opened up to new technologies and then there 
was a private sector and industry in place, and, 20 years 
later, when there was hybrid sorghum, it was introduced in this 
country, in 5 years we were able to get from zero to 95 
percent.
    And so, this process is a very long-term process. It 
requires education, changing minds, one mind at a time in 
development countries, particularly when you have a variety of 
biophysical and cultural diversity. That education is a long-
term process.
    But, to be able to do that, just like you would need 
seasoning and mentoring with individuals, institutionally also 
it requires that kind of mentoring and seasoning, and 
therefore, the old system that this country had invested, 
through strengthening of institutions in South America, in 
Asia, in Africa, I would like to see that opportunity come back 
again, where sister universities in this country will have 
relationship with developing country and institutions to share 
that knowledge, to share that gained wisdom through time, so 
that what happens in Africa today doesn't happen. What happens 
is, people who are not well trained are turning around and 
training the next generation, because the need is so great and 
it's a very desperate situation.
    I think this is a very win-win situation for the U.S. to 
share what it is good at, because--I am a product of this 
system, and therefore, I'm biased, but education in the United 
States, particularly higher education in this country, is par 
excellence compared to anything that you see in other 
countries. The fact--the land grant university concept is a 
beautiful concept of tying education, research, and technology 
transfer together, to be able to share that and begin to 
implement and ingrain it in the minds of people and the 
leadership.
    And then, as I said, you understand policy a lot better 
than I, but that policy element, to make sure that the policy--
the leaders of the country have faith and respect in education, 
in science, and make sure that they support that activity 
because it's in the long-term interests of their nations, is 
very important.
    And one last point is something that has been clearly 
deliberated earlier in the first panel about coordination of 
all program providers. And we talk about it mainly from 
coordination here. And, as Dr. Bertini indicated, even 
coordination on the ground over there is very important, not 
only in rural development, particularly in science-based 
activities, because if you go to any one of these poor 
countries, the institutions there are not well staffed; and 
yet, in any one country, there is, on the average, about 30 
different agencies involved in agricultural development. And 
when you look at it from the point of view of developing 
countries, their few staff would be entertaining these science 
providers, and so--and therefore, it really is taxing their 
time and their effort. And some coordination of agencies, not 
only from this country, from all around the world, that 
requires significant care and coordination of those activities, 
that whatever can be done in that regard would be very, very 
useful to--to be more deliberate about channeling our efforts 
together so that it's more concerted, more synergized for 
greater benefit.
    Senator Lugar. Well, I like the thought that our 
universities might get together with comparable institutions, 
or people in education anywhere, in Africa or Asia or Middle 
East. And this gets to the point that Dr. Price was mentioning 
about the youth. Not that everybody that attends these 
universities is a young person, but most are. And this really 
is a direct way of diplomacy with the most promising group of 
people who have the most years still to live and to contribute 
to this.
    Likewise, I like your point about coordination on the 
ground. We haven't touched upon this today, but it could be 
that our ambassadors to each of the countries in the world, as 
they go through their training here or through their hearings 
even with this committee, need to have some background in 
agricultural development, in food, the humanitarian interests, 
as well as the diplomatic ones we've talked about today. And 
some obviously do. These are seasoned persons, those who have 
been in the Foreign Service for a long time, as well as those 
Americans who will come into the ambassadorships without that 
background. But, something has to happen in our embassies, 
often, to bring about coordination. We talk a lot about this 
with people dealing with statecraft, as opposed to the military 
or intelligence, whether all of these folks are together. But, 
these basic services on the ground you've been describing are 
really a very important part of their success as diplomats.
    Why, we thank both of you. The Chairman asked me to thank 
both of you. He was detained in returning, but appreciates, as 
I do, what we have heard today. And we thank you for your 
patience and your diligence and your testimony.
    And the hearing is adjourned.
    [Whereupon, at 12 p.m., the hearing was adjourned.]


                              ----------                              


              Additional Material Submitted for the Record


Prepared Statement of Dr. Norman E. Borlaug, Nobel Peace Prize Laureate

    Mr. Chairman, it is a great honor for me to address the Senate 
Foreign Relations Committee on the topic of U.S. foreign assistance and 
the role of agricultural science. I have read Senate bill 384 with 
great interest, and with your permission I will organize my comments 
around various sections of the bill, and how they relate to my 
experience and views on the need to revitalize the U.S. effort to 
improve food and agriculture production worldwide.
    Last year's spike in agricultural prices abated in part because of 
weakness in national economies but the underlying problems have not 
gone away. Land has been taken out of agriculture for other needs of 
the growing world population. Within agriculture, the shift of land and 
crops into energy production has played a role in food supply and 
prices. Also, rising incomes in developing countries increase the 
demand for meat which in turn requires more vegetable protein and 
carbohydrates for animal feeds. Weather and conflict also played a role 
in the food crisis.
    But the most important factor that caused the crisis, which we 
address today through the Global Food Security Act of 2009, is the 25-
year decline in investment in international agricultural research, 
education and extension. Lower investment in agricultural science and 
infrastructure undermined the capacity of farmers worldwide to keep 
pace with human needs. Expenditures by the U.S. Agency for 
International Development in long-term programs for agricultural 
science and education peaked in 1984 at over $800 million and have 
declined to well less than $100 million today.
    Here I am referring to programs authorized by Title XII of the 
Foreign Assistance Act of 1961, as amended in 1975 and 2000. These 
programs are administered by the U.S. Agency for International 
Development in partnership with U.S. universities and the Consultative 
Group for International Agricultural Research (CGIAR). These programs 
are the lifeblood of worldwide collaborative agricultural research, 
education and extension in agriculture.
    This sad story of the failure to invest in long-term global food 
security continues. My colleague, Dean Allen Levine, at the University 
of Minnesota states it well: ``In the blizzard of new research funding 
created by the federal stimulus bill, an important science was omitted: 
Agriculture. While $10 billion was included for the National Institutes 
of Health, $3 million for the National Science Foundation, and $2 
billion for the Energy Department, not a penny was dedicated for 
competitive research in the U.S. Department of Agriculture.''
    The distinguished 30-year member of this body, Senator Mark 
Hatfield, was a champion of international agricultural research and 
education, including one of my favorite efforts--international 
collaborative research on wheat. Senator Hatfield stated that federal 
expenditures for Title XII programs of USAID were the most effective 
dollars in all of U.S. foreign assistance. Mr. Chairman, for these 
programs, Senate bill 384 authorizes up to $45 million for university 
international collaborative research programs, and up to $50 million 
for the CGIAR.
    These are welcome moneys for the programs in which I have served 
much of my life. But when I compare the numbers: 1 billion people 
suffering from food insecurity; $15 billion stimulus research funds 
excluding agriculture; and $95 million designated for international 
agricultural research, I respectfully suggest that we are 
underinvesting in the last--the most effective programs in all of U.S. 
foreign assistance. As you know, such research does not only assist the 
suffering and malnourished populations around the world, it also 
benefits U.S. interests in terms of enhanced food quality, nutrition, 
trade promotion, and food safety (including defense from imported food-
borne disease).
    The broader provisions of the Global Food Security Act of 2009 are 
an appropriate response for the longer term. Title I of the act that we 
consider today provides the needed focus on the problem of hunger. It 
takes a comprehensive whole-of-government approach to planning that is 
widely collaborative with international agencies; and it provides for 
careful monitoring, evaluation, and reporting.
    I note that there will be consultation with the ``academic and 
research community.'' This is not enough. Please be aware that the part 
of the academic and research community which will be most valuable in 
combating hunger are the ``doers.'' You need the engagement, not only 
the consultation, of that engine which drove U.S. agriculture to become 
the best in the world--the combined, integrated effort of teachers, 
researchers, and extension agents of the U.S. land grant system. Their 
work is on the farms, throughout villages, and in the laboratories of 
the world. You must engage them in robust collaborative programs with 
foreign counterparts at every level, especially in fields, forests, 
farms and livestock enterprises. These are the soldiers in the use of 
soft power to build effective bridges with other countries and advance 
U.S. foreign policy.
    Now I turn to the provisions of Title II related to Bilateral 
Programs. These are aimed toward eliminating starvation, hunger, and 
malnutrition; providing basic services to the rural poor; and improving 
incomes and employment of the rural poor through agriculture and other 
rural enterprise. New provisions added by Senate bill 384 highlight 
conservation farming to respond to changing climatic conditions, health 
and nutrition programs for those in extreme poverty and the landless, 
nutrition for children and lactating mothers, and advanced genetics 
technology. I especially welcome confirmation of the need to use the 
best technology available, including biotechnology to meet world food 
needs.
    The point needs to be made, however, that the major U.S. university 
contributions to improving agricultural and food production in the 
past--until the decline began in the late 1980s--were embodied in 
bilateral programs. Past programs for training the scientists and 
leaders from developing countries, reaching 15,000 participant trainees 
at one time, were contained in bilateral programs. Major programs in 
agricultural research, teaching and extension (including agricultural 
enterprise development and agribusiness) were bilateral programs in 
cooperation with U.S. universities and advised by the Board for 
International Food and Agricultural Development.
    Since 1984, bilateral programs have gradually become the province 
of consulting firms, and in the process, agricultural development has 
lost its science base. U.S. foreign assistance in agriculture largely 
stopped supporting long-term investment in human, technological, and 
institutional capital in agriculture. Such investment is critical for 
global agriculture to thrive. That is why there is a global food 
crisis, and that is why, as stated in the Findings in the preface this 
act, another 133 million were added to the world's hungry between 2006 
and 2007.
    Bilateral programs need to be rebuilt on a scientific base, and 
driven by vigorous programs for the development of human and 
institutional capital in developing countries. Title II of this act 
should explicitly identify University Partnerships for Agriculture as 
an instrument of choice for bilateral programs. I know that the schools 
that have been most closely associated with my work, the University of 
Minnesota, Iowa State University, Cornell University and Texas A&M 
University, and all the other land grant universities that played such 
important roles in the earliest Point Four and later ICA programs would 
be highly pleased to reengage with USAID in programs of bilateral 
technical assistance.
    Incidentally I hope that such engagement of universities in USAID's 
programs of bilateral assistance will have a secondary effect of a 
resurgence in scholarship on agricultural development that flourished 
under the leadership of such colleagues as the late Theodore Schultz, 
Vernon Ruttan, the Edward Schuh. We are in great need today for new 
study and understanding of the processes of agricultural development 
and how best to direct and evaluate our effort.
    Title III of this act very usefully revises and simplifies Title 
XII of the Foreign Assistance Act of 1961 as revised by the Freedom 
From Hunger and Famine Prevention Improvement Act of 2000. I concur 
with the provisions of this title in its two previous versions, and 
especially as rendered in this act. Probably we could have accomplished 
what is needed under previous versions of the title had the provisions 
been followed by action. What are needed most under these 
authorizations are leadership, funding, and persistence. Nevertheless 
the language of this revised title sets our direction and methods more 
clearly than ever before.
    Section 298 of Title III identifies types of support that includes 
``continued efforts by international agricultural research centers . . 
. '' Elsewhere funding is authorized at levels of up to $50 million for 
the CGIAR. To promote expanded, long-term fruitful collaboration 
between the CGIAR and U.S. universities I suggest that funding for the 
CGIAR be doubled and that half of these increased funds be designated 
for cooperation with U.S. universities, through student internship and 
study programs, cooperative research projects, and extension effort 
carried out in developing countries by U.S. university extension 
personnel. In my experience, U.S. university cooperation with the CGIAR 
returns great benefits to the U.S. agricultural science community, to 
private firms that employ the agricultural graduates of U.S. 
universities, and to beneficiaries in developing countries.
    I now turn to Section 299, the Higher Education Collaboration for 
Technology, Agriculture, Research and Extension. As stated earlier with 
respect to bilateral programs, I believe that U.S. universities should 
be reengaged in a wide range of agricultural development efforts in 
developing countries. The proposed HECTARE program is an important 
initiative in this regard, with the very useful feature of putting host 
country institutions in leadership roles. The confidence and respect 
that this kind of program demonstrates toward developing country 
institutions is the most important new advancement incorporated in this 
title.
    It has been my experience that building human capital and 
institutions for extension and research is most successful when the 
programs are built around solving specific problems facing agricultural 
production and food security. I suggest that the elements of the 
assistance plans under this section of Title III be required to include 
strong statements of problems to be solved or specific bodies of 
technical work to be accomplished. Agricultural development must be 
focused on meeting current needs of agricultural communities. Such 
focus on specific problems coalesces leadership and increases 
commitment to produce meaningful results.
    This gives me a chance now, in conclusion, to suggest the areas of 
research, teaching, and extension that I believe to be paramount in the 
coming years to move us well ahead of the world food crisis.
    First, nothing encourages me more about the future than to see the 
young high school students who come to participate in the World Food 
Prize Youth Institute every year in Des Moines. Youth agricultural 
programs are generally neglected in U.S. foreign assistance, the 
international agricultural research centers, and in the national 
agricultural programs of developing countries. Please find ways in the 
bilateral programs and the university partnership provisions of this 
act to give early support and hope to youth in agriculture. This is 
critical to rural communities in poor countries, and to the safety and 
security nations faced with poverty and disillusionment. Throughout the 
developing world, the youth bulge continues to put strains on economic 
and social systems. Large-scale support of youth agricultural programs 
will promote entrepreneurship, civic responsibility, technical 
training, community health, and food production.
    Second, find ways to address head-on the competition for land, 
water, and other inputs between food and nonfood enterprises. Science 
can find answers that will reduce the pressure on food prices that is 
caused by the other agricultural enterprises. Seek complementarities or 
independence in modes of production of food and energy crop production 
through research and extension.
    Finally, never underestimate the ability of the natural world to 
continually evolve to create new diseases, pests, and other problems 
for agriculture. Agriculture is a combination of biological sciences, 
social sciences, human health, and business. As such, it is never 
static. We should never have let our investment in agricultural 
research, extension, and education to fall so far behind the steady 
growth in demand for agricultural products. Improvement in crop and 
animal genetics requires bold, responsive, and persistent scientific 
effort, everywhere in the world. I have been combating the devastating 
wheat stem rust disease that has spread across Africa and Southwest 
Asia. It is development challenges like this that need continual 
attention by policymakers and researchers alike to provide farmers the 
technology necessary for achieving food security.
    Thank you for inviting me to make these comments. It has been an 
enormous honor for me to have a small role in establishing the Global 
Food Security Act of 2009.
                                 ______
                                 
                         Alliance for Global Food Security,
                                    Washington, DC, March 23, 2009.
Hon. John F. Kerry, Chairman,
Hon. Richard G. Lugar, Ranking Minority Member,
Senate Committee on Foreign Relations, U.S. Senate, Washington, DC.
    Dear Chairman Kerry and Senator Lugar: On behalf of the Alliance 
for Global Food Security, I respectfully submit this letter as 
testimony for the March 24, 2009, Committee on Foreign Relations 
hearing on ``Alleviating Global Hunger: Challenges and Opportunities 
for U.S. Leadership.''
    The members of the Alliance are private voluntary organizations and 
cooperatives (jointly called ``PVOs'' in this letter) that are 
committed to addressing hunger, malnutrition and food insecurity. They 
operate in approximately 100 developing countries, implementing 
emergency and development programs that directly engage, support and 
build the capacity of local communities, enterprises and institutions. 
Our members seek adequate resources for food security programs and the 
adoption of government policies that support multifaceted programs that 
address the underlying causes of hunger. Thus we are most grateful that 
the committee is holding a hearing on opportunities for U.S. leadership 
in alleviating global hunger.

                          THE HUNGER QUANDARY

    An important element of American's foreign policy is ``soft 
power,'' which entails focusing more resources on addressing problems 
before they become crises, building local capacity and institutions, 
and conveying America's compassion to the world. There is perhaps no 
greater example of a ``problem'' that can lead to a crisis than hunger 
and its underlying causes, and perhaps no greater way to show 
compassion than to decrease the chances that an individual, community 
and nation will suffer from hunger.
    Yet, tackling hunger seems a daunting task. Just the sheer number 
of people affected by hunger is overwhelming. While the first 
Millennium Development Goal (MDG) is to cut hunger in half by 2015, the 
number of people suffering from chronic hunger actually increased from 
800 million in 1996 to 842 million in 2004. With escalating food and 
fuel prices in 2007 and 2008, the number increased even more to 963 
million. In addition to these chronic needs, as we can read in the 
paper nearly every day, millions more are facing starvation due to 
emergencies arising from adverse weather, natural disasters, conflicts, 
economic downturns, and detrimental government polices.
    ``Food security'' covers an array of factors that assure a person, 
community and country will not suffer from hunger. It is defined in the 
U.S. Food for Peace Act as ``access by all people at all times to 
sufficient food and nutrition for healthy and productive lives.'' Food 
security can be broken down into three major components: (1) 
Availability of food, usually in the market or from production; (2) 
ability to access food through procurement, production and safety net 
programs, and the distribution of food among household and community 
members; and (3) utilization of food, which includes the affect of 
preparation and ability to digest and absorb nutrients.
    Food security is negatively affected by a wide range of issues, 
including poor agricultural productivity; high unemployment; low and 
unpredictable incomes; remoteness of farm communities; susceptibility 
to natural disasters, civil unrest and instability; wide discrepancies 
between the well-off and the poor; chronic disease; and lack of basic 
health, education, water and sanitation services. Well-planned and 
well-executed agriculture, rural development, health, nutrition, and 
food aid programs address these underlying causes of hunger. The 
integration of all of these types of programs in the field can provide 
an even more powerful and lasting impact. Countries with failing 
governments, lack of protection for their citizens, and conflicts are 
those where we see protracted and severe hunger, indicating the 
importance of incorporating food security issues into U.S. diplomatic 
and security efforts.
    Thus, to eradicate hunger the multiple aspects of food security 
must be addressed, which requires a comprehensive approach. The Global 
Food Security Act of 2009 (S. 384), introduced by Senators Richard 
Lugar and Robert Casey, is intended to set in motion a U.S. Government 
strategy to address the food security needs of the developing world. 
This legislation provides an opportunity to establish food security as 
a theme of U.S. foreign aid, to expand agriculture, rural development 
and nutrition programs, and to focus more resources on improving the 
living conditions, productivity and livelihoods of small farmers, 
pastoralists and the rural poor.
    The Alliance for Global Food Security is most grateful for the 
leadership of Senators Lugar and Casey in developing this bill. We urge 
congressional action, but believe several improvements are needed to 
cover current gaps in food security programming and to ensure the 
engagement of the poor communities where the need is greatest.

                   COORDINATED POLICIES AND PROGRAMS

    One hurdle for establishing a unified U.S. policy on global food 
security is that our Nation's food security programs are administered 
by multiple agencies and are not well coordinated. Most global food 
security programs are administered by the U.S. Agency for International 
Development (USAID), but there are significant programs at the U.S. 
Department of Agriculture and Department of State. Several other 
agencies also are involved in various ways, including the Department of 
Defense, the Millennium Challenge Corporation, the Department of the 
Treasury, the Office of the U.S. Trade Representative and the 
Department of Health and Human Resources. However, there is no 
comprehensive framework that identifies objectives, the contributions 
of each agency or program, and the expected outcomes. A food security 
framework would allow the identification of best practices, commonality 
of indicators to track progress and results across multiple 
interventions, and increased effectiveness by scaling up programs that 
work.
    To develop and to track progress of such a strategy, a coordinator 
with sufficient authority and resources is needed. The 1988 Aid to 
Trade Missions Act established a White House position that is now 
called the ``Special Assistant to the President for Food and 
Agriculture,'' who could be given the food security portfolio and the 
responsibility to bring together stakeholders and government officials 
that manage these programs and develop a government-wide strategy. This 
is essentially the role envisioned for the ``White House Coordinator on 
Food Security'' that would be established in S. 384.
    While responsibility for each program ultimately must lie with the 
appropriate administrative agency, a White House Coordinator and the 
establishment of a global food security strategy would allow the U.S. 
Government to bring together the expertise and capacities of multiple 
agencies, the private sector, and nongovernmental organizations to 
address the problem. Currently, there are interagency working groups on 
specific issues, such as food aid and last year's food crisis, but a 
method for ongoing consultations among relevant government and 
nongovernmental officials does not exist.
    Thus, the Coordinator should be required to establish a process for 
ongoing consultations with government agencies as well as 
nongovernmental organizations that conduct international antihunger 
programs.
    Even within USAID, where most food security programs are 
administered, different programs addressing food security could be 
better coordinated or linked to others and would be benefited from 
ongoing consultations with stakeholders.
    There is an opportunity as part of S. 384 to leverage and to 
improve program effectiveness by ensuring that USAID's bureaus, 
offices, overseas missions and programs related to food security are 
coordinated and that synergies among different programs are embraced.
    As one example, the Food for Peace Office is under the USAID Bureau 
for Democracy, Conflict and Humanitarian Assistance (DCHA) and the 
Agriculture Office is under the Bureau for Economic Growth, Agriculture 
and Trade (EGAT). Food for Peace's primary objective is to promote food 
security through the use of Public Law 480, Title II food aid. Most of 
the funds are provided for emergency aid. However, there are also 
developmental programs that are implemented by PVOs primarily in poor, 
rural areas where the majority of people are landless laborers, 
smallholder farmers and pastoralists. Those PVO food aid programs have 
resulted in increased incomes and agriculture productivity, decreased 
malnutrition among young children, the development of viable 
agricultural and other enterprises, and stronger safety nets and 
community groups to support social services.
    Hunger alleviation and the rural poor are also the focus of section 
103 of the Foreign Assistance Act (Agriculture, Rural Development and 
Nutrition), which has the following objectives--``(A) to alleviate 
starvation, hunger, and malnutrition; (B) to expand significantly the 
provision of basic services to rural poor people to enhance their 
capacity for self-help; and (C) to create productive farm and off-farm 
employment in rural areas to provide a more viable economic base and 
enhance opportunities for improved income, living standards, and 
contributions by rural poor people. . . . '' Since opportunities for 
using the Food for Peace program for agriculture-related programs are 
limited and additional funding is needed to scale up and to expand 
those community-based programs, it would seem logical that development 
assistance funds provided through EGAT or USAID missions should be 
available.
    However, there are few opportunities where a PVO or cooperative can 
access development assistance funds for directly working with and 
mobilizing chronically poor, rural households.
    Agriculture assistance funds are rarely available to support the 
PVO approach of working directly with rural communities on the adoption 
of appropriate technologies; improving agricultural productivity; 
strengthening farmer organizations, agricultural enterprises and 
cooperatives; linking smallholder farmers to markets, inputs and 
financial services; improving rural infrastructure and natural resource 
management; and strengthening institutions to support the needy and to 
improve nutrition of vulnerable groups. Clearly, this is one issue that 
we urge the committee to remedy if it marks up food security 
legislation.

            THE FOOD CRISIS AND ITS IMPACT ON THE RURAL POOR

    The lack of food security planning and resources became very 
apparent last year as food and fuel prices soared, resulting in 
protests in over 30 poor countries and adding 100 million people to the 
850 million already suffering from hunger. The United Nations, The 
World Bank and other international institutions that reviewed the 
history of the food crisis found that for two decades demand for food 
had been growing due to population growth, higher incomes, and the 
diversification of diets. During that period, public and private 
investment in agriculture in developing countries had been declining 
and external assistance to agriculture dropped from 20 percent of 
Official Development Assistance in the early 1980s to 3 percent by 
2007. Production in most developing countries was stagnant or dropped 
as the international markets offered low prices for staples.
    Prices for basic foodstuffs began rising again in 2004 and peaked 
in 2007/2008, when world grain stocks fell to their lowest levels in 30 
years. By that point, net food-importing developing countries were hit 
the hardest as they lacked sufficient reserves.
    Last year, when prices peaked, there was great concern about urban 
populations, as they rely on markets and not their own agriculture 
production. Indeed, the impact was most obvious in urban areas, as 
people who were not previously considered food insecure could not buy 
sufficient amounts of food and the visibility of protests and threat of 
political instability drew attention to their needs.
    However, three out of five poor people in developing countries 
reside in rural areas, where the majority of households are net food 
consumers and the majority of farms are small, have low productivity 
and are not linked to markets, inputs or financial services. For 
smallholder farmers and pastoralists, rising costs of and poor access 
to inputs and services made it more difficult to maintain production 
levels at previous rates, and even if they had excess to sell, lack of 
access to markets made it difficult to get a high price. Thus, they 
could not respond to or benefit from the opportunity that increased 
demand and higher prices for food should have provided. On balance, 
they were actually set back by the price increases.

                 THE COMPREHENSIVE FRAMEWORK FOR ACTION

    In June 2008, government leaders held a High Level Conference on 
Food Security to discuss the food crisis. They produced the 
``Comprehensive Framework for Action (CFA)'' that identifies objectives 
and outcomes needed to realize the global commitments laid out in the 
MDGs and to address the global hunger crisis.
    The CFA has two main objectives: ``(1) To improve access to food 
and nutrition support and increase food availability, by meeting the 
immediate needs of vulnerable populations;'' and ``(2) to address the 
underlying factors driving the food crisis, by building longer term 
resilience and contributing to global food and nutrition security.'' To 
meet these short- and long-term objectives, the CFA calls for the 
following actions--
          1. Provide access to emergency food assistance, nutrition 
        interventions and safety nets;
          2. Expand social protection systems through both food and 
        cash inputs;
          3. Boost smallholder farmer food production (short term) and 
        sustain improvements in smallholder food production (longer 
        term) through such things as supplying critical inputs and 
        services, rehabilitating rural and agricultural infrastructure, 
        linking small-scale farmers to markets, investing in crop, 
        animal and fisheries research, supporting the development of 
        producer organizations and private enterprises, and 
        implementing supportive policies;
          4. Adjust tax and trade policies;
          5. Manage macro-economic implications, such as inflation and 
        financing food imports;
          6. Improve international food markets by reducing 
        agricultural trade distortions and providing aid-for-trade to 
        developing countries; and
          7. Develop an international consensus on biofuels.
    All of these items, plus others, are appropriate to consider when 
developing a U.S. global food security strategy. The first three items 
are also relevant to the provisions of S. 384 that would amend section 
103 and other agriculture-related provisions of the Foreign Assistance 
Act (FAA) and create a new fund for food emergencies.

              AGRICULTURE, RURAL DEVELOPMENT AND NUTRITION

    S. 384 amends section 103 of the FAA, Agriculture, Rural 
Development and Nutrition, by adding 3 new objectives: Expand economic 
participation of and safety nets for people living in extreme poverty, 
support conservation farming and sustainable agricultural techniques in 
response to climate change, and improve nutrition of vulnerable 
populations, such as children under the age of two. It authorizes 
appropriations for fiscal years 2010 through 2014 for section 103 
programs, starting at $750,000,000 in FY 2010 and increasing to 
$2,500,000,000 by 2014. The legislation also requires funding for U.S. 
universities and colleges to promote research and support institutions 
of higher learning in developing countries through a new program called 
``Higher Education Collaboration for Technology, Agriculture, Research, 
and Extension,'' or ``HECTARE,'' starting at $100 million in FY 2010 
and increasing to $500 million in FY 2014.
    Expanding the objectives of section 103, authorizing increased 
funding and calling for increased investments in locally appropriate 
research and technologies are steps toward greater U.S. engagement in 
food security, but an important piece must be added. S. 384, current 
law and the CFA point to the importance of improving the productivity, 
incomes and nutrition of poor, rural populations, which is an area 
where PVOs and cooperatives have expertise and a track record. Yet, as 
noted earlier, development assistance funds are rarely made available 
by USAID to PVOs and cooperatives for these purposes and the bill does 
not address this problem.
    To remedy this gap we seek an amendment to assure that USAID 
establishes a program, or programs, to provide assistance through PVOs 
and cooperatives that can effectively mobilize and build capacity in 
rural and poor communities in order to achieve the objectives of 
section 103. The size and details of such a program would be left to 
the discretion of the Administrator.
    PVOs establish local relationships in order to work directly with 
affected communities and households to solve their food security 
problems. As part of their programs, local institutions, associations 
and businesses are developed and strengthened in order to create more 
durable benefits. PVOs have demonstrated their ability to increase 
agricultural productivity and incomes for the poor, to improve natural 
resource management and to improve nutrition and care for the most 
vulnerable. Their potential is currently underutilized in agriculture 
and rural development programs and this amendment will take a step to 
assure they are incorporated into these critical development efforts.

                  RESOURCES TO RESPOND TO FOOD CRISES

    A more holistic and preventative approach to food crises is needed. 
A significant portion of Public Law 480, Title II funds is already 
available for emergency food needs and the Bill Emerson Humanitarian 
Trust is a back up reserve of funds in case Title II funding is 
insufficient for these purposes. International Disaster Assistance 
provides cash funding for emergency needs, including local and regional 
purchase, and some disaster funds are used for monitoring and 
preparedness. However, too little funding is available for risk 
reduction and responses that lead to a more rapid and complete 
recovery.
    S. 384 establishes and authorizes $500,000,000 in appropriations 
for the ``Emergency Food Assistance Fund,'' which can be used for 
urgent food assistance needs, including local and regional purchase and 
distribution of food and nonfood assistance. To distinguish this new 
Fund from other authorized programs, to be sure it covers the potential 
range of emergency needs, and to be more preventative than just 
response oriented, we suggest adding several additional uses.
    In addition to local purchase, cash transfers, food vouchers and 
nonfood resources for urgent needs, resources and assistance from this 
Fund should be available for risk management and prevention, early 
intervention and mitigation of the potential impact of a food crisis, 
and actions that support more rapid and complete recovery.
    Mr. Chairman and Senator Lugar, the Alliance is most grateful for 
your concern and desire to address global hunger. We would be pleased 
to respond to questions or to provide additional information that may 
be helpful in your efforts.
            Sincerely,
                                            Ellen Levinson,
                                                Executive Director.
                                 ______
                                 

                                    

      

</pre></body></html>
